<html>
<title> - CONFIRMATION OF REPRESENTATIVE HILDA L. SOLIS</title>
<body><pre>[Senate Hearing 111-319]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-319
 
                    CONFIRMATION OF REPRESENTATIVE 
                             HILDA L. SOLIS

=======================================================================


                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

  CONFIRMATION OF REPRESENTATIVE HILDA L. SOLIS, OF CALIFORNIA, TO BE 
                  SECRETARY, U.S. DEPARTMENT OF LABOR

                               __________

                            JANUARY 9, 2009

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
46-666                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              JOHN McCAIN, Arizona
BERNARD SANDERS (I), Vermont         ORRIN G. HATCH, Utah
SHERROD BROWN, Ohio                  LISA MURKOWSKI, Alaska
ROBERT P. CASEY, JR., Pennsylvania   TOM COBURN, M.D., Oklahoma
KAY R. HAGAN, North Carolina         PAT ROBERTS, Kansas
JEFF MERKLEY, Oregon                   
  

           J. Michael Myers, Staff Director and Chief Counsel

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)





                            C O N T E N T S

                               __________

                               STATEMENTS

                        FRIDAY, JANUARY 9, 2009

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     1
Boxer, Hon. Barbara, a U.S. Senator from the State of California.     2
    Prepared statement...........................................     4
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     6
    Prepared statement...........................................     8
Harkin, Hon. Tom, a U.S. Senator from the State of Iowa, prepared 
  statement......................................................    10
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    12
    Prepared statement...........................................    13
Solis, Hon. Hilda L., a U.S. Representative from the State of 
  California.....................................................    14
    Prepared statement...........................................    16
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut, prepared statement................................    22

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Murray,..............................................    45
    Response by Hilda L. Solis to questions of:
        Senator Kennedy..........................................    46
        Senator Harkin...........................................    47
        Senator Mikulski.........................................    50
        Senator Murray...........................................    50
        Senator Brown............................................    53
    Letters of support...........................................    54

                                 (iii)




                    CONFIRMATION OF REPRESENTATIVE 
                             HILDA L. SOLIS

                              ----------                              


                        FRIDAY, JANUARY 9, 2009

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-430, Dirksen Senate Office Building, Hon. Edward Kennedy, 
chairman of the committee, presiding.
    Present: Senators Kennedy, Dodd, Harkin, Mikulski, Reed, 
Sanders, Enzi, Alexander, Isakson, Hatch, and Roberts.
    Also present: Senator Feinstein and Senator Boxer.

                  Opening Statement of Senator Kennedy

    The Chairman. Good morning. It is a good morning. We have a 
wonderful group of our colleagues and friends here today, an 
extraordinary number really, to join with us. It's a real 
indication of the fact of how much we admire our nominee and 
how important this committee is on these important matters. We 
understand, I think, all of us, given the challenges that we 
face, the importance and significance of the committee and how 
important to have a Secretary that is as strong a nominee as we 
can possibly have.
    We want to welcome Senator Feinstein and Senator Boxer, and 
we're also joined by Representative Sheila Jackson Lee. But, 
we'd like to ask Senator Feinstein and Senator Boxer if they'd 
be willing to make a comment, in introduction, for our nominee 
this morning.
    Senator Feinstein.

                     Statement of Senator Feinstein

    Senator Feinstein. Thank you very much, Mr. Chairman, 
Senator Enzi, and members of the committee.
    For me, this is a wonderful moment, because to see women 
progress and go on and be very good at what they do is very 
special. Hilda Solis is one of those women. I'm really very 
pleased and very proud to recommend her confirmation as 
Secretary of Labor.
    She is one person who has actually dedicated her life to 
public service and to improving the lives of people in her 
community. Hilda was the first member of her family to attend 
college. She graduated from California State Polytechnic 
University and later earned a master's in public administration 
from the University of Southern California, known as USC, with 
that great football team.
    [Laughter.]
    Representative Solis began her career in public service in 
President Carter's administration as the editor of publications 
in the Office of Hispanic Affairs. After returning to 
California, she served as a trustee of the Rio Hondo Community 
College Board. In 1992--it was a big year--she was elected to 
the California State Assembly, and, unusually, 2 years later, 
became the first Hispanic woman in California history to be 
elected to the California State Senate.
    She was the chairwoman of the very powerful Industrial 
Relations Committee, and she was instrumental in the successful 
battle to increase the State minimum wage. She has authored a 
record 17 State laws aimed at combating domestic violence, 
including a bill to allow workers to take leave from their jobs 
to obtain restraining orders against their abusers. She won the 
John F. Kennedy Profile in Courage Award for authoring 
groundbreaking environmental justice legislation that seeks to 
reduce the number of polluting projects in minority and low-
income areas. So, she now knows the Hill, is very much 
respected in the House, and, I believe, will be, as well, by 
the Senate.
    This is a woman of common sense and, I believe, very sound 
judgment. She understands the balances. And I think she very 
well understands the balance, as Secretary of Labor, between 
management and labor issues. She obviously is going to fight 
for worker rights, but, after all, this is the position of 
Secretary of Labor.
    I really think it's a wonderful thing that President-elect 
Obama nominated her for this position, and I'm just very proud 
to be here to support that nomination, along with my friend and 
colleague Senator Boxer.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Diane Feinstein. It's a 
wonderful welcome and introduction, and we know what a strong 
supporter you are of Hilda Solis, and I thank you for taking 
the time and joining with us.
    We see our friend and colleague, your co-conspirator----
    [Laughter.]
    The Chairman [continuing]. Senator Barbara Boxer, and we 
are always glad to see her. We thank her very much, as we do 
Senator Feinstein, for taking the time and joining with us here 
today. It makes a great difference to all of us. Thank you very 
much.
    We'd be glad to hear from you.

                       Statement of Senator Boxer

    Senator Boxer. Chairman Kennedy and Ranking Member Enzi and 
all my dear friends and colleagues on both sides of the aisle, 
this is a wonderful day for Senator Feinstein, and for me, for 
the reasons that you just heard from Senator Feinstein; and I 
will not reiterate those things, but I probably will wind up 
saying them a slightly different way.
    Mr. Chairman, I know I speak for millions of Americans when 
I say it is beyond wonderful to see you presiding today in all 
of your glory. I just love it. We look forward to seeing this 
committee do its work. It's such an important time for every 
committee of the Senate.
    Well, this is an opportunity for me to introduce a dear 
friend and colleague, someone I've worked with very closely 
over the years. And, you know, I think why this is such a very 
important nomination is, we really need to hear the voices of 
working men and women in this country today, when things are so 
rough. I think that this nomination is a clear message from 
President-elect Obama that America's working families will be 
heard.
    Congresswoman Solis has a strong understanding of their 
everyday struggles. I see her deal with them every day. She 
understands the challenges facing our economy, and she 
understands the need to be part of the team, working with us to 
jump start this economy and to create jobs.
    This change couldn't come a moment too soon. You know the 
sobering news this morning about the current state of the labor 
market. Last month, the economy lost 524,000 jobs; and in 2008, 
2.6 million jobs were lost, the most since 1945. Unemployment 
continues to climb. In some areas of our home State of 
California--and I just did a survey of the various counties--
unemployment is over 12 percent, Mr. Chairman, in some areas of 
our great State. The wages for many in the middle class have 
stagnated; in some cases, they've decreased in the past 8 or 9 
years. We are in the midst of the greatest economic challenge 
this country has faced in a generation. I can think of no one 
who will take on the task that faces all of us and will work 
with us better than Hilda Solis, because she has energy, as a 
lot of you will see, and she has creativity.
    And here's the thing. She's a woman of great integrity. 
Throughout her career, Congresswoman Solis has been a forceful 
advocate for working men and women. She was born and raised in 
southern California, San Gabriel Valley, where she was 
instilled early-on with the values of hard work. And that's 
what you deal with, people who work.
    Her father emigrated from Mexico, and he worked various 
jobs before becoming a teamster shop steward. Her mother came 
to the United States from Nicaragua and worked at a local toy 
factory. From them, Hilda learned about the importance of 
having a voice in the workplace and the sacrifices many parents 
make to provide opportunities for their children.
    As the very first Latina elected to the California State 
Senate, Congresswoman Solis worked tirelessly to pass 
progressive laws, to strengthen our economy and build 
California's middle class. In addition to her many other 
accomplishments, as Senator Feinstein said, she led efforts to 
pass a much-needed increase in the minimum wage in California.
    In the 1990s, when Congresswoman Solis discovered that 
toxic sites were disproportionately located near minority and 
low-income communities, she wrote an environmental justice law. 
And I remember, one of the first things we discussed when I got 
to the Senate, because I was on the Environment and Public 
Works Committee, was continuing to fight for those without a 
voice who find themselves in situations where their children 
are exposed to toxics in the air and sometimes in the water, in 
the workplace. And as Senator Feinstein said--and I will repeat 
this--she became the first woman honored with the John F. 
Kennedy Profile in Courage Award.
    I could go on; I'll put my entire statement into the 
record, but I'll conclude this way. I'm here to really bear 
witness to this woman. I know her as well as I know any other 
colleague. We have spent hours traveling back and forth to 
California, sitting next to each other, and working the entire 
time trying to figure out ways to bring bipartisan support so 
that we can improve the lives of working men and women. So, 
today it's a special day, to see Senator Kennedy in the chair, 
to be sitting next to my colleagues Senator Feinstein and Hilda 
Solis. What a banner day it is. And I hope you will swiftly 
confirm this very worthy nominee.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Boxer follows:]

                  Prepared Statement of Senator Boxer

    Good morning Chairman Kennedy, Ranking Member Enzi, and 
committee members.
    Thank you for the opportunity to introduce my good friend 
and colleague from California, Congresswoman Hilda Solis, 
President-elect Obama's nominee for Secretary of Labor.
    Mr. Chairman, too often over the past 8 years, the voices 
of working men and women in this country went unheard.
    But in selecting Congresswoman Solis, President-elect Obama 
has sent a clear message that America's working families will 
be heard.
    Congresswoman Solis has a strong understanding of the 
everyday struggles of working families, the challenges facing 
our economy, and the need for change to jumpstart the economy 
and create jobs.
    This change could not come a moment too soon.
    This morning we received more sobering news about the 
current state of the labor market.
    Last month the economy lost 524,000 jobs, and in 2008, 2.6 
million jobs were lost--the most in 1 year since 1945. 
Unemployment continues to climb--in some areas of our home 
State of California, the unemployment rate is over 12 percent. 
And wages for many in the middle class have actually decreased 
over the last 8 years.
    We are in the midst of the greatest economic challenge this 
country has faced in a generation. And I can think of no one 
who will take on the task of jump starting our economy and 
bolstering the middle class with more energy, creativity, and 
integrity than Congresswoman Hilda Solis.
    Throughout her entire career, Congresswoman Solis has been 
a forceful advocate for working men and women in California and 
throughout the Nation.
    Born and raised in southern California's San Gabriel 
Valley, she was instilled early-on with the values of hard 
work. Her father emigrated from Mexico and worked various jobs 
before becoming a Teamsters shop steward. Her mother came to 
the United States from Nicaragua and worked at a local toy 
factory. From them Congresswoman Solis learned about the 
importance of union membership, and the sacrifices many parents 
make to provide opportunities for their children.
    As the first Latina elected to the California State Senate, 
Congresswoman Solis worked tirelessly to pass progressive laws 
to strengthen our economy and build California's middle class.
    In addition to her many other legislative accomplishments, 
she led efforts to pass a much-needed increase in California's 
minimum wage.
    In the 1990s, when Congresswoman Solis discovered that 
toxic sites were disproportionately located near minority and 
low-income neighborhoods, she wrote an environmental justice 
law to guarantee protections for these communities.
    For her dedication to this cause, she became the first 
woman honored with the John F. Kennedy Profile in Courage 
Award.
    From the time she was first elected to represent 
California's 32d Congressional District in 2000, she has 
focused on solutions to strengthen our economy. In 2007 she 
secured passage of a bill to establish an energy efficiency and 
renewable energy worker training program.
    Knowing Congresswoman Solis as I do, I am confident that as 
Labor Secretary, she will turn the many challenges we face into 
new opportunities for the American people.
    As Secretary, she will continue to promote policies that 
will invigorate our economy, protect American jobs, re-train 
our workforce for a sustainable energy future, ensure safe 
working conditions, enforce wage and hour laws, protect against 
worker discrimination, and strengthen the middle class.
    Congresswoman Solis is truly the new face of the American 
dream, and as Secretary of Labor, she will continue her life's 
work to help millions of Americans secure their own American 
dream.
    Thank you.

    The Chairman. Thank you very much. An excellent statement. 
We know that our colleagues, and we welcome them to remain 
here, but we know that they have important responsibilities, so 
we'll excuse them at any time.
    Senator Feinstein. Thank you, Mr. Chairman.
    Senator Boxer. Thank you.
    The Chairman. Good morning. I'm pleased to welcome our 
distinguished nominee for the Secretary of Labor, 
Representative Hilda Solis. And I thank Senator Feinstein and 
Senator Boxer for their gracious introduction.
    This is not an ordinary hearing, because we do not live in 
ordinary times. America's families are suffering in ways we 
haven't seen in many years, and the crisis is growing worse 
every day. Every morning, working families wake up to more bad 
news--more jobs lost, more pensions gone, more dreams that 
disappear. Just this morning, we learned that we lost another 
524,000 jobs last month.
    That is not just a number, it is families, like Paula 
Stines. Paula worked hard for 30 years. A year ago, she lost 
her job. Now she can't find work. She struggles to pay her 
bills. She stopped taking her medication, because she can't 
afford it. She almost lost her home. Paula played by the rules. 
She took care of her family. And now everything is gone--her 
dignity, her pride, her savings. All is gone.
    The fact that remains is, Paula is not alone. There are 
millions more Americans just like her, men and women who can't 
sleep at night, parents who look into the eyes of their 
children, wondering if they can make it through another day. 
They wonder, How can we afford healthcare? How can we pay the 
rent? How can we put food on the table?
    Throughout our history, Americans have come together in 
times of crisis. Our neighbors, our families, our communities, 
our churches are pitching in. But, we need leadership in our 
government, too. We need leaders who understand what working 
families are facing in today's economy.
    I believe that Hilda Solis is just such a leader. She comes 
from a working family. Her parents sacrificed to give her 
greater opportunity. Throughout her career, Hilda has given 
back to her community and to her Nation. She has fought for 
working families all of her life.
    In the California Senate and now in Congress, she has been 
a voice for the voiceless, with a true passion for fairness and 
justice. For her dedication and leadership, she received the 
Profile in Courage Award. No one could be more deserving of 
that great honor.
    The task before us is great, but Hilda Solis has overcome 
great challenges all her life. I have no doubt that she can do 
it again, to help our families reclaim the American Dream.
    Hilda, I want to thank you for answering President-elect's 
call to serve the country, and I look forward to hearing more 
today about your plans for helping American families.
    Senator Enzi.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. And thank you for 
holding this important hearing. And the significance of how 
important it is: this was the last Cabinet position nominated 
and it's the second person being heard.
    I first want to join in welcoming Representative Hilda 
Solis as the nominee for Secretary of Labor, and to extend to 
her, and to her family, my personal congratulations on her 
selection by President-elect Obama. Your life is one that 
epitomizes the American Dream, and your dedication to public 
service is admirable and should serve as an example to young 
people everywhere.
    The Department of Labor plays a vital role for millions of 
Americans and for the businesses, both large and small, that 
employ them, and the economic downturn does emphasize that 
connection between business and labor, and most particularly in 
small business.
    Now, there are few departments or agencies that share 
anything like the breadth and width of responsibility that the 
Department of Labor does. The Department oversees dozens of 
programs and enforces a host of statutes and regulations 
designed to ensure that our Nation's workers are safe, 
equitably treated, and fairly compensated when they're working, 
that they're assisted, trained, and retrained when they're 
unable to work, and that they enjoy economic security and 
freedom when their working days are over. The breadth of these 
responsibilities is matched only by their importance.
    Running any operation of the size and diversity of the 
Labor Department requires consummate managerial skill. With 
more than 17,000 employees and a budget of over $70 billion and 
a responsibility for administering dozens of programs and 
enforcing a host of Federal employment laws and regulations, 
the task is a daunting one.
    Given the complexity of this task, I believe it would be 
enormously helpful to the committee if you could share with us 
today any specifics regarding your managerial experience and 
your experience with the substantial laws and programs which 
fall within the Department's jurisdiction that you believe are 
important.
    Beyond managerial and substantial experience, the 
successful stewardship of the Department also requires the 
ability to work constructively with many stakeholders. A 
managerial or policy perspective that's too narrow or too 
partisan won't serve the Department well, nor will it 
ultimately serve those whose interests the Department is there 
to protect.
    Any governing philosophy which rests on the assumption that 
the interests of employers and employees are always adversarial 
is one that's destined to be counterproductive. The President-
elect has often spoken eloquently and persuasively about the 
need for change. Repudiating the ``us versus them'' mentality 
that has, unfortunately, characterized much of labor-management 
relations would certainly be a change that I believe everyone 
would welcome. Acknowledging the fact that employers are not 
the enemies of those that they employ, and that, particularly 
in these economic times, cooperation and engagement may often 
be far better strategies than confrontation and dismissal, this 
committee has shown their ability to work through those 
different phases. We made the first nine changes in OSHA, in 
the history of OSHA. One of those was a needlestick bill that 
protects both the janitorial staff as well as the nursing and 
doctor staff. We also made the first change in mining laws in 
28 years. And we did that in 6 weeks, as compared to the normal 
6 years of getting a new concept through.
    Now, I often call upon my experience as a small-
businessman, two decades of selling shoes, used during my work 
here on the HELP Committee. I know that your husband, who I 
think is here with us today, also runs a small business. He may 
agree with me that, for a small-businessman, employees are like 
family, and everyone strives for the ability to make payroll, 
provide good benefits and a flexible work environment. An 
inflexible regulatory environment can hamstring the ability of 
such employers to achieve the balance that best serves his or 
her employees.
    Again, I believe that it would be enormously helpful to the 
committee if you could outline your governing philosophy in 
these respects, and how it's been reflected in your previous 
public service.
    As I indicated to you in our meeting yesterday, I recognize 
the fact that, on most of the current labor issues, you and I 
have very different views. From my perspective, however, I do 
not believe that fact precludes individuals from working 
constructively together. Not only do I believe that people can 
disagree without being disagreeable, I also believe that if 
they try, they can often find common ground, and, as I 
mentioned yesterday, I think that happens in at least 80 
percent of the instances.
    One area where common ground should certainly be found is 
in retooling our Nation's job-training system. I commend you on 
the emphasis you placed on skills development and job-search 
assistance, and the background that you have through community 
college. At a time when our economy is being challenged to 
create jobs that will bolster our infrastructure and our 
competitive edge in the 21st-century global economy, the skills 
of our workforce have not kept pace.
    My colleagues know that I strongly believe we must 
reauthorize and improve the Workforce Investment Act, the law 
that helps provide American workers with skills they need to 
compete in the global economy, not just in traditional jobs. I 
hope you'll work with me to improve this vital program.
    Again, I congratulate you on your nomination and commend 
you for your public service, and I look forward to your 
testimony and then with working with you.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you very much, Mr. Chairman, for holding this 
important hearing.
    I first want to join in welcoming Hilda Solis as the 
nominee for Secretary of Labor; and, to extend to her, and to 
her family, my personal congratulations on her selection by 
President-elect Obama. Your life is one that epitomizes the 
American Dream; and your dedication to public service is 
admirable, and should serve as an example to young people 
everywhere.
    The Department of Labor plays a vital role for millions of 
American workers, and for the businesses, both large and small, 
that employ them. There are few Departments or Agencies that 
share anything like the breadth and variety of responsibility 
that the Department of Labor does. The Department oversees 
dozens of programs, and enforces a host of statutes and 
regulations designed to insure that our Nation's workers are 
safe, equitably treated and fairly compensated when they are 
working; are assisted, trained and retrained when they are 
unable to work; and, enjoy economic security and freedom when 
their working days are over. The breadth of these 
responsibilities is matched only by their importance.
    Running any operation of the size and diversity of the 
Department of Labor requires consummate managerial skill. With 
more than 17,000 employees, a budget of over $70 billion, and 
responsibility for administering dozens of programs, and then 
enforcing a host of Federal employment laws and regulations, 
the task is a daunting one. Given the complexity of this task, 
I believe it would be enormously helpful to the committee if 
you could share with us today any specifics regarding your 
managerial experience, and your experience with the substantive 
laws and programs which fall within the Department's 
jurisdiction that you believe are important.
    Beyond managerial and substantive experience, the 
successful stewardship of the Department also requires the 
ability to work constructively with its many stakeholders. A 
managerial or policy perspective that is too narrow or too 
partisan will not serve the Department well, nor will it 
ultimately serve those whose interests the Department is there 
to protect. Any governing philosophy which rests on the 
assumption that the interests of employers and employees are 
always adversarial is one destined to be counterproductive.
    The President-elect has often spoken eloquently and 
persuasively about the need for change. Repudiating the ``us 
versus them'' mentality that has unfortunately characterized 
much of labor/management relations would certainly be a change 
that I believe everyone would welcome. Acknowledging the fact 
that employers are not the enemies of those that they employ; 
and, that, particularly in these economic times, cooperation 
and engagement may often be far better strategies than 
confrontation and dismissal would certainly be an important 
first step in that direction.
    I often call upon my experience as a small businessman 
during my work here on the HELP Committee. I know that your 
husband, who is here with us today, also runs a small business. 
He may agree with me that for a small businessman, employees 
are like family; and everyone strives for the ability to make 
payroll, provide good benefits and a flexible work environment. 
An inflexible regulatory environment can hamstring the ability 
of such employers to achieve the balance that best serves his 
or her employees.
    Again, I believe that it would be enormously helpful to the 
committee if you could outline your governing philosophy in 
these respects and how it has been reflected in your previous 
public service.
    As I indicted to you in our meeting this week, I recognize 
the fact that on most of the current labor issues you and I 
have very different views. From my perspective, however, I do 
not believe that fact precludes individuals from working 
constructively together. Not only do I believe that people can 
disagree without being disagreeable, I also believe that if 
they try, they can often find common ground more frequently 
than one might suspect.
    One area where common ground should certainly be found is 
re-tooling our Nation's job training system. I commend you on 
the emphasis you have placed on skills development and job 
search assistance. At a time when our economy is being 
challenged to create jobs that will bolster our infrastructure 
and our competitive edge in the 21st century global economy, 
the skills of our workforce have not kept pace. My colleagues 
know that I strongly believe we must reauthorize and improve 
the Workforce Investment Act, the law which helps to provide 
American workers with the skills they need to compete in the 
global economy. I hope you will work with me to improve this 
vital program.
    Again, I congratulate you on your nomination and commend 
you on your public service. I look forward to your testimony.

    The Chairman. OK. Thank you very much, Senator Enzi, who's 
so active in the workings of this committee. We thank you for 
your comments.
    I wanted to start with Senator Murray, who is the chair of 
our Labor Subcommittee. She could not be here today because of 
the floods, which are overwhelming in her State. We'll go to 
Senator Harkin. What we have tried to do is--with our 
subcommittee chairs--is get the recognition for them and then 
follow the order of priorities in the workings of our 
committee. And so, I want to welcome my friend Lois Capps, as 
well, for being here.
    Before we hear from Senator Harkin, perhaps we could 
introduce the members of your family. If you have a moment, 
we'd welcome that. We do not have the extended family here 
today, because----
    [Laughter.]
    The Chairman [continuing]. We wanted to leave a little room 
for others in here, but I've had the chance to meet a good 
share of them, and they are delightful and enormously 
resourceful and extraordinarily hard workers and wonderful 
individuals. But, perhaps we could start. Hilda, why----
    Mrs. Solis. Senator, would you like me to----
    The Chairman [continuing]. Don't you introduce them.
    Mrs. Solis [continuing]. Introduce them?
    The Chairman. Yes, that'll be good.
    Mrs. Solis. Thank you, Senator. Again, it's a privilege to 
be here with you and with your distinguished colleagues.
    I'm happy that at least one-fifth of my family is here with 
me.
    [Laughter.]
    They traveled from California to be here at this very 
important hearing. My husband, Sam Sayyad, who is a small-
business owner, and has been for over 20 years, is with me. My 
youngest sister, who has a twin. Senator, you recall meeting 
the twins. This is Anna Solis. She is a chemical engineer from 
Orange County. And my sister, who just received her Ph.D. this 
year, Dr. Beatrice Solis. Her Ph.D. is in public health. And we 
have various friends in the audience. So, thank you, Senator.
    The Chairman. Very good.
    Mrs. Solis. I thank my colleagues from the House of 
Representatives for being here, distinguished member Lois Capps 
and distinguished member Sheila Jackson Lee.
    The Chairman. Thank you very much, and we'll look forward 
to hearing your statement.
    Did Senator Harkin want to make his----
    Senator Harkin. Mr. Chairman, I'll just put my statement in 
the record and I'll join in with questions.
    The Chairman. OK, fine.
    [The prepared statement of Senator Harkin follows:]

                  Prepared Statement of Senator Harkin

    Thank you, Chairman Kennedy, and congratulations on your 
nomination, Congresswoman Solis. I'm glad we could get this 
hearing in early, because we need someone to hit the ground 
running at the Department of Labor from day one. Working men 
and women in this country are facing tougher economic times 
than we've seen in our lifetimes. In my home State of Iowa, the 
Department of Workforce Development is scrambling to get 
unemployment checks out. We're now the second highest in new 
unemployment claims, and paid $60 million in claims last 
month--compared to $27 million in December 2007.
    The trouble is, workers never saw their share during the 
last economic boom but they are getting more than their share 
of the bust. As Labor Secretary, you are poised to dramatically 
improve the lives of these working Americans. In the last 8 
years, we have seen outrageous erosion in health and safety 
enforcement, wage and hour enforcement, and job training. At 
the same time, the Department has imposed onerous new reporting 
requirements on the very same union workers who have 
historically fought to improve economic security and workplace 
safety. It's been hard to pick up a newspaper without reading 
about plant shutdowns, pension terminations and freezes, or 
employers dropping health care coverage. As of last October, 
pension plans in the United States have lost $2 trillion. This 
means the workers have lost $2 trillion of their retirement 
security. We must work together to restore retirement security 
to American workers, and we need new ideas about how to get us 
there.
    Wages have declined or stagnated, and many jobs have 
outright disappeared, in part because of trade agreements that 
did not have sufficient labor protections. U.S. workers are 
forced to compete with child workers overseas. These child 
laborers are forced to work in hazardous conditions for little 
or no pay. As Secretary, you will be in charge of the 
International Labor Affairs Bureau, which I began funding in 
1996 and which remains among my top priorities. I am pleased 
that when we spoke on Wednesday you said you share my 
commitment to eliminating the worst forms of child labor. Also, 
as you are well aware, our enforcement of domestic child labor 
law is wholly insufficient. Even in my State of Iowa, after the 
immigration raid at Agriprocessors plant in Postville, the 
company was charged with over 9,000 counts of child labor. The 
Department of Labor recently increased the maximum child labor 
penalties for violations resulting in the death or permanent 
disability of a child. However, as you know, those maximums are 
rarely assessed and that the average fine in 2007 was only 
$887. I hope you share my view that this kind of slap on the 
wrist for violations that result in death or permanent 
disability to a child should not be happening in this country, 
and I look forward to working with you to address this 
injustice.
    Another issue near and dear to my heart is equal 
opportunities for people with disabilities. Sadly, the 
employment rate among people with disabilities is around 37 
percent--that is, 37 percent of people with disabilities are 
employed and 63 percent are unemployed. Many of those who are 
not working want to work, but are prevented from doing so due 
to a variety of factors, including work disincentives and lack 
of adequate transportation. I hope that we can work together 
with other agencies, such as Social Security and CMS, in order 
to start removing these barriers so that individuals with 
disabilities can have a real opportunity to be productive 
members of our workforce.
    Finally, as we talked about previously, it is astonishing 
that women in the United States are only earning 78 cents for a 
dollar earned by their male counterpart. I am pleased to hear 
that the House today is voting on legislation to fix the gaping 
loophole in the law left by the Supreme Court's Ledbetter 
decision. The House is also voting on the Paycheck Fairness Act 
which will put real teeth into enforcing the laws that we have 
on the books. But as you know, I intend to go a step farther by 
working to eliminate the discrimination between traditionally 
male and female dominated occupations, and I hope we can work 
together on both stepping up enforcement of current law and 
moving forward to close the wage gap.
    I understand that you come from a similar background to 
mine--your dad worked at a battery recycling plant and your mom 
worked on the line at Mattel. My dad was a coal miner. I can 
tell you without question that growing up and knowing what my 
parents went through to put food on the table really shaped who 
I am today. At this time of economic crisis, it is so important 
for America to have a Secretary of Labor who has lived the 
experience of working people, and who understands their 
struggles and challenges. I wish you all the best and look 
forward to your opening statement.

    The Chairman. Senator Isakson is the other co-chair of our 
committee.

                      Statement of Senator Isakson

    Senator Isakson. Thank you very much, Mr. Chairman. I want 
to echo the comments of Senator Boxer. We're all very glad to 
see Senator Kennedy here, chairing today and looking so fit and 
so well, and we thank you for being here.
    I welcome Representative Solis, with whom I served in the 
U.S. House of Representatives on the Education and Labor 
Committee. We had a great meeting, 2 days ago in my office, and 
discussed many of the things of concern to me. The most 
important thing, of course, of the Secretary of Labor's job is 
to look after the workforce of America and see to it that they 
are safe and they are treated fairly. And certainly in the last 
8 years, that's happened.
    In the last 8 years, we've reduced workplace injuries and 
fatalities to the lowest level in history, recovered a billion 
and a quarter of wages that had been unpaid and should have 
been paid, and nearly 100 million in stolen funds from unions, 
all of which were done in the Department of Labor. And I am 
sure Secretary Solis, if confirmed as Secretary, will be able 
to continue that legacy.
    I have two main interests, that we discussed in our 
meeting, which I do want to bring up in my opening remarks, and 
hope that Representative Solis will address in her statement or 
in question and answers later.
    First of all is, with Senator Murray's able leadership on 
our subcommittee, we have dealt with three significant issues: 
the banning of asbestos, which has been attempted for 37 years, 
and has yet to be done; the critical issue of mine safety 
following Sago and Crandall Canyon disasters, which caused the 
loss of lives; and pension legislation. We did that by finding 
an equilibrium and a balance between labor and management, 
employer and employee circumstances, and fact and fiction. And 
so, I hope, as we go forward on workplace safety issues, we 
will get the facts, we will find the answers, and then we'll 
act in accordance to what really happened rather than emotion 
at the time.
    In particular, in my State right now we are awaiting the 
outcome of possible criminal indictments or criminal charges in 
the Imperial Sugar explosion, and we're also awaiting the 
chemical Safety Board's report on what actually caused that 
dust explosion. And I hope we will wait until we have all those 
facts before we act in haste and possibly miss doing some 
constructive things that we can do to help see that that never, 
ever happens again in the United States of America.
    Second, and last, card check is a huge issue. I told the 
Secretary-designate or nominee before that that would be a 
major issue I would want to discuss, because I'm so concerned 
with skewing the relationship between labor and management. The 
secret ballot has been critical in organized labor for years. 
In fact, organized labor sought the secret ballot to protect 
against company intimidation of employees in whether or not 
they would unionize or not. I know the Secretary has supported 
card check in the House, but I also know, in the 1990s, in the 
California legislature, the Secretary-designate Solis authored 
legislation guaranteeing overtime pay for over 8 hours of work, 
but also guaranteeing negotiation for flex time to avoid that 
overtime mandate if the employers and the employees agreed. And 
in that legislation, Secretary-designate Solis had legislation 
that said the following, quote, ``Only secret ballots may be 
cast by effective employees at any election held pursuant to 
these procedures.'' And I'm assuming that, at the time, that 
was to ensure that every employee had a voice unaffected by 
management or labor, in terms of whether or not they would 
agree to alternative flex time. I think that demonstrates the 
possibility for openness on the card-check issue, and I look 
forward to hearing from the Secretary-designate on that issue.
    But, I'd end where I began. I congratulate you on your 
nomination. I congratulate your sister on her Ph.D., recently, 
and welcome your husband being here today. I also was a small-
business operator, and we guys always stick together.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Isakson follows:]

                 Prepared Statement of Senator Isakson

    The Secretary of Labor is charged with protecting American 
workers and their interests. The Department, under the capable 
leadership of Secretary Elaine Chao, has done just that for 8 
years. Under her leadership, the workplace fatality rate 
plummeted to its lowest level in history. Over $1.25 billion 
has been recovered in back wages for employees. Nearly $100 
million in stolen union funds have been restored to workers.
    Since the Secretary of Labor must be an advocate for 
American workers, I find it troubling that a nominee for that 
position would support legislation that deprives workers of 
their fundamental rights, including the right to vote on 
unionization via a secret ballot. Legislation to do just that--
a bill deceptively named the Employee Free Choice Act--easily 
passed the House in the 110th Congress and fell only nine votes 
shy of passing in the Senate. I am eager to hear the nominee's 
views on this legislation.
    The Congresswoman and I had a good talk the other day about 
the importance of maintaining a balance when it comes to Labor 
Department regulations. We can, and have, write regulations 
that both protect workers and simultaneously allow businesses 
to grow and prosper. In my 4 years on this committee as the 
Senior Republican on the Employment and Workplace Safety 
Subcommittee, I have worked with Senator Murray to try and 
strike this delicate balance. We have a strong record of 
working together, whether on mine safety reform, asbestos 
prohibition, or pension protection. I urge you, if confirmed, 
to work with our subcommittee as you go about issuing 
regulations.
    As Congresswoman Solis notes in her opening statement, 
these are difficult times for many Americans. There are areas 
where Democrats and Republicans can work together to get this 
economy moving again, but this is the worst possible time to 
inflict anti-worker legislation like the Employee Free Choice 
Act onto American workers.

    The Chairman. Well, you've received quite an introduction 
here, and we are all enormously appreciative for your service 
to the country and your willingness to take on this 
responsibility. We look forward to hearing from you now.

      STATEMENT OF HILDA L. SOLIS, MEMBER OF THE HOUSE OF 
 REPRESENTATIVES FOR CALIFORNIA (32d CONGRESSIONAL DISTRICT), 
                     LOS ANGELES COUNTY, CA

    Mrs. Solis. Thank you, Mr. Chairman. I, too, am delighted 
that you could preside over this particular hearing today. 
Ranking Member Senator Enzi, we had a great discussion the 
other day, thank you, and also all the distinguished members of 
the committee. I believe I had a chance to speak with just 
about everyone, with the exception of Senator Alexander, but 
I'm sure we will take time, after this meeting, and hopefully 
get a chance to talk and discuss what your concerns are. So, I 
want to thank all of you.
    I am deeply honored and grateful that President-elect Obama 
has selected me to serve as his designee for Secretary of 
Labor. If confirmed, I'm eager to serve the American people and 
lead the Department of Labor to improve the opportunities for 
hardworking families.
    My vision of the Department of Labor is rooted in who I am. 
My father, as you know, worked hard as a teamster shop steward 
in a battery recycling plant for more than 20 years. His 
membership in the union helped my family have health and other 
benefits, even when times were tough. My mother emigrated from 
Central America, Nicaragua. She was a stay-at-home mom for most 
of the time that I was a child, but, like anything else, she 
later went to work at a toy factory to help make ends meet, and 
became a member of the United Rubber Workers.
    I'm proud to have been the first of my six brothers and 
sisters to graduate from college. I'm very proud of my 
siblings, including two of my sisters who are here, who you met 
earlier. We could not have gone to college without Federal 
financial aid, like Pell grants. I know Senator Pell was a 
member of this very distinguished committee, and I'm very 
grateful for the work that he provided for millions and 
millions of young people.
    Before I became a public official, I worked as director of 
the California Student Opportunity and Access Program, a State-
funded program, so that I could help others from similar 
backgrounds achieve the dream of higher education. As a board 
member for the community college, Rio Hondo College, I had the 
opportunity to help implement workforce training programs, 
something that I am deeply passionate about.
    In 1992, I was elected to serve in the California State 
Assembly. In 1994 I became the first Latina State Senator in 
California. I am proud to have served the people, the 
distinguished people, of the 32d Congressional District for the 
last 8 years, and I thank them for their confidence in re-
electing me.
    The fact that I'm sitting before you today as a child of an 
immigrant family, a working family, is proof that in America, 
anything is possible.
    Now, more than ever, we must work together to ensure that 
all Americans have the same opportunities that I had. 
Unfortunately, increasing numbers of middle-class families, 
retirees, and youth in America are losing their jobs, their 
homes, and their retirement savings. Data released this 
morning, as you know, shows that unemployment has risen to 7.2 
percent. Youth unemployment exceeds well over 20 percent. And 
more than 500,000 jobs were lost in December. In my district 
alone, the city that I reside in, the city of El Monte, I 
believe the unemployment rate has gone above 11 percent.
    Among those facing tough economic challenges happen to be 
women. According to the U.S. Census Bureau, women continue to 
make only 77 cents for every $1 earned by a man. And minority 
women have even more cause to be concerned. Latinas earn just 
57 cents, and African-American women just 68 cents, for every 
dollar that a man earns.
    Our returning servicemen and women are also facing tough 
challenges in these hard economic times. Increasing numbers of 
young veterans are returning from combat in Iraq and 
Afghanistan with many disabilities, including posttraumatic 
stress disorder and brain injuries.
    If confirmed, Senators, I will join our President-elect's 
team as a voice for working families. I am eager to work with 
you, and believe we have an obligation to restore trust and 
hope for a better future, for a better tomorrow.
    I would like to highlight four areas that I would like to 
focus on, if confirmed.
    First, the Department of Labor must help workers by 
prioritizing job training and assistance. Retooling our 
workforce not only helps workers, but supports high-growth 
industries by ensuring they have the skilled workers that they 
need. If confirmed, I will work with President-elect Obama, my 
colleagues in the Cabinet, and you to reinvest in and 
restructure workforce development and ensure a strong 
unemployment insurance system. This includes promoting what we 
now know as green-collar jobs. These are jobs that would 
provide economic security for our middle-class families while 
reducing our Nation's dependency on foreign oil and resources. 
These are jobs that will also stay in the United States. My 
hope is that these jobs will not be outsourced.
    Second, the Labor Department must ensure that American 
workers are paid what they deserve, are treated fairly, and 
have safe and healthy workplaces. We can accomplish this 
through enforcement, transparency, cooperation, and balance.
    Third, the crisis in retirement security demands action. We 
must expand retirement savings, ensure that existing pension 
plans are solvent, and provide retirees and workers with the 
information they need to make good decisions in how to invest 
for their retirement.
    The Labor Department must assure that the door to 
opportunity is open to every American, regardless of race, sex, 
veteran status, or disability. If confirmed, members, I would 
work to ensure that our sons and daughters returning from Iraq 
and Afghanistan are provided with the needed assistance that 
they deserve, including job training and re-employment 
assistance. On the battlefields of war, our soldiers pledge to 
leave no one behind; together, we must pledge not to leave 
veterans behind. Through these and other efforts, we can help 
strengthen America's greatest assets: its human resources.
    In closing, members, let me express my sincere hope that 
this is just the beginning of an open dialogue with you and 
other members of this committee. As a Member of Congress, I 
value open communication, and, if confirmed, my door will 
always be open to you. I thank you for your time and this very, 
very wondrous occasion for me to be before you. And I thank 
you.
    [The prepared statement of Mrs. Solis follows:]
                  Prepared Statement of Hilda L. Solis
    I appreciate the opportunity to testify before the committee today 
and for the opportunity to have spoken with many of you over the past 
several days. I am deeply honored and grateful to the President-elect 
for designating me to serve as the Secretary of Labor, subject to 
confirmation by the Senate.&
    Over the course of the campaign, the President-elect often spoke of 
his commitment to improving the lives of working people. His desire to 
serve working Americans brought him to politics. I share his 
commitment. Like the President-elect, I entered public life to improve 
opportunities for families like mine--hard-working families eager to 
realize the American Dream.
    This is an especially difficult moment for middle-class families in 
America, increasing numbers of whom are losing their homes, their jobs, 
and their retirement savings. The latest unemployment reports from the 
Bureau of Labor Statistics confirm what we all have felt for some time: 
the economy is in a severe recession and shedding jobs at an alarming 
rate. In November alone, approximately half a million jobs were lost--
the largest monthly payroll loss since the 1970's. Unemployment has 
reached 6.7 percent and, even more disturbing, the numbers of long-term 
unemployed--those who have been unemployed for more than 6 months--has 
risen to about one in four of all unemployed workers.
    Because American workers were already in a weak position when the 
recession began, middle class families have no real cushion with which 
to absorb these repeated blows. When we entered this recession, 
household debt was already at an historic high, and household income 
had been stagnant or falling for several years. Although the economy 
expanded from 2001 to December 2007, the share of the civilian 
population that is employed did not increase, and teenage employment 
actually fell.
    You have my solemn commitment that, if confirmed, I will work hard 
every day to make sure that middle-class families do not lose hope. My 
job as Secretary of Labor will be to help make the American Dream a 
reality for millions more families. I am eager to begin that important 
work.
    My passion for improving opportunities for middle-class Americans 
is the product of my life story. I am one of seven children born in La 
Puente, a town in the San Gabriel Valley. My mother emigrated from 
Nicaragua and my father worked as a laborer, a farmworker, a railroad 
worker and a Teamsters shop steward in a battery recycling plant.
    From a young age, my parents instilled in my siblings and me the 
value of hard work, public service and commitment to family. For much 
of my childhood, my mother was a stay-at-home mom. After my youngest 
sisters were born, however, she had to take a job at a nearby Mattel 
toy factory to help make ends meet. Like many parents, my parents 
sacrificed throughout our childhood so my siblings and I could live up 
to our potential to achieve whatever our talents would allow. My father 
was a Teamsters shop steward who regularly told us about the 
opportunities his union association would bring to help secure our 
family a place in America's middle class.
    Though our family could not afford college, my parents stressed 
education. I was the first in my family to graduate from college, 
something that would have been impossible without Pell grants and 
Federal guaranteed student loans, along with the sacrifices made by my 
parents. I am very proud of my siblings' considerable accomplishments, 
including one sister with a Ph.D. in public health and two sisters who 
are engineers.
    For most of my adult life I have lived in El Monte, CA, a city near 
where I was born. I am proud to have had the opportunity, as the 
Director of the California Student Opportunity and Access Program and 
as a Trustee of Rio Hondo College, to give students the same 
opportunities to get a college degree that I had. Every child should 
have that opportunity and every parent should have the chance to see 
their dreams realized.
    In 1992, I was elected to the California State Assembly and, in 
1994, I became the first Latina State Senator in California. I authored 
a record 17 laws to protect victims of domestic violence, championed 
worker rights, helped small businesses, and sought to strengthen the 
economy. The fact that I have had the opportunity to serve the people 
of California in the State legislature and the U.S. House of 
Representatives--and the fact that I am sitting here today--is proof 
that anything is possible in America. Anything is possible through hard 
work, the sustenance of a loving family, and the support of a 
government that sees every child and every family as an asset to be 
valued for the benefit of all of us. I believe we must work together to 
help make sure that, despite tough economic times, this path to 
opportunity remains open for every American in our Nation's diverse 
workforce.
    Unfortunately, the current crisis is making the American Dream 
harder to realize. Over the last few years, middle-class families 
across this Nation have been challenged by rising unemployment, 
stagnant wages, and a housing crisis. In the communities around my home 
town in the San Gabriel Valley, frustration and fear have grown as 
wages have failed to keep up with the rising costs of basic needs and 
unemployment rates have exceeded 10 percent.
    Families are struggling in the face of wage disparities, which 
significantly impact women of color. A Latina earns on average 57 cents 
for every dollar that a man earns. An African-American woman earns just 
68 cents for every dollar that a man earns. These wage disparities 
directly contribute to a cycle of poverty and lower retirement savings 
and Social Security benefits for women throughout their lifetime.
    Our servicemen and women also face significant challenges. 
Increasing numbers of young veterans are returning from combat in Iraq 
and Afghanistan with disabilities and long-lasting injuries. This 
includes the more than one-third of the 230,000 new veterans who have 
applied for medical assistance from the Veterans' Affairs Department 
and suffer from traumatic brain injuries. I have seen first hand the 
challenges these servicemen and women and their families face in 
reintegrating into the workforce.
    If confirmed, I will join the President-elect's team as a voice for 
America's middle-class families and workers. I will work with my 
colleagues in the Cabinet and the White House and members of Congress--
most particularly the members of this committee--to restore people's 
faith and confidence in our economy and rebuild their sense of 
security. The Labor Department can and should be a critical contributor 
to our Nation's economic future. If confirmed, I will be ready to lead 
the Department in this important effort.
    Among the many ways in which the Labor Department can contribute, I 
would like to highlight four areas that will be a particular focus of 
my time as Secretary of Labor, if I am confirmed. I will not neglect 
any part of the Department's mission. But these are my priorities as I 
contemplate where to begin this important work.
    First, the Labor Department must expand the skills development and 
job search assistance it provides to all workers so that their 
employment opportunities will expand and their earnings will grow and 
employers will have the skilled workforces they need to succeed. If we 
are going to create or preserve millions of jobs, we must assure that 
American workers are ready, willing, and able to perform those jobs at 
the highest level of productivity. American workers are the most 
productive workers in the world. They are doing their part. We must do 
our part.
    If confirmed, I will work with President-elect Obama, my colleagues 
in the Cabinet, and you to reinvest in and restructure workforce 
development, build effective career ladders for at-risk youth and other 
underserved populations, and support high-growth industries by training 
the workers they need. This includes promoting ``green-collar jobs''--
that is, jobs that will provide economic security for middle-class 
families while securing our energy supply and combating climate change. 
It also includes an unemployment insurance system which provides 
workers with the income support and the job-training opportunities they 
need to assure that losing a job does not mean permanently falling out 
of the middle class.
    Second, the Labor Department must assure that American workers get 
the pay they have earned working in safe, healthy, and fair workplaces. 
The Labor Department is charged with assuring compliance with dozens of 
employment laws. I believe these laws codify values that are 
fundamental to our society. A fair day's work deserves a fair day's 
pay. Workers should not have to sacrifice their lives or their health 
to keep their jobs. Workers need time and flexibility to care for their 
families and themselves. These are American values. They must be 
America's ordinary way of doing business.
    Third, the crisis in retirement security demands solutions. The 
Labor Department and its sister agency, the Pension Benefit Guaranty 
Corporation, should be in the forefront of finding that solution. We 
must expand retirement savings, assure that existing pension plans are 
secure, and provide retirees and workers with the information they need 
to make good decisions about how to invest for a future beyond work.
    Finally, but just as important as my other priorities, the Labor 
Department must assure that the door to opportunity is open to every 
American regardless of race, sex, veteran status, or disability. The 
Labor Department is one important part of the Federal Government's 
civil rights enforcement and compliance infrastructure. If confirmed, 
the Labor Department's message will be clear and simple: no unjust 
barrier should keep any worker from achieving the American Dream.
    In particular, I will work with my colleagues in the Cabinet to 
assure that we welcome home the heroes returning from Iraq and 
Afghanistan--including our heroes with disabilities--and provide them 
with the job training and adjustment assistance they deserve. On the 
battlefields of war, our soldiers pledge to leave no one behind. For 
all veterans, past, present, and future, this must be our pledge: after 
our servicemen and women come home, we leave no veteran behind. This 
includes ensuring economic security.
    In closing, let me express my sincere hope that this is the 
beginning of a dialogue with the members of this committee. You have my 
commitment that, if confirmed, I will listen and respond to your 
concerns. My door will always be open to you and your colleagues in the 
House and Senate. We may not always agree. But I promise that I will 
not let those disagreements get in the way of the pursuit of our common 
goal--a genuine opportunity for every family to achieve the American 
Dream.
    I look forward to working with each of you if I am confirmed and I 
thank you for your consideration.

    The Chairman. Thank you very much.
    We want to now move to the questions period. We'll have 5-
minute rounds on this.
    Let me ask you, Mrs. Solis--American families are suffering 
during this period of time, and, as we mentioned, as you 
mentioned this morning, the loss of some 524,000 jobs, and 
millions of Americans fear they'll be the next, that they'll 
lose their jobs, their pensions, their healthcare, and the 
American Dream. So, what should the Department of Labor do to 
help all of these individuals, particularly the 11 million who 
have lost their jobs? Any economic recovery plan must create 
new jobs. As Secretary, how will you ensure that Americans will 
have access to new jobs?
    Mrs. Solis. Thank you, Mr. Chairman. I am happy to expound 
upon my testimony and to tell you that I believe, as you 
stated, we are in a crisis situation. The public is demanding 
action on the part of the Congress to see that there is relief 
provided to, not just the families that we're talking about 
here today, but also those future families, those future young 
men and women who are also looking to this great country here 
for their better future.
    I am very excited that the opportunity might present itself 
to allow for more investment in that human resource, and that 
human resource would provide, I think, a sufficient opportunity 
to help change the direction of this country and hopefully 
stimulate our economy by providing infusion of Federal 
assistance and funding to help jump start this Congress by 
creating 3 million jobs.
    Now, some of us have heard that there will be a recovery 
package. I don't have all the details, and can't really 
elaborate in full detail about what that will mean, but I can 
tell you that there is an earnest concern, in terms of 
providing infrastructure funding for those jobs--for those 
particular projects that might be ready to go in different 
parts of the country. I know, in the State of California, we 
are looking very anxiously to see that we can help rebuild our 
schools, help to transform our transportation systems, to help 
reduce air pollution and congestion, and get people to work on 
time.
    And then, second, I think the greatest asset that I see 
here, sitting before you, is to promote the green-collar jobs, 
and trying to make that opportunity available, not just to 
those that are already looking for jobs, but those that want to 
have an opportunity for a career change. This is a potential, I 
believe, that we have not seen before. We now have the calling 
to reduce our dependency on foreign oil and other sources of 
energy that are so costly to this country. We need to make 
those investments here. I know that there are many, many small 
businesses and medium-sized businesses that are waiting to see 
the action on the part of the Federal Government to help 
provide for that workforce potential, whether it be through 
community colleges, vocational programs and other essential 
programs, through apprenticeship programs that have often been 
very essential for key construction, but also in the energy-
efficiency cycle. I see an area where we can potentially 
increase the growth for many, many individuals who have fallen 
off our radar, in terms of not being accounted for even in the 
unemployment lines.
    They are desperately in need of having retooling, 
educational opportunity, and we need to make that human 
investment, whether it's short term--and we should be able to 
make it in a very strategic manner, not to waste money; to 
bring together those programs where we know work efficiently, 
bring the stakeholders together. And that means business, it 
means our educational institutions, and it also means our 
community groups, nonprofit groups and other organizations that 
want to help us undertake this very, very important challenge 
that we have before the American public.
    The Chairman. Thank you very much. I just have a short time 
left, but I want to talk about the work family, what your views 
are about that. We have now--70 percent of families are headed 
by working families, Americans also are working harder. The 
typical couple works close to 90 hours a week. I was glad that 
President-elect Obama was creating a Working Families Task 
Force. So, I'd be interested in the role we'll play on the 
Working Families Task Force, and how you believe that we should 
be addressing the working families' struggle to balance family 
and work responsibilities.
    Mrs. Solis. Yes, Senator Kennedy. I know that this is going 
to be a very, very important component in our restructuring and 
planning of how we actually implement the recovery for the 
America families. Working families is something that I think 
all of us, perhaps in the last few years, have kind of lost 
sight of, because we do see our families struggling. You see 
two heads-of-household, if not others, now having to provide 
sufficiently for a roof over the family's head, providing 
essentials just to make a living. I think what we are 
envisioning here--and I've had an opportunity to speak with 
Vice President-elect Biden about this--is that we need to 
restore the respect and integrity of those individuals that 
work in the workplace. And that begins by providing a safe, 
secure environment for workers where they are, that they have 
protections in the workplace, that they have a livable wage, a 
wage that can provide sufficiently for their families, but also 
provide those other necessities that will allow--for example, 
if there is an illness in the family, there may be a returning 
veteran returning that may need another family member to 
provide assistance, so appropriate family leave, sick leave, 
are also very, very essential components to providing structure 
for the working families.
    I think envisioning, also, opportunities for family members 
to grow in this changing and very dynamic economy, where we 
need to have better assessment of what types of job 
opportunities are available. We see now, for example, in the 
automotive industry, millions of people are being affected by 
the loss of jobs there. We need to retool that workforce. We 
need to look at other efficient types of programs that could 
readily put them into another job, with sufficient training and 
examination, and to be more targeted about it. And that, I 
think, is going to be one of the greatest challenges that we 
have, looking at refiguring the way we do business here in 
America, and keeping those jobs here, and keeping those working 
families healthy. And I mean economically.
    The Chairman. Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    I always try to start with a question that can be answered 
very easily, one word or two. One reason we pass a considerable 
amount of legislation through this committee, usually by 
unanimous consent or very large majorities and very little 
floor time for debate, is because of the good working 
relationship between the majority and the minority, both the 
Senators and the staffs. If confirmed, would you pledge to 
cooperate in this type of a working relationship with all 
Senators on this committee, Democrat or Republican, and by 
promptly responding to any written or phone inquiries, sharing 
information that you get as soon as it becomes available, and 
directing your staff to do the same?
    Mrs. Solis. Senator Enzi, we spoke about this at the 
discussion that we had in your office, and I shared with you 
that I understand the frustration, as a member, as well, in the 
Congress, when we send letters to different agencies and 
sometimes are waiting to hear back a response. I know how 
important that is, to be timely and responsive. And even if we 
don't have an appropriate response, to at least get back to 
that office to let them know what the status is or that we are 
continuing to inquire.
    I will make my best effort to every member of this 
committee and to every member of the Senate, if there is an 
inquiry and they would like to have time to speak to me 
personally or to get a response from any potential branch of 
the Department of Labor.
    Senator Enzi. Thank you. I would mention that Senator 
Daschle, yesterday, just said ``yes.''
    [Laughter.]
    The current data and methodology for determining prevailing 
rates has been criticized as being highly unscientific, error-
filled, self-selected sampling that often yields dramatically 
inaccurate results. There are instances where the Department-
of-Labor-determined prevailing rate has been as much as 33 
percent below the actual market rate and as much as 75 percent 
above the market rate. The inspector general has found 
significant inaccuracies in 65 percent of the wage surveys. 
Those errors harm both the taxpayers and the workers. Do you 
believe that the process for determining prevailing wages could 
be reformed or needs to be reformed?
    Mrs. Solis. Senator, that is a very good question, and one 
that I understand, I would be very happy to take another look 
at, and also take your concerns in mind. I know that there have 
been occasions where the Department of Labor has not received 
the most accurate information. And that takes also having good 
staff to be able to do that and having sufficient funds to be 
able to collect that data.
    So, I would work with you to help see that we can achieve 
that goal, understanding that there are limited resources, but 
I would hope that we could get your support also to help 
provide the necessary tools for funding of the kinds of 
projects that we know, so we do not overestimate or 
underestimate anyone's proper pay.
    Senator Enzi. Thank you.
    Senator Kennedy raised the issue of families in the 
workplace. As a tool in attempting to balance the demands of 
work and family life, Federal Government employees have the 
right to enter into comp-time and flex-time arrangements with 
their employers. The same latitude that the Federal workers 
have is currently denied to workers in the private sector. 
Would you support extending these same rights to workers in the 
private sector? And if not, why not?
    Mrs. Solis. Senator, another very good question. I would 
like to explore that more with this committee. I know that we 
may have similar concerns, and we may have some differences 
there, but that's something that I think I am not prepared to 
give you a complete answer on at this time.
    Senator Enzi. OK. As you're considering that, if it is not 
a good idea for the private sector to have that, consider that 
it might not be a good right for the government sector to have. 
We have a lot of conflicts in Wyoming, where one family member 
is a Federal employee and one is a private-sector employee, and 
they can't get time off at the same time, because they don't 
have the same rights.
    To change direction again, Executive Order 13-202 declares 
that neither the Federal Government nor any government agency 
acting with Federal assistance shall require or prohibit 
contractors to sign union agreements as a condition of 
performing work on federally funded construction projects. In 
the past 8 years, billions of dollars worth of federally and 
federally funded construction contracts have been bid 
competitively, open to both union and nonunion employees and 
their employers. Would you advise the preservation of Executive 
Order 13-202 and its requirement that all contractors, both 
union and nonunion, be allowed to compete for Federal 
Government contracts?
    Mrs. Solis. Senator, I would just say to you that that is 
an item of great interest to me. I think that that is something 
that I am not able to speak to you, at this time, but will like 
to review and then come back to you personally in that matter.
    Senator Enzi. OK. So far, we've got three reviews.
    During the recent election, there was a great deal of 
discussion about the need for transparency in government. The 
logic here was absolutely correct; as citizens, we're entitled 
to know what the government's doing and how it's spending our 
money. This is no less true for union members with regard to 
their union than it is for all of us with regard to our 
government. Since 2001, the Office of Labor Management 
Standards, through criminal court cases, has recovered $88 
million for union workers, yet the AFL-CIO has proposed 
returning OLMS funding to roughly 2001 levels. And I think you 
voted against an amendment to reverse the funding cut for that 
office in 2007. Would you support continuing all current 
initiatives and programs aimed at investigating and prosecuting 
those union officials that violate their fiduciary duties and 
abuse the trust of union members by misusing union funds?
    Mrs. Solis. Senator Enzi, I believe that, wherever there's 
any corruption, that we have a responsibility to end that and 
to go after those individuals that might be involved in any 
type of corruptive behavior. So, I would look very closely, not 
only at the unions, but also at the business sector. I would 
look to find an approach that is balanced. And that's where I 
would like to receive more input from this committee and from 
yourself.
    Senator Enzi. Thank you.
    My time is expired. Thank you, Mr. Chairman.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman.
    And welcome, Hilda. It's a pleasure to have you before the 
committee. Congratulations, by the way, to the President-elect 
for choosing you and for your willingness to accept this 
tremendously challenging job.
    And, Mr. Chairman, I'm going to ask that opening statements 
we have would be included----
    The Chairman. Yes.
    Senator Dodd [continuing]. In the record, as well.
    The Chairman. Yes, I will do that.
    [The prepared statement of Senator Dodd follows:]

                   Prepared Statement of Senator Dodd

    Thank you, Chairman Kennedy and Ranking Member Enzi, for 
this opportunity today. Thank you, Congresswoman Solis, for the 
time you will take today to answer our questions and discuss 
the vital work that goes on at the Department of Labor. You 
have long dedicated yourself to ensuring the rights of workers 
in California and across the country, and I look forward to 
working with you at the helm of the Labor Department.
    We all know that these are tough economic times. Today, 
unemployment is rising. Incomes are stagnating--while at the 
same time the cost of health care, housing, education, and even 
groceries are skyrocketing. In my home State, we've seen 
unemployment rise from 4.8 percent in January 2008 to 6.6 
percent this past November. That translates into over 36,000 
more people in Connecticut who cannot find jobs.
    That makes the role for which you are nominated, 
Congresswoman, more essential than ever. The Department of 
Labor enforces laws and regulations dealing with fair wages and 
hours, job training, workplace safety and health standards, 
unemployment, and family and medical leave--each absolutely 
essential to a productive, healthy workforce and economy.
    Unfortunately, over the last 8 years, many of us have 
watched the Department of Labor with concern as its focus moved 
away from the protection of employees and focused more effort 
on protecting employers and denying workers their right to 
organize. I do not view this as the Department's role--I know 
you don't either, Congresswoman Solis. And it certainly wasn't 
the intention of those who created this department who wrote, 
and I quote, that:

          ``The purpose of the Department of Labor shall be to 
        foster, promote, and develop the welfare of the wage 
        earners of the United States, to improve their working 
        conditions, and to advance their opportunities for 
        profitable employment.''

    Looking at some of the decisions of the current 
Administration and National Labor Relations Board--such as the 
outrageous overtime pay rules and the Kentucky River decision 
that stripped tens of thousands of workers of their right to 
organize--I find it hard to believe that they were made with 
this charter in mind. And so, I look forward to revisiting and 
hopefully reversing many of those policies. At this moment, it 
is absolutely vital that this department recommit itself to 
protecting the rights of workers.
    In addition to the new direction I hope you will take the 
Department, I would like to touch on a few specific issues of 
importance. The first is the Family and Medical Leave Act, 
which marks its 16th anniversary next month. FMLA was as hard-
fought a victory as any I have seen or been a part of in my 34 
years in the Congress. Since becoming law, FMLA has helped over 
60 million workers take time off to care for a newborn or 
adopted baby, help a parent through an illness, or get better 
themselves, knowing that their job will be there for them when 
they return. FMLA has also benefited business. With lower 
turnover and a boost to morale, 90 percent of employers told 
the Department of Labor in 2000 that the law had a neutral or 
positive effect on profits.
    However, far too many employees are still ineligible for 
FMLA's important benefits, and three out of four workers who 
are eligible do not take leave because they cannot afford the 
loss of income. That is why, in my view, paid leave is the next 
necessary step in protecting workers and businesses. No one 
should be forced in a time of crisis to make the impossible 
choice between work and family. I look forward to working with 
my colleagues and the Labor Department to make accessible and 
affordable leave a reality for more Americans--including those 
in our military--and I have several concerns about the recent 
rules regulating these provisions.
    One of the most important functions of the Department of 
Labor is its job placement and training programs--never more so 
than today. I have seen at home in Connecticut how One-Stop 
Career Centers can help people get back on their feet. However, 
we need to make sure that these centers have the resources they 
need to serve everyone who needs help.
    Congresswoman Solis, I am particularly encouraged about 
your advocacy for green job training. Like you, I strongly 
believe that the creation of good-paying, green collar jobs is 
critical to both our economic and energy security. My State is 
home to a number of exciting green energy companies, including 
world leaders in hydrogen fuel cell manufacturers.
    I am very hopeful that, with you at its helm, the 
Department of Labor will develop training programs within Job 
Corps and elsewhere to help create a new generation of 
professionals--not simply ready to build these technologies, 
but to install, repair and maintain them. It's essential that 
our mechanics, electricians, plumbers, and construction workers 
have the skills and tools they need to pioneer the first wave 
of green technologies.
    Over these last 8 years, I have grown deeply concerned 
about the direction the Occupational Safety and Health 
Administration has taken. In my view, OSHA has fallen far short 
in its responsibility to protect workers, both by its failure 
to issue regulations to protect against new hazards and by its 
failure to adequately enforce regulations already on the books. 
OSHA's budget for enforcement actions has been cut severely. 
Indeed, where OSHA inspections in 2000 covered 2 million 
workers, in 2007 they covered just 1.4 million, a 30 percent 
decrease.
    OSHA has ignored well-documented hazards posed by materials 
such as combustible dust, diacetyl, silica, beryllium, and 
others and failed to protect the tens of millions of workers at 
risk from ergonomic hazards. In 2007, over 330,000 people 
suffered job-related musculoskeletal injuries severe enough 
that they had to miss work. Yet, OSHA proposed new rules this 
fall that would actually add an extra step to the process of 
making new safety regulations and mandate flawed risk 
assessment procedures that have been discredited by the 
scientific community. I look forward to working with you to 
restore OSHA to its mission of protecting all American workers.
    These are but some of the many challenges that face the 
Department of Labor--others include modernizing unemployment 
insurance and preventing wage theft, which results in as many 
as 2 or 3 million workers not being paid minimum wage and 
millions more being denied overtime pay.
    Mr. Chairman and Congresswoman Solis, I thank you again for 
your time today. I am confident that you are up to the task and 
look forward to working together to make workers and workers' 
rights a priority in this new Administration.

    Senator Dodd. And for all of us here today.
    I went back and looked. The Department of Labor is 96 years 
old. Started in 1913. It'll be 100 years old in the completion 
of Barack Obama's first term. And I went back and looked at the 
authorizing language and the creation and the purpose of the 
Department of Labor.

          ``The purpose of the Department of Labor shall be to 
        foster, promote, and develop the welfare of wage 
        earners of the United States, to improve their working 
        conditions, and to advance their opportunities for 
        profitable employment.''

    The 20th century was the century that created the middle 
class in this country. Prior to that time, there were great, 
great differences and disparities. Without any question, of 
course, those rights and those privileges that were extended to 
working people were hard-fought. They were not given out 
gratuitously or generously; they were given out because people, 
like your parents and others, fought very hard for the rights 
of individuals to have a decent wage, decent hours, working 
conditions, the prohibition of child labor. People lost their 
lives in those battles for that effort.
    Today, as we reported--or, Senator Kennedy, who's our 
chairman, this morning--as Barbara Boxer did--the staggering 
problems that are facing our country--the rising levels of 
unemployment, you point out, in some of the counties of our 
State, now in excess of 12 percent of unemployment. I think 
those numbers are low. I think we're not doing an accurate job 
of collecting unemployment figures, and I think a lot many more 
Americans are today worrying about whether or not they have any 
future at all in all of this.
    I think it's very important we keep in mind what the 
purpose is, here, and to see to it that we close that disparity 
in income and wages.
    I listened to Ben Bernanke, the chairman of the Federal 
Reserve Bank, give a speech in Omaha, NE, about a year and a 
half ago, in which--I'll quote him for you, here--he talked 
about one of the reasons for the 80-85-year disparity in income 
in this country. And let me quote his remarks that morning to 
you. He said,

          ``Thus, the decline in the private-sector union 
        membership over the post-World War II period, 
        particularly the sharp drop of the 1980s, has been 
        associated with an increased dispersion of pay among 
        workers with immediate levels of skill.''

    In effect, then, that--just drawing the conclusion based on 
data here, the declining number of union households has 
directly contributed, in my view, to the disparity in income in 
this country; and thus, the pressures on working families.
    There are a lot of questions that are raised here. Let me 
raise two, if I can.
    One is the issue of family and medical leave. I spent 7 
years, along with Pat Schroeder on the House side--Senator 
Kennedy was invaluable in that effort. Dan Coates, of Indiana, 
was my cosponsor. Arlen Specter, Kit Bond--were all deeply 
involved with me as I wrote that legislation. Went through two 
vetoes, and finally, 16 years ago, on February 8, 1993, became 
the law of the land. Almost 75,000 or 75 million people have 
been able to take advance of family and medical leave. As 
Senator Kennedy pointed out, with 90 hours of work in average 
families, single parents raising children, we all know the 
tremendous pressures on families today, not only in terms of 
their economic issues, but also holding their families 
together--when you have a sick child or a parent or difficulty 
at home, being able to take that time and care for that child. 
We also know that three out of four people who qualify for 
family and medical leave don't do so because it's unpaid leave.
    Now, Barack Obama, in his campaign, has talked about, and 
I've authored legislation--Ted Stevens, of Alaska, was my 
cosponsor on this, by the way, with the very creative idea of 
coming up with a paid leave program.
    Now, would you tell us briefly how you feel about that and 
whether or not you'd be willing to be supportive of a paid 
leave program?
    Mrs. Solis. Senator, thank you for that question. And thank 
you for your work on this very important issue that has 
affected so many working families across this country. But, 
even more importantly, for many women, if I could just take a 
moment and say that, because I think that our situation now is 
such that we find ourselves where single-head-of-household 
women are now having to make up the differences for, maybe, an 
absent spouse, and also the hardship of keeping a job, and 
maybe even going through the problem of having lost her wages, 
or a substantial cut, where now she's no longer working full-
time, and may be working part-time, maybe 38 hours, and isn't 
even qualified for many other benefits. We have a situation 
that's broken, in my opinion, and I think that we have to work 
harder to see that we provide those kinds of support efforts 
and programs, and find out how best to provide for sufficient 
funding to see that they can occur.
    I understand some members of this committee have concerns 
with respect to, How do we pay for those kinds of benefits? 
But, I think also, in the long run, you have to be mindful of 
those employees that work for these businesses, or are in the 
workplace that contribute so greatly and so much, they make so 
much sacrifice, as you have just laid out, that I think it's 
worthwhile to look and explore other avenues so that we could 
make the kinds of benefits that were stated earlier by the 
previous Senator regarding the differences with public 
employees receiving time off for family medical leave, that we 
should try to somehow provide an example that, as good stewards 
of our workplace, that we can also extend at least the idea of 
looking at providing substantial sick leave and medical.
    Senator Dodd. Let me just point out to you, there are three 
countries in the world--four--that don't provide some sort of 
paid leave program: Papua New Guinea, Swaziland, and Liberia, 
and the United States. That's a remarkable group of countries 
to be associated with on an issue such as this one.
    Last, let me just say to you that on the jobs issues--and, 
again, I know many of us have used different language to 
describe this, but I think most of us would agree, here, that 
the best social program ever designed by anyone was a good-
paying job. That's the best social program, in many ways. And 
as someone who's been deeply involved with these centers--the 
workplace centers, one-stop career centers, obviously the--
today, given the numbers, are going to be critically important 
to expand that. I don't know if you have any brief comments on 
your views on those centers and their value.
    Senator Dodd. Thank you, Senator Dodd. Yes, I am familiar 
with the one-stop shops, and also with the work of the WIA 
program. I know that there's some members of this committee who 
have concerns about reauthorization and trying to make it more 
effective, streamline it and make it more targeted and 
strategic. I think I do agree that we do need to do that. But, 
of course, I'd want to work with you and other members of this 
committee who have a great interest in trying to reduce 
duplication, make it more effective, and allow for those 
individuals that can get readily trained to get out into the 
workforce. I think that's our No. 1 priority. And then, looking 
at long term, how we can get people into higher-paying jobs as 
they receive that training. So, yes, Senator, I am 
wholeheartedly in support of these programs and want to see 
them expanded and improved.
    Senator Dodd. Thank you very much. I look forward to 
working with you. Congratulations, again.
    The Chairman. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Representative Solis, congratulations to you and to your 
family, and I look forward to working with you.
    There has been a good deal of talk today, as one might 
expect, about workers' rights, about rising incomes. And 
there's been a lot of discussion about automobile jobs in the 
U.S. Senate over the last several weeks. So, I have just one 
question I'd like to ask you, and it involves a yes or a no, as 
well. But I'd like to preface it with a story.
    In the early 1980s, when I was Governor of Tennessee, 
President Carter encouraged us to go to Japan and persuade the 
Japanese to make in the United States what they sold in the 
United States. So, being a young Governor, and he was my 
President, I did that. And the result of that was the Nissan 
automobile plant south of Nashville, which opened in the early 
1980s. It's still there today, and even the Nissan North 
American headquarters is in Nashville and an engine plant is in 
Tennessee rather than in Mexico or some other place. Ford 
executives from Detroit were hired to come down and manage the 
plant. Tennesseans were hired to work in it. It's been a big 
success story, and it has contributed to rising incomes in 
Tennessee. It was the largest Japanese capital investment in 
the United States in history at the time.
    Two or three years later, General Motors made the largest 
U.S. capital investment in history when they located the Saturn 
plant, 40 miles from the Nissan plant. And I remember saying to 
Roger Smith, who was the head of General Motors, who was 
complaining about the Japanese competition, I said, ``Well, why 
don't you put your new plant right next to the Nissan plant and 
tell your management and tell your union that if they can do 
it, you can do it, as well.'' And so, the Saturn plant has been 
there for all that time, and its managers were from Detroit, by 
and large, its workers were virtually all members of the United 
Autoworkers Union. It's making Chevrolets today, not Saturns, 
but it's still there.
    The end result of that competition between those two big 
automobile assembly plants, one of which is union and one of 
which is not, and which are 40 miles apart, is that today one-
third of all the manufacturing jobs in Tennessee are automobile 
jobs, and our incomes have risen as a result of it, even in 
this economic downturn. We're deeply grateful for all those 
jobs, those who belong to the United Autoworkers and those who 
don't.
    Now, the reason we're able to have that kind of work 
environment in Tennessee is because of Section 14(b) of the 
National Labor Relations Act, called the Taft-Hartley Act, 
which gives every State the right to have a right-to-work law, 
a law that says to its employees, ``You may decide to join the 
union, or you may decide not to join the union.'' As in the 
Saturn plant, anyone there who works there does not have to 
belong to the union, but the United Autoworkers is the 
bargaining agent there, or at the Nissan plant, where they have 
voted, more than once, not to have a union.
    So, my question to you is--and I hope the answer is yes, 
because I can think of no question more important to workers' 
rights in Tennessee or to our continued increased family 
incomes--does the new administration, and do you, support 
Section 14(b) of the Taft-Hartley Act? And will you oppose any 
attempt to change the right of States to enact a right-to-work 
law, as 22 States already have?
    Mrs. Solis. Senator Alexander, thank you for your question. 
I, too, understand the pressures that different States face 
with respect to manufacturing and providing for vehicles to 
growing populations, something that our State has been very 
much involved in, and we have different collaborative efforts 
that go on with various other foreign entities, like Honda, 
Toyota, as well. I would just say that some of those 
partnerships that we have seen have actually benefited, yes, a 
lot of our American workers, because they are paying higher 
salaries. In fact, I think it's more because folks in the 
American auto industry have helped to provide a standard for 
workers so that they do receive livable wages. I think that 
that has, in its own way, affected some of our competitors here 
in the United States. So, I think that is a good thing.
    Now, your question about whether we allow for the 
continuance of a right-to-work State, that is something that 
is--I don't believe that I am qualified to address that, at 
this time. That is not something that I have personally 
discussed with the President-elect. And, like other questions 
that have been proposed, I would tend to say that that's 
something that I would want to bring to his attention, to talk 
to him about.
    But, more importantly, I believe that the President-elect 
feels strongly that American workers should have a choice to 
join or not to join a union. And to me, that is the basic 
premise of our democracy, whether you want to be associated 
with a group or not. I think that's a principle that we all 
hold very dearly here.
    Senator Alexander. Well, thank you. I hope that the 
President-elect does have the view that a worker should have a 
right to join or not to join, but, I would like to have your 
response, after you've had a chance to talk with him, about 
whether the administration supports continuation of the right-
to-work law. I would add that we consider the Nissan plant an 
American plant, because those are Tennesseans who work there. 
They were Ford managers from Detroit who came down and were the 
managers. There were about, maybe, 6 Japanese out of 5,000. 
Their headquarters is there, their engine plant is there. So, 
we're grateful for their presence equally with the Saturn/
General Motors presence. We treat them the same.
    Thank you, Mr. Chairman.
    The Chairman. Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    Again, Congresswoman Solis, I want to commend you for your 
lifelong commitment to working men and women in this country. I 
commend you for the example that you have sent out for so many 
young women, including my two daughters, one of whom lives in 
your State, and to congratulate you on this appointment. I look 
forward to working with you and to, hopefully, making the 
Department of Labor a true department of labor--not just a 
department of management and capital, but a true department of 
labor.
    Today, we got the figures out on unemployment. Teenagers is 
28.8 percent; African-Americans, 11.9 percent; Hispanic, 9.2 
percent; overall, 7.2 percent. Went from 6.8 to 7.2 percent in 
December. All of the articles I've been reading are commenting 
upon the increased rate of unemployment in this country, of 7.2 
percent, and all this, and how bad that is.
    But, what is truly scandalous, what is shocking, what is a 
true blot on the American character, is the rate of 
unemployment among people with disabilities. Sixty-three 
percent. Eighteen years after the passage of the Americans With 
Disabilities Act--and one of its primary goals--there were four 
goals--one of its primary goals was economic self-sufficiency. 
People with disabilities want to work, but, because of work 
disincentives, the lack of supportive services, transportation 
problems, many people with disabilities who want to work simply 
can't get the job. Many of them are well-educated, they want to 
work, but everything is just geared against them. Sixty-three 
percent of people with disabilities are unemployed. That is 
shocking. I kept thinking it was going to get better and 
better. It hasn't gotten better.
    What I implore you to do is to use your bully pulpit, your 
position, when you're sitting around that Cabinet table with 
the President there, to start talking with your Secretary of 
Transportation and the Secretary of Health and Human Services, 
Social Security, CMS, and all these other people, to form a 
group that will truly tackle this problem once and for all, of 
how we get people with disabilities into the employment sector. 
I hope you would commit yourself to do that. If you have a 
comment on that, I would yield for you for any observation on 
that.
    Mrs. Solis. Senator Harkin, thank you for that question and 
your comments. I, too, have a great deal of concern for our 
disabled community and the fact that it even hits harder, in my 
opinion, with those of color. We don't have services that are 
adequately represented throughout the country. Especially in 
hard economic times, we're finding that employers are having to 
lay people off, and sometimes they may be the first ones to go.
    I would hope that we could incentivize our local small-
business employers and medium-sized employers, and help them 
understand, give them the tools that perhaps the Department of 
Labor has not been able to provide in the past, so that we can 
make those adjustments for these individuals that want to work, 
that are qualified, but don't have a safe place to land. That 
would be something that I would really enjoy working with you 
on.
    As I said earlier in my testimony, I'm very concerned with 
the returning veterans--young men, in particular, and young 
women, that are coming back that are also disabled, that also 
need to have some reassurance that they will also be re-
employed. And I know there are some programs out there, but we 
need to sufficiently expand upon those programs.
    Senator Harkin. Well, let me speak to that. I have a nephew 
who is severely paraplegic. He gets up in the morning, and he 
has a nurse that gets him ready, takes care of him, gets him 
ready to go. And he goes off and goes to work. He comes home at 
night, he has another nurse there to take care of him, get him 
ready for bed and stuff like that. He lives independently, by 
himself. How is he able to afford it? He doesn't come from a 
wealthy family at all. How is he able to afford this?
    He was injured in the military. And God bless the Veterans 
Administration; they've come and they make sure that he gets 
all those supportive services so he can go to work.
    Why should it be just if you get injured in the military? 
There are a lot of people who get injured in car wrecks and 
other kinds of things that have the same situations as my 
nephew, Kelly, but they don't have that kind of supportive 
services. And so, they aren't able to get to work.
    You know, the VA has done a great job in addressing this, 
but it's Americans with disabilities who have not been in the 
military who really need the help and the support.
    Fourteen years ago, I put $1.5 million in the Department of 
Labor for ILAB, International Labor Affairs Bureau, to start 
focusing on child labor around the world. They have come up 
with seven volumes--this is just the first one, the use of 
child labor in U.S. manufactured imports, and of course there's 
seven others on agriculture, apparel, consumer laborers, things 
like that. They're great investigative documents that the 
Department of Labor have come up with about the use of child 
labor around the world.
    I can say that, for the last several years, our involvement 
with the International Program for the Elimination of Child 
Labor has been barely kept alive. I want to publicly commend 
the career people in ILAB, in the International Labor Affairs 
Bureau at the Department of Labor, the career people who have 
kept this going, who have tried to continue to fulfill the 
mandate that we gave them. The political people there, quite 
frankly, have not. I hope you will focus on this, find people 
to run that bureau who will enhance it and continue to push 
forward on the elimination of child labor around the globe.
    Thank you.
    Mrs. Solis. Senator Harkin, thank you for your comments. As 
a Member of Congress, I had a short period of time to work on 
something very much related to this, with the situation across 
the border, 5 minutes from our U.S. border, in the city of 
Ciudad Juarez, Mexico, where we found that a number of young 
women, teenagers 16 years of age, were having to work in the 
maquiladoras, the factories there. Some are international 
corporations, some were U.S. corporations. Nevertheless, they 
were being abused, they were not being paid adequately, maybe 
perhaps $30 a week, four shifts, 12-hour stints, whatever. 
Horrible conditions, and something that I agree the public 
needs to know about. I would work very earnestly with you to 
see how we can try to accomplish these goals so that we provide 
the best and appropriate information, so that we can take a 
look at what is happening globally and what interaction we are 
having with these various entities that are either providing 
goods to our country and to obviously explore and hopefully 
minimize any exploitation of young children. And I agree with 
you, in principle, that is something we need to do.
    Senator Isakson. Thank you, Mr. Chairman.
    Representative Solis, in your prepared statement and your 
opening remarks, I want to commend you on your four priorities. 
And I particularly want to tell you how much I appreciate your 
emphasis on veterans; we talked about that in my office. That 
is a priority that's critically important, and I'm glad you've 
recognized that early on in your role, or potential role, as 
Secretary of Labor.
    With regard to the questions that Senator Enzi asked you, 
it appears to me that--I want to revisit the California law 
that you worked so hard on in the 1990s, because Senator Enzi's 
question about granting flexibility to companies, private-
sector companies, like government employees have with regard to 
flex time or time off, you dealt with that in the California 
legislature in the law regarding overtime pay, where you 
provided for the employees and the employers to negotiate flex 
time or more flexible work hours without having overtime, but 
you insisted, in that legislation specifically, that there be a 
vote by all employees, and that it be a secret ballot. It seems 
to me that was to ensure that management did not take advantage 
of the employees, or intimidate them, in negotiating flex time.
    If that's, in fact, true, why would we want to change the 
laws of the United States now with regard to how unions are 
organized and impose a card-check law that eliminated a secret 
ballot?
    Mrs. Solis. Senator Enzi, if I could just take a moment, 
these are very unique circumstances that we're undertaking 
today, and my position as a nominee for President-elect Obama 
to serve as Secretary of Labor doesn't, in my opinion, afford 
me the ability to provide you with an opinion at this time. 
That is something that I would like to discuss with you 
further, but something that I'm not prepared to make a 
statement about at this time.
    Those were very different circumstances, in California. 
Collective bargaining representation there is much more 
advanced than other parts of the country, and I think that the 
context is very different.
    Senator Isakson. Well, I certainly will defer to us talking 
later, but with regard to Senator Alexander's question on right 
to work and in regard to this question with regard to employees 
and their right to organize and have a secret ballot are 
critical issues that do affect labor, and I would hope we will 
have the time to know what your opinion is on that before the 
time we have a confirmation.
    I want to reiterate my support for Senator Alexander's 
statement with regard to right to work. Georgia is a right-to-
work State, and it is very critical to me that that right be 
protected and that we not support any change in legislation 
that would take that away. There are 22 right-to-work States. 
The law recognizes the right for them to have that choice, and 
I want to be sure that we continue it.
    Last, with regard to the workplace and unemployment and 
jobs going overseas, there's a second issue with regard to 
jobs, and that is high-skill jobs, H1B-type jobs, for example, 
where we have run short in this country. The jobs that have 
gone offshore, more often than not, have been lower-skill jobs 
going from the United States, as we have increased the high-
skill jobs in the United States because of the development of 
our society and our community. There are many people that worry 
that we have been inflexible in legal immigration, in terms of 
the H1B levels, so that we get the high-tech people in this 
country that we need when we need them. I'm a big believer that 
levels of immigration should rise and fall with the 
unemployment rate by sector in the United States; meaning, if 
we have a shortage of workers, we ought to be able to raise the 
number of legal immigrants who come to work for a period of 
time and then go home, and, when unemployment is high, that 
those numbers be reduced. What is your position on that?
    Mrs. Solis. Senator Isakson, you and I did talk about this 
issue, and it's one that, I think, requires a lot more 
assessment on my part. And having not had the opportunity to 
look at the current program in its current position, I'm not 
able to give you an opinion right now, other than to say that I 
want to look at how certification occurs. I want to look at how 
the labor pool is identified, whether it be in the surrounding 
area where that particular business may be looking and seeking 
for high-tech individuals, what extensive availability of 
information is there, so we know before we go abroad, that we 
are first prioritizing those workers who are, in fact, capable 
and ready to fill these positions.
    I understand, however, that there are different industries 
that need different types of specialty education and training. 
In California, we have Silicon Valley. But, I also would say to 
you that the priority, I think, in my mind, would be to look at 
fairness; first of all, looking at how we provide fairness for 
those individuals that are trained, that are here in our own 
country first, put them first; and if we're not able to get 
there, then really look at the statistical information that's 
available, to see what is there, and then come up with, 
perhaps, looking at other frames, designs. But, at this point, 
that's where I would begin in exploring that.
    Senator Isakson. My time's up. Thank you, Mr. Chairman.
    The Chairman. Senator Mikulski.
    Senator Mikulski. Great to have you here, Representative 
Solis. President-elect Obama made an excellent choice. Your 
personal narrative is so compelling, and we know you're going 
to be a great Secretary of Labor. It's a big job, and you've 
got to dig in. I know that these reviews and so on that you 
said you want to do are because you want to bring intellectual 
rigor, seek a wide variety of consultation, and engage in civil 
dialogue, and then take action. I think that's the way we ought 
to go, without being shoot-from-the-gut, and we admire the way 
you're going about this.
    Let me go to the issues of jobs and job training. You've 
spoken eloquently about that, and you've also spoken eloquently 
about your advocacy on green jobs.
    I support green jobs, but they're in the future. We have to 
have an energy policy, then we've got to create the jobs, 
then--etc, etc. They're going to come, but they're future. 
There are jobs right now, and they're called ``healthcare.'' 
Healthcare, healthcare, healthcare. I have flashing yellow 
lights about the Obama stimulus plan in that many of the jobs 
are not necessarily oriented to women in the workforce. Cheers 
for the construction jobs; support that vigorously.
    Now, this then takes me to healthcare. Everybody's talking 
about green jobs like they're going to be some big, green 
bullet that's going to solve problems. But, we have jobs now. 
In my home State, there are 3,000 people, men as well as women, 
who want to be nurses, and we have a nursing shortage, and yet, 
we can't take them into our programs, particularly at the 
community college level. The community-based job training 
grants that could actually crack that code in nursing, X-ray 
technology, other tech jobs, and so on, are not there. And I'm 
asking you that, while we support green jobs in the future, 
what do you have in mind for healthcare jobs today? And where 
would you be a strong advocate, particularly in the stimulus 
package, of perhaps a big jolt for the community-based job 
training and to crack the problem of needed faculty?
    Mrs. Solis. Senator Mikulski, it was a pleasure to spend 
some time with you the other day to talk about this very 
important issue. I think you and I agree that we definitely 
need to do more with respect to expanding the pool of available 
applicants for these types of jobs, but also expand the 
structure. You very pointedly referenced the community college. 
I know, in my own home State, at the Rio Hondo College Board 
where I serve--or did serve--excuse me--we had very limited 
seats available for students that wanted to get into nursing, 
whether it was licensed RN or even lesser-skilled nursing 
positions. I think that one of the things that we have to do is 
better focus in on what those particular needs are. So, we see 
an aging population. We're going to need more----
    Senator Mikulski. Representative Solis, we know what the 
needs are. We already know what the needs are. I'm asking you 
now, as the stimulus package is moving through the deliberation 
of both the very capable Obama team and then the deliberations 
here, if you could prevail upon the Obama team as we look at it 
here among this committee--I take responsibility here, and this 
excellent appropriator--if we could look at what are those 
jolts that we could do now that, while people are either out of 
work or seeking new work, to get this training, and we could 
get a two-fer. People would be going to work, and we could be 
dealing with the critical shortages that have been identified 
in innumerable studies.
    Mrs. Solis. Senator, I think you have a good idea that I 
know that the President-elect, I'm sure, and members of his 
Cabinet, would be very much attuned to hear about. I have 
spoken also with some of his members to explain that I do 
believe that green-collar jobs and this whole stimulus package 
does, in fact, have to include a safety mechanism so that women 
who want to continue in their careers, or expand, or go into 
new careers, have that opportunity. So, yes, it has to be 
underscored. I agree with you. I will work with you and other 
members of this committee and the Senate to see that we do 
approach this with the angle that you're presenting here, that 
we not forget the 51 percent of the population who also needs 
to be fully employed in this economy.
    Senator Mikulski. Well, thank you. I know we can count on 
you to be a very strong voice. My time is up. I'm going to just 
give you a couple of quick heads-up.
    No. 1, we look to you to really revitalize and reinvigorate 
the Women's Bureau. We need to enforce existing laws on the 
books and so on. Quite frankly, it's become moribund. It's been 
timid. It's been a very timid and tepid bureau. That's one 
issue.
    The other, a red alert on the Pension Guarantee Fund. 
They've gotten into risky investments. They're in real estate, 
they're in stocks, they are in bonds. You're the chairman of 
that--chairperson of that board. Big flashing yellow light 
about the pension guarantee, which I fear we're going to be 
turning to more and more.
    Contracting out in the Department of Labor. GAO tells us it 
was overly vigorous and most of the jobs contracting out 
torpedoed jobs held primarily among African-Americans.
    And last, but not at all least, we really do need to reform 
the H-2B program. No one's happy about it. We've worked with 
our outstanding colleague, Senator Sanders. We want to work 
with you and the Hispanic Caucus and the business community. It 
needs reform. So, Women's Bureau, pension guarantee, H-2B, 
contracting out, jobs today, jobs tomorrow. I'm ready to vote 
for you.
    [Laughter.]
    Mrs. Solis. Thank you, Senator.
    The Chairman. Senator Hatch.
    Senator Hatch. Thank you, Mr. Chairman. I appreciate your 
leadership.
    I congratulate you, Congresswoman Solis. This is a 
wonderful opportunity for you and a great opportunity for our 
country, as well. My caution would be for you to not be in 
anybody's pocket; do what's right.
    I intend to support you. I think the President deserves the 
utmost consideration on his appointments for his Cabinet. And 
I'm proud of him and proud that he has this opportunity, and 
especially proud of you and the way you've fought, through your 
life, to reach this point where you are, and having been a 
Member of Congress, as well.
    Now, having said all those nice things----
    [Laughter.]
    Senator Hatch [continuing]. And I mean every word of them--
let me just say this. Labor advocates claim that the Employee 
Free Choice Act-type bill is necessary, because unions and 
employees who want unions cannot get a fair election, because 
employers, in a large number of instances, engage in unlawful 
activity during the union's election campaign, which results in 
unions losing elections. However, the National Labor Relations 
Board data indicates that, in 2007, unions won over 60 percent 
of contested elections held.
    Further, based on recently released NLRB data on elections 
held during the first half of 2008, unions have been winning 
66.8 percent of elections. Now, if employer interference is so 
prevalent, how can unions win such a high percentage of 
elections? And it's pretty well been 60 percent or more for as 
long as I can remember.
    Mrs. Solis. Senator, thank you for your opening statements. 
I appreciate your sincerity. I really take note of the long 
work that you've done here in the Senate and the many people 
that you have affected. I want to also point out your work on 
behalf of immigrant children with respect to the Dream Act. I 
want to congratulate you for continuing to be someone who 
supports the education of our Americans.
    Senator Hatch. I'm going to vote for you, so you don't have 
to be that nice.
    [Laughter.]
    Mrs. Solis. With respect to the Employee Free Choice Act, 
as you know, I have been a cosponsor of that legislation in the 
House. And President-elect Obama has also been supportive. But, 
my priorities, given--if I am confirmed, will be, first and 
foremost, To make sure that we attend to the goals of the 
Department of Labor, to see that we have fair wages, that there 
is safety and protection, and that hopefully people can aspire 
to have a good-paying job in this country. So, that's the first 
principle.
    The second principle would be that I would like to talk to 
members of the Senate, because I think that the House of 
Representatives may even be taking up this bill sooner than 
perhaps might be cause here in this house. So, I know there's 
going to be a lot of discussion and debate, and I look forward 
to that discussion with you. I have not spoken with the 
President-elect about this, and I am prepared to work with 
everyone. But, I know that, first and foremost, if I am 
confirmed, that my priority will be to uphold the goals of the 
Department of Labor and get this economy going, make sure that 
we have jobs and people trained to fulfill those jobs.
    Senator Hatch. I think if you keep that goal in mind and 
fulfill that goal, you're going to be a great Secretary of 
Labor. And I want to encourage you to do that.
    One other thing--I only have time for one more question. 
Recently, the UAW expressed its opposition to Congress's and 
the White House's attempts to bring Detroit autoworkers' wages 
and benefits into line with foreign auto plants based in the 
United States by demanding concessions from the Big Three's UAW 
members. Now, do you think it was appropriate for the Senate 
and the White House to demand such concessions? What would be 
your opinion as to other legislation or executive action that 
could mandate what the UAW and Big Three have to agree on?
    For instance, since Labor is opposed to such congressional 
and executive mandates related to terms and conditions of 
employment, then, further, I would ask this question, How can 
you reconcile Labor's support of the Employee Free Choice Act 
that requires--or, provides for mandatory interest 
arbitration--first contract arbitration, which would require 
the same thing of unions--namely, terms and conditions of 
employment being mandated by a third party for the union and 
employer for 2 years. This is serious stuff. I think that 
provision is worse than the terrible provision with regard to 
the first part that I was talking about, in the Employee Free 
Choice Act, the part regarding secret ballot elections. To have 
George McGovern come out in support of secret ballot elections 
and also even some other top liberal leaders in our country, I 
think that's bad enough. But, to go to first contract mandatory 
government arbitration that sets terms and conditions of 
employment, and wages, as well, for not only the companies, but 
the unions, for 2 years, is something that's not only 
dangerous, it's a terrible provision.
    Mrs. Solis. Senator, as I said earlier, I was a cosponsor 
of the legislation, and President-elect Obama is also 
supportive. I have not had any immediate discussion with him 
about this. And, as I said, I would look very earnestly for any 
thoughtful dialogue with you and other members of this 
committee. I think it's a bit premature for me to say anything, 
at this point, for the purposes of this hearing.
    Senator Hatch. All right.
    Well, Mr. Chairman, let me just say that I, personally, am 
very proud of Representative Solis's selection, here.
    I think you're a credit in so many ways, and you're a 
Member of our Congress, which is very, very important, as well. 
This is a very, very important position, and it can't be used 
to just magnify one side over the other, or any side over any 
others. It has to be handled fairly. I'm convinced that you're 
going to do your very best to try and do that. And like I say, 
I intend to vote for you, and I'm very proud of you and commend 
you for having this great opportunity, commend the President-
elect for choosing you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Chairman. We know that Senator 
Hatch is on the Finance Committee as well, so he has additional 
kinds of responsibility on our Human Resource Committee and 
also on the Finance Committee.
    Senator Hatch. Are you trying to get rid of me right now?
    [Laughter.]
    The Chairman. I've been trying for 30 years.
    [Laughter.]
    I thought I'd try the soft soap today.
    [Laughter.]
    Senator Hatch. I know a lot of people who have been on your 
side, too.
    [Laughter.]
    But, I know a lot of people who are happy that you've been 
such a loser with regard to that.
    [Laughter.]
    The Chairman. Very good. Good to see you.
    [Laughter.]
    Senator Hatch. It's great to see you.
    [Laughter.]
    It's always great to be with you. I respect you so much, 
and love you, personally. You know that.
    The Chairman. Thank you.
    Senator Hatch. In spite of all of the difficulties you 
bring my way.
    [Laughter.]
    The Chairman. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    And welcome, Representative. I think the President has made 
a very wise choice. Your service and your personal experience 
reinforces the best ideals of this country, that, through hard 
work, through effort, through good parents and strong families, 
that we can rise to heights that no one ever expected, 20, 30 
years ago. So, thank you very much. I know you'll bring that 
same spirit to your duties as Secretary of Labor.
    I was struck when Senator Dodd spoke about Chairman 
Bernanke's comments about the economic effects of unionization. 
And frankly, one of the great challenges that go beyond the 
Department of Labor--it encompasses the entire Federal 
Government--is, How do we raise the wages and, therefore, the 
standard of living, of middle-income Americans? I think 
Bernanke's comments are very prescient about--that role has 
been performed, for decades now, by unions bargaining for 
better conditions and higher wages. I would suspect that the 
wage level in that Nissan plant in Tennessee would not be as 
high if there wasn't a strong union in the Saturn, the now-
Chevy, plant. So, I think we have to consider that also, when 
you consider your efforts with respect to the Employee Free 
Choice Act.
    There's one area I just want to focus on. That is, we've 
discussed, today, the distressing news of unemployment rate of 
7.6. And, as my colleagues revealed, that is a national number. 
In some States, like Rhode Island, it's 9.3, and getting 
higher. We anticipate that, unfortunately--that among different 
categories of workers, it's much higher. African-Americans, 
Latino. And I wonder, as we go forward with respect to Federal 
measures, like unemployment insurance, can we be very--even 
more sensitive to these disparate numbers on a state-by-state 
basis? And second, in the longer term, when you deal with the 
Workforce Investment Act, can we think about ways--can you 
think about ways to target Federal resources, not just across 
the board, but to those areas and to those populations which 
are struggling much, much more dramatically than the national 
average? Your comments would be appreciated.
    Mrs. Solis. Thank you, Senator Reed. I appreciate the 
opportunity we had to discuss those issues of concern to you. I 
know that, in your State, perhaps the workforce there, in those 
situations, may be even more highly educated and trained than 
in other parts of the country. We really have a different 
challenge, I think, in Rhode Island. Nonetheless, I still think 
that you're right, we do need to make an effort to target those 
particular areas that are stressed with higher unemployment. I 
do think that there is a way the Department of Labor can begin 
to address some of those issues. There are different, I think, 
vehicles or programs that have been used in the past to do 
that. One that comes to mind, very quickly, is the Trade 
Adjustment Act that can be used to help provide assistance 
immediately to those high-targeted areas, as you're describing. 
That might be something that we can, obviously, explore, or any 
other ideas you have.
    With respect to WIA, I also agree that we do need to do a 
better job of strategically focusing in on those populations 
that we believe are a priority. Whether it is returning 
veterans or whether it's youth that are highly unemployed. The 
unemployed right now, or just trying to get individuals who may 
be in a specific service sector that have been recently 
unemployed. For example, the retail industry or the financial 
institutions. We must work quickly to see what kinds of 
opportunities we could put in place immediately.
    I want to work with this committee and work with you on 
coming up with those ideas and programs that work. I know you 
and I talked about a particular job program, I believe, that 
exists in your area.
    Senator Reed. Well, we're very fortunate to have the best 
job corps center in the country in Rhode Island, and so, we 
would like you to continue to support the job corps very 
enthusiastically.
    Mrs. Solis. I would love to visit, upon your invitation and 
if confirmed.
    Senator Reed. Well, I'll start making the arrangements 
today.
    [Laughter.]
    Thank you very much, Representative.
    Mrs. Solis. Thank you, Senator.
    The Chairman. Senator Sanders.
    Senator Sanders. Thank you very much, Mr. Chairman.
    Let me begin by saying I have known Congresswoman Solis for 
a number of years, because I worked with her in the House and 
we've continued working with her in the Senate. I think it's, 
from my perspective, perhaps the very best appointment that 
President-elect Obama has made. And I'll tell you why. I think 
most Americans today understand the reality that the middle 
class is collapsing, that poverty is increasing. Since 
President Bush has been in office, more than 6 million people 
have fallen into poverty, 70 million Americans have lost their 
health insurance, millions of people have lost their pensions, 
people are losing their homes, people are losing their dignity. 
And also since President Bush has been in office, the gap 
between the very rich and everybody else has grown wider and we 
have the greatest gap between the very rich and everybody else 
of any major country on earth. And to a certain degree, the 
position of Secretary of Labor, as Senator Dodd indicated 
earlier, is about standing up for working families. And at a 
time when I believe most Americans perceive that, for the last 
8 years, we've had a government that has stood with the wealthy 
and the powerful and ignored the needs of working families, 
people are saying it is time for a change, it's time to hear 
the needs and the pain of ordinary people in the halls of this 
Congress. And I think, for better or worse, a lot of that 
responsibility is going to be on your very, very able 
shoulders. I have no doubt that you will assume that voice and 
say that it's time that working families had a shot in this 
country, and not just large multinational corporations.
    Now, let me begin by just asking you a few questions. The 
first one's going to be a very, very tough question. You helped 
create, in the House, the Green Jobs Workforce Training 
Program. And I worked with you in the Senate, along with 
Senator Clinton. Now, on that very tough question, Will you 
help us move that program along, the one that you helped 
create?
    [Laughter.]
    Mrs. Solis. Yes.
    Senator Sanders. All right. Tough question.
    [Laughter.]
    Now, we've heard a lot about unions. Let me just say a word 
about that. Congresswoman, today if an employee is engaged in a 
union-organizing campaign, that employee has a one-in-five 
chance of getting fired. Today, half of all employers threaten 
to close or relocate their business if workers choose to form a 
union. Today, when workers become interested in forming unions, 
92 percent of private-sector employers force employees to 
attend closed-door meetings to hear anti-union propaganda, 80 
percent require supervisors to attend training sessions on 
attacking unions, 78 percent require that supervisors deliver 
anti-union messages to workers they oversee, and 75 percent 
hire outside consultants to run anti-union campaigns, and on 
and on it goes. Will you use your position as Secretary of 
Labor to give workers a fair shot to join a union if they wish 
to do so?
    Mrs. Solis. Senator Sanders, it's always a pleasure to work 
with you and to hear your very passionate concerns about the 
average working families that make up this great country. And 
you know that I also was a cosponsor of the Employee Free 
Choice Act, as well as our President-elect, Barack Obama, who 
also supports that legislation.
    Now, given the situation at this time, I have not had an 
opportunity to speak with him directly about other legislation. 
I see my role as, again, a steward of the Department of Labor, 
helping to provide protections in the workplace, fighting for 
those working men and women, and their children, that also 
deserve to receive respect and dignity in the workplace, and, 
even upon their retirement, that there's some solvency there 
provided for them. I will work with you and other members of 
this committee to see that we work to do that.
    I understand the problems that we face with some egregious 
businesses, and perhaps there are some bad union actors out 
there, as well. I know that we have to correct those and we 
have to have a fair balance, and I will work very diligently 
with you and other members to achieve that.
    Senator Sanders. Yes, two other issues I wanted to briefly 
touch upon. Senator Mikulski talked about nursing. She and I, 
among others, passed legislation--authorized legislation that 
would provide per-capita funding to nursing schools that 
increase their enrollment. Right now, every year, 50,000 people 
apply for nursing school, in an area where we desperately need 
more nurses; they're rejected because there aren't faculty 
available to teach them. We've addressed that. What we're 
asking for is funding for that program so that we can create 
good jobs in a desperately needed area. Is that something you 
could be supportive of?
    Mrs. Solis. Yes, Senator. And I would look strongly to, 
also, the support of the Cabinet designee for the Department of 
Education.
    Senator Sanders. Right.
    Mrs. Solis. That's where a lot of the funding would come 
from.
    Senator Sanders. There's another area that I want to just 
touch briefly upon that I've been working on for many, many 
years. As our disastrous trade policies result in the loss of 
millions of good-paying jobs in this country, going to China 
and elsewhere, one way that we can address that is the concept 
of employee ownership. And I know, in Vermont and Ohio, some 
other States, we're talking about that, that if an employer 
retires after growing a business, as often as not, that 
employer would like the opportunity to leave the company to his 
or her employees. Will you work with me in trying to expand 
that concept so that workers themselves can own their own 
places of employment?
    Mrs. Solis. Senator, I am always interested in what you 
have to say, and look forward to exploring those ideas that you 
shared with me the other day in your office regarding the 
innovative ideas that are coming out of your own State.
    Senator Sanders. Mr. Chairman, I think we have the 
opportunity here to vote for somebody who will be one of the 
great Secretaries of Labor, and I certainly look forward to 
voting for her.
    Thank you.
    The Chairman. Fine. Thank you very much. I know some of our 
colleagues might have additional questions. Just before they 
do, I want to get back to the question of workers and their 
rights. We had a good round earlier on this issue. But, I've 
been around here, actually, since the early 1960s. And in the 
early 1960s, there was no Employee Free Choice Act. That didn't 
exist. We didn't have, obviously, those who were abusing the 
system, because the system didn't exist. You know, people just 
don't respect that fact today. They talk about, ``Oh, well, 
we've got that now, which--change. We ought to go ahead and 
enforce that, and all the rest.'' It did not exist. Our system 
worked well, and it worked very fairly. So, before we get all 
worked up about this process, we ought to recognize the history 
and understand what worked and what doesn't work.
    Then, the point--and I think Senator Sanders recognized 
this--about the percent of people that want a union, versus 
those that don't. Only 8 percent have them and 60 percent want 
a union. I would think that would demonstrate quite clearly 
about who wants this and who does not. And you're talking about 
employee free choice. You're getting a pretty clear indication 
about that issue.
    And finally, on the issue, we find that--about the NLRB, 
which I'm very interested in--they have a situation, in the 
NLRB, where the implementation of the workers is in the NLRB 
and not the Department of Labor. These discussions about wages 
and the rest, this is not in the Department of Labor, but is in 
the NLRB. And so, we shouldn't get confused about what the NLRB 
represents, what the Department of Labor represents, who has 
responsibility and what the law is in this area. It's very easy 
to distort it and misrepresent. But, I think we've tried to 
clear this up. I'll ask our colleagues on both sides of the 
aisle to get into greater detail on this particular issue so we 
have all the facts on it.
    I don't know whether there are any additional questions.
    Senator Harkin. I have just one, Mr. Chairman. Thank you 
very much. I don't mean to prolong this.
    We're anxious to get on with the administration and get you 
in as Secretary of Labor, Congresswoman. But, there's one other 
area I just wanted to cover with you, and that's the whole area 
of pensions. It was brought up a couple of times here.
    But, you know, in the past, basically we had a defined 
benefit program for people. And then, that has morphed into all 
kinds of other things. And the defined benefit plans have gone 
down. It's interesting to note that, as the defined benefit 
plans have been attacked and changed, management has instituted 
unique kinds of retirement programs for senior executives; 
they're called deferred compensation plans, which are nothing 
more or less than a defined benefit program. So, they get the 
defined benefits, but the workers don't.
    Congressman Miller, on the House side, and I have 
introduced legislation that basically says, if a company 
provides any kind of a deferred compensation plan for its 
executives, it must provide for a defined benefit plan for its 
workers.
    The other issue is fee disclosures. Fees. And a lot of 
times, people--you know, when you say, ``Well, a fee is .5 
percent or 1.5 percent for the administration of a 401(k) 
plan,'' it doesn't--you don't think that that's a big deal. 
But, here's what it means. If a 35-year-old invested $20,000 in 
a 401(k) plan for 30 years, paying .5 percent in fees--the fee 
is .5 percent for administrative costs--that person would have 
$132,287 for retirement. But, if the fees were 1.5 percent--and 
that doesn't sound like a big deal, 1.5 percent--the amount 
available for retirement is only $99,000, a 25-percent 
reduction in retirement for just a 1-percent increase in fees. 
A lot of these 401(k) plans out there have fees of 2 percent, 
2.5 percent--it's all over the place.
    We need to make sure that when 401(k) plans are provided, 
that the fees are disclosed, and what it means in the 
difference on those fees, going from a .5 percent to 1 percent 
to 1.5 percent to 2 percent, what that would mean in the 
employee's benefit program at the end.
    Now, the Bush administration proposed rules on fee 
disclosures, but we've looked at those, I've had my staff go 
through those, and, quite frankly, it leaves loopholes big 
enough that the employer's plan can hide up to 90 percent of 
the assessed fees. I hope, Congresswoman, that you will take a 
look at these proposed rules and come up with rules that 
basically would disclose all of these fees so that people know 
what it means. If they have a plan that is 1.5 percent fees or 
one that's .5 percent, they would know what the difference 
would be in their benefits at retirement time.
    So, I implore you to take a look at these regulations, 
their proposed rules. I think they need to be reworked, and I 
would hope that you would take a look at the legislation that 
both Congressman Miller and I have introduced. Any thoughts 
that you have on that, I would appreciate.
    Mrs. Solis. Thank you, Senator Harkin. I, too, agree with 
much of what you have said, in light of what has happened in 
the stock market and the value of our pension plans for many 
Americans, and the devalue that has occurred. I, too, would 
like to see more attempt at disclosure and transparency, and 
want to work with you and other members of this committee. I've 
worked, in the past, with Congressman Miller on this, and 
supported legislation to that effect, and would hope that we 
could review those regulations, once they come out, if I am 
confirmed, and have the opportunity to tighten up those 
loopholes that might seriously disadvantage those current 
retirees or folks that are hanging on to those plans right now.
    Senator Harkin. Thank you very much, Congresswoman.
    Thank you very much, Mr. Chairman.
    The Chairman. Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman. I do have some other 
questions.
    I know we have other questions that we'll put in writing, 
too, that we'll hope that we have answers to, and, yesterday, 
had agreed to do that. And then, after we'd given up our right 
to a second round, your side had a second round. So, I do want 
to ask some additional questions, and we will still want to 
submit questions in writing.
    Senator Enzi. I'm glad you brought up the pension issue, 
because that was a tremendous bipartisan undertaking of this 
committee and the U.S. Senate. In fact, that was over a 1,000-
page bill, and our final debate and vote on it was 1 hour, with 
two amendments and then a final vote, which, I think, in, 
probably, the history of the Senate, that was a record for 
getting it achieved. Then we did the Conference Committee and 
were able to have the same kind of bipartisan participation and 
support. I think we did wind up with a situation where we have 
preserved pensions for people, as well as kept the companies in 
business, which would have also eliminated pensions. I think 
there are some things that need to be done, in light of the 
economic situation right now, and I hope that, as Secretary, 
you would help us with that. But, I did notice that, when we 
voted on that legislation, that you voted against the 
legislation. So, I guess I need to ask, if you're confirmed, if 
you would intend to undo that pension law, and what, if any, 
changes you would intend to make in the Pension and Retirement 
Savings Act.
    Mrs. Solis. Senator, I'm looking forward to working, if 
confirmed, with all sides of the aisle, and to just reiterate 
that I, too, have concerns about disclosure. I think that the 
public does deserve to be notified if they are improperly being 
charged fees. I think that's what President-elect Obama has 
talked about to the public, about more transparency. And at 
this particular time, when we are in a financial crisis, I 
think it's more needed than ever. So, I would like to work with 
you, as well as other members of the committee, to see how we 
could arrive at those principles.
    Senator Enzi. Very good. We did just pass the technical 
corrections bill to that, which helped clear up what we thought 
were some of the misinterpretations by the Pension Benefit 
Guarantee Corporation, several of which the Administration did 
not like. But, I think it will make a huge difference in 
maintaining pensions for people, and that's what we're 
interested in doing.
    To shift gears again, you're the only current Member of 
Congress who is serving on the board of directors of the 
American Rights to Work. Do you plan to maintain that 
association, as the Secretary?
    Mrs. Solis. Senator, I have various affiliations with 
different groups--the Sierra Club, National Women's Political 
Committee, Business and Professional Women's--many that I have 
held for many, many years. I will continue to hold those. I 
think that, if I am confirmed, that I will more than likely 
remove myself from the board.
    Senator Enzi. OK, because the concern has not been with 
you, but with some of the very personal and inflammatory 
attacks against officials who have earned the respect of many 
of the members of this committee, and I'm sure you did not 
authorize those attacks, and I would hope that, if you maintain 
any kind of a relationship with the group, that you would 
request that they not do personal attacks. Issues? Excellent. 
That's what we need to be working on. Personal attacks? I don't 
think that has a place in what we're doing, and just helps to 
make crevasses where we ought to have bridges.
    Mrs. Solis. Senator Enzi, if I might just state that I was 
very pleased to be nominated by our President-elect, Barack 
Obama, for this position, and unbeknownst to me that I would 
even be given this offer. I feel very blessed and very 
privileged for that honor.
    The second call that I received, after a friend picked it 
up on the television that somehow my name was presented, was 
Secretary Elaine Chao. She called me personally in my 
congressional office and wanted to thank me, and wanted to just 
share a few words of respect to say that, as another woman, as 
someone who has a background that's very diverse, that she 
thought that this was a very exceptional position, and she was 
very kind and generous in her acknowledgment of this 
appointment. So, I have the highest respect for all of our 
elected and appointed officials, and know that I will work very 
hard, as I have tried to demonstrate in my role as a Member of 
Congress, to work across the aisle with everyone.
    Senator Enzi. I appreciate that. Of course, one of the 
things that Secretary Chao did was to get a clarification on 
white-collar exemptions. I think you opposed the 
Administration's regulation on that, and you stated that it 
barred 6 million workers from receiving the overtime they 
deserved. Of course, now we know that that was not the result 
of the regulation, that the rhetoric we heard so frequently in 
2003 and 2004 has virtually ceased. But, I'm curious, as 
Secretary of Labor, would you work to rescind that regulation?
    Mrs. Solis. Senator, I'd have to take another look at what 
the Department of Labor has been working on with respect to 
this issue, and consult with the President-elect and also other 
members of this body, and will get back to you at the 
appropriate time, if you wish.
    Senator Enzi. OK. I would wish. I'll end on a considerably 
easier question, because we are going to be talking about a lot 
of job creations. I have worked, for the last 4 years, on the 
Workforce Investment Act, and we passed it unanimously through 
the Senate, 2 years ago. The House also passed it, but we were 
never able to get a Conference Committee. We've had it ready to 
go, this last 2 years, but have not gone to the effort to pass 
it through the Senate. I think that some revision in that, to 
modernize it, to reauthorize it, is extremely critical. So, 
would you propose to make sure that we do something on 
workforce investment? What kinds of things could be done on 
that?
    Mrs. Solis. Senator, I know you and Senator Murray have a 
great deal of interest in this subject matter, and I did have 
an opportunity to talk to her and, of course, would like to 
speak with both of you and other members regarding that issue. 
I do think there's room for improvement, but also want to get 
the best data, in terms of what the agency is currently 
undertaking and what challenges we're going to face. And again, 
I would just draw your attention to, also, the fact that we 
need to have a sufficient-funded WIA program, and that's also 
going to take a bipartisan effort. So, I would ask you to also 
consider that, as we go and move along in the direction of 
making sure that jobs are out immediately for the American 
workers.
    Senator Enzi. I think a lot of the concern with the funding 
has been over the fact that we were operating under an 
antiquated system that had only stovepipes, that didn't have 
the flexibility to move the money to where the people need to 
be trained. I think, as we eliminate those stovepipes, we might 
have some success at dramatically increasing the money. I think 
that the circumstances now will dramatically increase it 
anyway, but I think it needs to be used more effectively than 
what we have in the past. I think completing that piece of 
legislation will be a real, real key to it.
    I do appreciate your appearing before us today and 
addressing these questions. I noted that--a number of 
occasions, of course, that you have not talked to the 
President-elect on the subjects. I think we were kind of 
interested in what your personal opinion was, but recognize 
that that has to be a part of the Administration, as well. I do 
know that the members that posed some of those questions will 
expect a little more definitive answer before the vote on 
confirmation is done.
    So, I thank you for your willingness to do this job. The 
hearings alone are terrible.
    [Laughter.]
    But, your willingness to give up that part of your life to 
do an extremely difficult job for a lot of people, and to 
manage an agency of such import, I congratulate you and thank 
you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Sanders.
    Senator Sanders. Very briefly.
    I just want to mention to Senator Enzi that Congresswoman 
Solis was not the only member of the House to have voted 
against that pension bill. I voted against it, too. And in 
retrospect, it was the right vote, because, among other things, 
it allowed employers to discriminate against old workers by 
shifting to cash-balance pension plans that, in fact, could 
result in cuts in pensions by up to 50 percent. So, I think she 
cast the right vote, as a matter of fact.
    But, I just, again, want to congratulate President Obama 
for his appointment, and I think in front of us we have 
somebody who has the makings to be a great Secretary of Labor.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much.
    Congresswoman Solis, we want to express our real 
appreciation for your presence here today. Today you get the 
sense, and the real sense, and one that I share, and the 
feeling that we need a real fighter for the workers in America. 
We want someone that's going to be fair, obviously, for the 
workers and for all of those affected by your department. 
That's extraordinarily important. We want to find ways in which 
we can work together--both Republicans and Democrats.
    Senator Enzi mentioned before some of the challenges that 
remain out there. But, as he has also mentioned, we, on this 
committee, have found ways of working together. I think you can 
see, over the period of years, the work of this committee, in 
terms of workers' interest, has been extremely strong, and we 
have every intention to keep it that way.
    So, we want to, again, thank you, and we want to just say--
finally, I would say that we come away from the hearing with a 
strong sense of your caring about these issues. I opened the 
hearing, talking about some of these issues and the plight of 
so many working families. And, I think, in the course of the 
morning, you've gotten that sense, from all the members, that 
here in this committee, we have a strong concern about what is 
going to happen to families here in our country, and we 
recognize the central challenges that we are facing. We look 
forward to working closely with you. You have an extraordinary 
reputation, and you come to this job with an incredible amount 
of support, and we want to continue to make sure you're going 
to get all the support that you need, and we invite you to tell 
us about the areas, as we move along, that you think we can be 
most helpful in for working families in this country.
    Without further comment, the committee will stand in 
recess.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Murray

    Thank you, Mr. Chairman, for calling this hearing to 
quickly move forward on the confirmation of Representative 
Solis as the next Secretary of Labor.
    Ensuring a smooth and timely transition for this critical 
Cabinet position sends an important message to America's 
workers that they are absolutely essential to our economic 
recovery efforts.
    And thank you, Representative Solis, for responding so 
decisively to President-elect Obama's call to serve as 
Secretary of Labor. Having worked with President-elect Obama, I 
know he is committed to America's working families. I'm pleased 
that he's chosen an equally committed advocate to lead the 
department responsible for the well-being of workers.
    Once confirmed, you have a great mission ahead of you.
    For far too long, America's workers have felt like an 
afterthought to their government.
    Workers weren't a top priority for the last 
Administration--and it showed--in their inadequate investments 
in workers, their skills, and their health and safety on the 
job.
    But I'm encouraged that the Department of Labor will soon 
have a leader who will restore public confidence, in its 
ability to serve workers well--a leader who stands ready to 
help the Department fulfill its core responsibilities to 
America's working men and women.
    For years I've said that if we don't invest in the growth 
and development of America's workers, our families, our 
communities, and our Nation will suffer in the long run.
    Now, with unemployment at 7.2 percent, record numbers of 
jobs being shed from the economy, and hundreds of thousands of 
new unemployment insurance claims being filed every month--
workers need an advocate in the new Administration who will 
stand up for them.
    They need someone who believes--as I do--that investing in 
them is investing in our future.
    They need someone who believes that their government should 
work for them during the good times and help them support 
themselves during the hard times.
    And, they need someone who will be their voice in every 
economic recovery discussion.
    As we discuss the best way to stimulate our economy, I 
believe three points are clear. First, we need to help create 
new jobs, and help workers who are unemployed or underemployed 
find new, family-supporting jobs and stay in the middle class. 
Second, we need to help low-skill and low-earning workers 
acquire the skills they need to find family-wage jobs in 
healthy industries, and increase their entry into the middle 
class. And third, we need to make smart investments in critical 
infrastructure repair that will create jobs, increase worker 
training and help enhance our productivity and global 
competitiveness.
    I'm also hopeful that as Secretary, you will join me in 
making the reauthorization of our Nation's workforce system 
under the Workforce Investment Act a top priority in your first 
year. We face some challenges, but I'm convinced we can do it. 
Our working families deserve an innovative and modern workforce 
development system.
    It's also my hope that we can work together to make work-
life balance a reality for many working families being pulled 
in too many directions. I hope that we'll see a proactive 
approach to expanding job protected leave and other family 
friendly work policies.
    To be fully productive, workers need to know that their 
employers and their government are doing all they can to ensure 
they are safe and healthy on the job. I look forward to working 
with you to once again make OSHA and MSHA proactive agencies 
that put the well-being of workers first.
    We face significant challenges; however, we have a great 
opportunity before us.
    Together, we can help workers access training for 21st 
century careers, including emerging green jobs.
    We can help workers balance the needs of home and careers; 
help keep them safe on the job; and protect their rights to 
organize and secure a better economic future for themselves.
    And, ultimately, we can help working families improve their 
quality of life.
    As Chairman of the Subcommittee on Employment and Workplace 
Safety, I know that serving our working families is a great and 
weighty privilege.
    And, I know we share a common belief--when working families 
win, we all benefit.
    I look forward to being a partner in service with you in 
the years to come.
     Response to Questions of Senators Kennedy, Harkin, Mikulski, 
                            Murray and Brown
                      questions of senator kennedy
    Question 1. As discussed at the hearing, you have been a strong 
supporter of the Employee Free Choice Act, a bill that would amend the 
National Labor Relations Act to provide additional protection for 
workers' right to form and join a union. The National Labor Relations 
Act is implemented and enforced by the National Labor Relations Board.
    Do you understand the Employee Free Choice Act to change in any way 
the National Labor Relations Board's exclusive responsibility for 
enforcing the National Labor Relations Act? What role, if any, do you 
see for the Secretary of Labor in carrying out the provisions of the 
Employee Free Choice Act?
    Answer 1. It is my understanding that the Employee Free Choice Act 
would not change the National Labor Relations Board's exclusive 
responsibility for enforcing the National Labor Relations Act. It is 
also my understanding that as an independent agency, the NLRB has 
historically exercised its decisionmaking authority under the National 
Labor Relations Act without interference or direction from the 
Executive branch. If confirmed, my intention is to continue that 
practice.

    Question 2. The Employee Free Choice Act establishes a timetable 
for negotiating a first contract. It gives the parties ample time to 
negotiate the terms of their agreement, on their own and with the help 
from an experienced mediator. Only after the parties' own negotiations 
fail, and mediation is unsuccessful, can the dispute be referred to 
arbitration.
    Do you agree that it is important for a union that has won an 
election to have some mechanism for achieving a first contract? Do you 
think that, under the system that would be established by the Employee 
Free Choice Act, both business and labor would have a strong incentive 
to reach an agreement through negotiations or mediation?
    Answer 2. There is broad consensus as to both the importance of a 
newly formed union being able to achieve a first contract and the 
obstacles that prevent that from occurring in so many instances under 
current law. As NLRB General Counsel Ronald J. Meisburg, a Bush 
appointee, wrote in an April 19, 2006 Memorandum to Regional Directors 
of the NLRB:

          Initial contract bargaining constitutes a critical stage of 
        the negotiation process because it forms the foundation for the 
        parties' future labor-management relationship. As the Federal 
        Mediation and Conciliation Service has observed, ``[i]nitial 
        contract negotiations are often more difficult than established 
        successor contract negotiations, since they frequently follow 
        contentious representation election campaigns.'' And when 
        employees are bargaining for their first collective bargaining 
        agreement, they are highly susceptible to unfair labor 
        practices intended to undermine support for their bargaining 
        representative.

    Under the current system, employers opposed to their employees' 
decision to unionize actually have a strong incentive not to reach 
agreement, because if they can get through a year without reaching an 
agreement the union can be decertified. Under the interest arbitration 
provisions of EFCA, both the union and the employer would have 
incentive to engage in serious bargaining with the intent to reach 
agreement, because if they failed to reach agreement both would face 
uncertainty as to the outcome of the interest arbitration proceeding. 
Evidence from Canadian jurisdictions that provide for first contract 
arbitration indicates that arbitration is rarely invoked because the 
prospect of the unknown encourages the parties to reach their own 
agreement.

    Question 3. As discussed at the hearing, 22 States have ``right-to-
work'' laws, which prohibit unions from requiring the workers they 
represent pay basic union dues. These laws require unions to make 
available to nonmembers all the services that they provide to union 
members at no cost.
    Isn't it true that in States without a ``right-to-work'' law, all 
workers have the right to decide whether they want a union or not? 
Isn't it also true that in States without ``right-to-work'' laws, 
workers are only obligated to pay for the union's services from which 
they directly benefit, such as costs associated with collective 
bargaining?
    Answer 3. Yes, that is my understanding.

    Question 4. The Department of Labor recently finalized new 
regulations for the H2-A and H-2B programs. Many worker advocates are 
concerned that the changes made by these regulations will undermine 
protections for workers covered by these programs, putting them at 
greater risk of exploitation and will have a negative impact on 
employment opportunities for American workers. You have been a vocal 
opponent of these regulations.
    If confirmed, would you consider revisiting these regulations? What 
other reforms would you like to see in these programs to increase 
protections for both immigrant workers and American workers?
    Answer 4. If confirmed as Secretary of Labor, I would examine all 
of the Department's programs to make sure they are effectively serving 
the interest of American workers. As a Member of Congress I have 
expressed strong concerns about the H2-A regulations recently 
promulgated by the department and I have similar concerns about the new 
H2-B regulations. Although I have made no decision as to whether these 
regulations should be revised or rescinded, if confirmed I expect to 
review them closely to assess whether they serve and balance the 
programs' goals--allowing employers access to employees with the skills 
they need, while at the same time assuring that the jobs that the 
employers seek to fill are not able to be filled by U.S. workers, and 
that the workers brought into this country through these programs are 
treated fairly, provided with safe and healthy working conditions, and 
paid wages and benefits that do not undercut the wages and benefits of 
U.S. workers.
                      questions of senator harkin
    Question 1. One of the great injustices in our society has been the 
fact that so many Americans dealing with a mental illness don't have 
the same insurance coverage that people who happen to suffer from other 
kinds of illnesses have. I know you understand this because you were a 
cosponsor of the Paul Wellstone Mental Health Parity Act in the House. 
And as you know, this long overdue legislation was passed late last 
year as a part of the economic rescue package. This legislation will go 
a long way to making sure that mental health and addiction treatment 
are covered in the same way as any other serious illness. It will make 
sure families struggling with mental illness don't have that difficulty 
compounded by having to pay the doctor's bills out of pocket. In this 
rough economy, it will give some of the families who need it most some 
valuable piece of mind. Now, the Department of Labor is one of the 
agencies tasked with the implementation and enforcement of this new 
law.&
    <bullet> It is absolutely critical that patient advocates have a 
seat at the table during this process, and that their views are 
considered and integrated in the final product. Are you committed to a 
fair and open regulation writing process that accommodates the needs of 
those most affected by the final rules?
    <bullet> Given that this law was well over a decade in the making, 
will you work to make this a high priority and that regulations will 
also be developed in a timely manner?
    Answer 1. I agree that passage of the Mental Health Parity Act was 
long overdue and if confirmed, I intend to work with the Secretaries of 
HHS and Treasury to ensure that implementing regulations are developed 
and issued promptly and within the time limit established by Congress 
under the act. I also share your view that the rulemaking process 
should be transparent and open, and should be structured so as to allow 
for meaningful input from patient advocates as well as other 
stakeholders. You have my commitment that if confirmed, I will make the 
effective implementation of this new law a high priority.

    Question 2. Over the years, there have been many advances made in 
the way citizens and businesses ship goods from city to city. Numerous 
air-carrier and cargo services make the delivery of goods speedy, 
reliable and affordable. Truck, air and rail delivery networks are in 
place across the country. These operations employ large workforces that 
perform various types of work in a range of conditions. Some of the 
leading delivery companies appear to have similar organizational 
structure and clientele. But there is a disparity in the terms and 
conditions of their workers' employment. Some of the companies provide 
full- and part-time workers with good wages and benefits, including 
medical plans, dental coverage and paid vacation time. Others take a 
lower road, in part by using independent contractors and anti-union 
campaigns.
    Unfortunately, Federal law facilitates this difference. It ensures 
that all of the workers at one of the largest companies which delivers 
by air are covered by the Railway Labor Act (RLA), even when those 
workers do the same jobs as employees at other delivery companies who 
are covered by the National Labor Relations Act (NLRA). What is the 
difference? Under the NLRA, workers can act locally in seeking to 
organize and bargain collectively. Under the RLA, workers must organize 
nationally, an enormous challenge in today's labor environment.
    Congress created the concept of an ``express carrier'' in 1996, 
putting all the employees of one large company under RLA jurisdiction, 
regardless of individual employees' relation to air transportation. 
That means those workers cannot organize a union chapter locally, 
weakening their opportunity to bargain for better wages, benefits and 
workplace conditions. I have been working to correct this difference by 
allowing all ground workers to organize under the NLRA. What are your 
thoughts on this issue?
    Answer 2. Both the President-elect and I believe strongly that all 
workers should have a meaningful right to organize and bargain 
collectively. The situation you describe, in which workers employed by 
some package and cargo delivery services are covered by the Railway 
Labor Act while workers of competing companies offering similar 
services are covered by the National Labor Relations Act, certainly 
seems illogical from the employees' point of view. I am not 
sufficiently familiar with the issue at this time to have a specific 
view as to how that anomaly could or should be addressed, but if 
confirmed I would be pleased to look into this further and to work with 
you and other members of the committee, as well as affected interests, 
to try to find an equitable solution.

    Question 3. Research shows that employment is a critical tool in 
ending homelessness, especially when it is linked with affordable 
housing. Yet traditional workforce development systems are not always 
accessible for people who are homeless or to those with multiple, 
significant barriers. What employment strategies should the DOL 
undertake to support the Nation's commitment to end homelessness?
    Answer 3. The best way to prevent homelessness is to make sure 
everyone has a job that pays a decent wage--which means a wage high 
enough to cover rent or mortgage payments. In this era of frequent 
foreclosures, spreading job loss, and rising despair, the department 
has a critical role to play by assuring that vulnerable populations of 
workers--those workers who are teetering on the edge of homeless or 
already slipped in--get the services they need and deserve. I am aware 
from my own experience that ``one-size-fits-all'' approaches to the 
delivery of services often have the practical effect of excluding hard-
to-serve-populations, including the homeless, from receiving services, 
and that service strategies need to be sufficiently flexible to allow 
services to be tailored to the specific needs of populations like the 
homeless who face special barriers. We need to take what we have 
learned from experience about how best to provide services to various 
underserved populations and make sure that those best practices are 
incorporated into all of our other programs. If confirmed, I look 
forward to working with you to ensure that the homeless and other hard-
to-serve are able to get the help they need and to obtain training and 
find meaningful employment. For people with disabilities, I am 
particularly eager to reinvigorate the Office of Disability Employment 
Policy's efforts to connect employers with workers with disabilities 
and help employers to provide the accommodations needed to break down 
the barriers to employment that have left too many people with 
disabilities in poverty.

    Question 4. I know that you spoke out against the Supreme Court's 
decision in Ledbetter v. Goodyear Tire and Rubber, and that you are a 
strong supporter of the bill to overrule that decision. However, there 
was another decision that hurt working people--especially low income 
women--handed down that same term that has not received as much 
attention. In Long Island Care at Home v. Coke, decided in June 2007, 
the Court upheld a Department of Labor regulation that excludes all 
workers who provide in-home care for elderly or disabled people from 
the Fair Labor Standards Act's wage and overtime protections. The 
challenged exclusion applies to employees of home care companies and 
agencies of any size and allows profit-making companies to legally pay 
home-care workers deplorably low wages and deny them just compensation 
for overtime. However, the Supreme Court also made it clear that the 
Department of Labor has the authority to overturn this interpretation 
by issuing new regulations. Would you be willing to draft new 
regulations to incorporate these overlooked workers?
    Answer 4. Home health care is a rapidly growing sector of the 
economy, and the men and women who are performing that critically 
important service deserve decent wages and the kind of protection 
against exploitation that our minimum wage and overtime laws provide. 
If I am confirmed, I will work to develop a regulatory agenda that 
serves the President-elect's goal of expanding and securing the middle 
class. In that connection, I will be closely reviewing various 
regulations administered by the Wage & Hour Administration to assess 
whether they serve that goal, including the so-called ``companions'' 
regulation under the Fair Labor Standards Act.

    Question 5. At this time when so many people are hurting 
financially, it is vital that any economic recovery legislation we pass 
benefit all Americans and take positive steps to eliminate the 
workforce segregation that exists today in many of the infrastructure 
and green jobs that will be funded through the economic recovery 
package. Women and people of color continue to be underrepresented in 
many of these jobs, particularly in the construction industry. 
Typically, these jobs provide family-supporting wages and benefits far 
beyond those earned by other women with the same level of education. 
For all jobs covered by Executive Order 11246, moreover, it is critical 
that the Office of Federal Contract Compliance Programs take proactive 
steps to ensure enforcement of civil rights requirements. But rather 
than enforcing the law, OFCCP during the past 8 years has abdicated 
some of its enforcement responsibilities, by, for example, removing the 
Equal Pay Matters Initiative from its Website and rescinding the Equal 
Opportunity Survey. The GAO issued a report that Senators Kennedy, 
Clinton, Representative Maloney and I requested that shows that indeed, 
the DOL isn't even tracking their enforcement efforts reliably. Will 
you commit to insisting that OFCCP take more aggressive enforcement 
action under Executive Order 11246, including by ensuring that women 
and people of color have equal access to jobs created by the economic 
recovery package and making a priority of monitoring and attacking pay 
discrimination?
    Answer 5. I have not yet had the opportunity to read the GAO report 
you referenced but, if I am confirmed, I will examine its analyses and 
conclusions closely. I am firmly committed to expanding opportunities 
for women, people of color, and people with disabilities in the 
American labor market and workplace and I know that the President-elect 
shares that commitment. One of my objectives if confirmed will be to 
reinvigorate the Office of Federal Contract Compliance Programs (OFCCP) 
and restore it to its role as one of the Federal Government's leading 
civil rights enforcement agencies. I share the concerns you have 
expressed about the acquisition of data to guide enforcement efforts 
and the provision of accurate and timely information to Federal 
contractors regarding their responsibilities under Executive Order No. 
11246 and the other laws enforced by OFCCP. I look forward to working 
with you to address these concerns.

    Question 6. The Office of Labor-Management Standards implements and 
enforces the Labor Management Reporting and Disclosure Act (LMRDA), 
which provides a bill of rights for union members and requires annual 
financial disclosures from unions, union officers and employees, 
employers, and labor consultants. The current amount of money spent per 
union is dramatically higher than the amount spent per employer covered 
for investigation, yet the number of successful corruption cases 
against unions and union officials did not increase substantially. By 
way of comparison, from 2000 to 2007, the number of wage and hour 
investigators fell from 946 to 732 and the number of DOL-initiated FLSA 
enforcement investigations fell by 38 percent. OLMS also adopted a 
number of burdensome regulations on unions, their officers and 
employees, and union trusts, forcing even fair low-level union 
officials to spend hours of their time and their hard-earned money to 
comply. Do you plan to roll back these onerous regulations?
    Answer 6. I share your concern about assuring a balanced approach 
to regulation, enforcement, and compliance assistance in all of the 
Labor Department's agencies, including the Office of Labor-Management 
Standards. If confirmed, I will look at all Department programs to make 
sure they are using their resources wisely in effectively serving the 
public interest. I am firmly opposed to any regulatory or enforcement 
effort that uses the Labor Department's statutory authority only to 
harass or intimidate any regulated entity. That is an inappropriate use 
of Federal resources and I will guard against it, if I am confirmed. 
The Labor Department's regulatory and enforcement efforts must always 
remain tightly focused on achieving the statutory objectives set forth 
by Congress.
                     questions of senator mikulski
    Question 1. Yesterday, the Department of Homeland Security 
announced that the H-2B cap for the second half of the fiscal year has 
been reached and that it will not accept petitions that are filed with 
USCIS if the start date is prior to October 1, 2009. While I understand 
that the cap limitation is statutory, I am concerned that delays in 
processing labor certifications have unfairly hurt my constituents. We 
need a fair solution for the good faith employers who filed their 
applications for labor certifications on time and followed Department 
of Labor guidelines, but whose certifications were not processed in a 
timely fashion because of bureaucratic delays outside of their control. 
I know you are aware that the Department of Labor has had serious 
problems processing foreign labor certifications and that delays have 
resulted in precluding employers from being eligible to apply for H-2B 
visa with the Department of Homeland Security. As a result of this 
backlog, and through no fault of their own, many employers who followed 
the rules may not get the workers they need this season. Without these 
seasonal workers, these small businesses may be forced to close their 
doors.
    We shouldn't let bureaucratic delays threaten American jobs in this 
extremely difficult economy. What do you think the Department can do to 
make sure labor certifications for guest worker programs are processed 
faster? Would you support a processing fee for labor certification 
petitions to facilitate timely adjudications of applications? What 
steps will you take to reduce fraud in applications so that employers 
aren't penalized for following the rules?
    Answer 1. The goal of the H-2B program should be to assure that 
employers get the workers they need to be productive, while at the same 
time assuring that the jobs they seek to fill are able to be filled 
with U.S. workers and that the workers participating in these programs 
work and live in safe, healthy conditions and receive wages that do not 
undercut the wages of American workers. Any administrative or 
management malfunction that interferes with achieving these goals must 
be addressed and, if confirmed, I will direct the Employment and 
Training Administration to report to me regarding how it intends to 
address these problems. With regard to the specific problems of delay 
in the processing of labor certifications and fraudulent applications, 
I am not sufficiently familiar with the administration of the program 
at this time to have a view as to the extent or cause of these problems 
and therefore what specifically needs to be done to address them, but 
you have my commitment that I will, if confirmed, give the matter my 
prompt attention. While I do not want to prematurely prejudge either 
the problems or the solutions, if confirmed I am certainly open to 
working with you and other members of the committee to assess whether 
additional resources, such as those collected through a fee, would help 
to address any backlogs and fraud-related problems that may exist.
                      questions of senator murray
    Question 1. Stimulating economy and keeping it strong means helping 
workers of all ages access the training they need to succeed in 21st 
century jobs. I am very concerned that work preparation and employment 
programs have been cut about 40 percent under the Bush administration 
when 4 million more people have been unemployed since 2000. We need to 
ensure that workers have the tools they need to find new, family-
supporting jobs and prosper in America's dynamic economy.&
    As Secretary of Labor, what will you do to make both education and 
job training funding for the current and next generation workers top 
priorities in the Obama administration?
    Answer 1. In this time of rising unemployment, disappearing jobs, 
and stagnant wages, I agree we must assure that every American is 
prepared to compete and succeed in the labor market and the workplace. 
If confirmed, working to assure that all workers have the skills they 
need to gain access to and succeed in good jobs that pay a middle class 
wage will be a top priority for me as Secretary of Labor.
    Added resources are important. But I believe that we must also take 
a hard look at our existing workforce development system and hold it 
and other skills-development grantees of the Labor Department 
accountable for results. I look forward to learning more from you about 
the ``listening sessions'' you have held with stakeholders of this 
system. And, if confirmed, I hope to work with you to assess whether 
there are ways to improve the career pathways we provide to workers 
entering or re-entering the labor market, to expand the role of labor-
market intermediaries, to associate unemployment insurance services 
with skills development services, to engage all Workforce Investment 
Act grantees and fundees in common efforts across traditional 
bureaucratic lines, and to make a host of other reforms to the system 
that will produce better outcomes for workers and our economy.

    Question 2. In the past, efforts to reauthorize the Workforce 
Investment Act have been blocked due to larger party politics that are 
no longer relevant. Getting a ``jobs'' bill done quickly is a strong 
signal that we care about ensuring America's workers stay in or enter 
the middle class.
    As Secretary of Labor, how will you plan to work with Congress and 
key stakeholders to quickly reauthorize the workforce programs under 
WIA that are critically needed in this economic downturn?
    Answer 2. President-elect Obama has expressed his support for WIA 
reauthorization and, if confirmed, I look forward to working with you 
and other members of the committee to develop a plan and a timetable 
for moving forward on this important legislation. Although the final 
scope of the President's economic recovery plan is still under 
discussion, I am hopeful that it will include new funds for job 
training, job search assistance and other workforce development 
initiatives. Obviously, this will present both new opportunities and 
new challenges for both the Department and the committee that will need 
to be taken into account as we consider how to proceed. As I indicated 
at my confirmation hearing, workforce development issues are among my 
top priorities at the agencies. I am truly excited at the prospect of 
working with you and other members of the committee to make sure we 
have in place the programs we need not only to help workers weather the 
difficult economic times we face in the present and near future, but 
also to enable them to build skills that will help them to succeed in 
the workplace over the full length of their working lives.

    Question 3. Businesses tell me about the widening gap between the 
demands of their high skill jobs and the number of workers who have 
those skills. At the same time, dropout and unemployment rates are on 
the rise. We have to find innovative ways to make education work for 
our students and our businesses. I plan to reintroduce my bill, 
``Promoting Innovations to 21st Century Careers Act,'' which would 
provide incentives for communities, employers, and schools to work 
together and identify ways to open up ``career pathways'' that help our 
students get the knowledge and skills they need to succeed in the 21st 
century economy. It encourages collaboration among State and regional 
partners to align relevant programs authorized under WIA, No Child Left 
Behind, and the Perkins Career and Technical Education Act.
    As Secretary of Labor, would you be willing to work with me and the 
new Secretaries of Education and of Commerce to help communities 
identify and create ways to prepare young people for 21st century 
careers?
    What are your thoughts on addressing the education and work 
learning needs of out-of-school youth?
    Would you agree that creating work and learning opportunities for 
disadvantaged teens and young adults should be a top priority for the 
Department and what are your thoughts for addressing this issue?
    Answer 3. I share your concern about the future of our out-of-
school youth and the need to develop effective programs to attach them 
to the labor market and help them succeed over the long-term. As a 
beneficiary of federally funded youth programs myself, I have firsthand 
knowledge of the important role these programs can play in 
transitioning young people into jobs and postsecondary education.
    In my view, a particular focus of the Department's efforts in this 
area should be on drop-out prevention programs that work with at-risk 
youth in middle school to keep them enrolled and learning. For those 
who have already dropped out or may be aging out of foster care, the 
challenge is to re-engage them with alternative learning models 
including community colleges, gateway programs, Job Corps, the Civilian 
Conservation Corps, and YouthBuild. Occupational skills training 
combined with literacy and numeracy training and basic skills training 
are a starting place, but I agree with you that we must also focus on 
developing career pathways that will lead these young people either 
into postsecondary education or directly into jobs that will carry them 
into the middle class. If confirmed, I look forward to working with you 
to develop a comprehensive strategy in this area.
    As a Member of Congress, I too have been particularly concerned 
about making sure we are preparing our workforce for the jobs of the 
future. I am particularly proud in that regard of my authorship of the 
Green Jobs Act of 2007, which is aimed at providing training for 
``green jobs'' in new and emerging industries. If confirmed I would 
welcome the opportunity to work with the Secretaries of Education and 
Commerce as well as this committee to help identify and help prepare 
young people for 21st century careers.

    Question 4. President-elect Obama recently projected that the 
unemployment rate may reach double digits before the economy turns 
around. As the rate rises, the burden on our unemployment and re-
employment services system is increasing as well. Servers used to file 
electronic claims have crashed in some States while others lack the 
resources to provide the type of customized services that workers 
who've lost their jobs often need. Unemployment insurance and re-
employment services helps struggling workers get back on their feet and 
ultimately benefits the larger workforce.
    What are your views on the importance of unemployment insurance and 
re-
employment services? In your view, how can these services help 
dislocated, discouraged, and recently laid off workers gain access to 
the job market during challenging economic times?
    Answer 4. I share your concern over the condition of the Nation's 
unemployment insurance system. With unemployment already above 7 
percent and 2.5 million workers unemployed for longer than 6 months, 
the Nation's unemployment system is being taxed to its limit and there 
is good reason or concern that the problem will get worse before it 
gets better. States need administrative funds to keep their UI offices' 
doors open and to provide re-employment services to growing lines of 
workers. Although no final decisions have been made, I expect the 
President-elect's economic recovery package will extend unemployment 
insurance for the long-term unemployed and help the States with the 
additional resources they need to keep operating this critical program.

    Question 5. I was dismayed to read the Washington Post article 
(December 29, 2008) about OSHA's inaction that resulted in issuing 86 
percent fewer rules or regulations that were categorized as 
``economically significant'' under the Bush administration as compared 
to the Clinton administration. There is much to be done so that workers 
once again can go to work confident that their government and their 
employers have done all they can to provide a safe working environment 
that ensures they return home safely.
    As Secretary of Labor, will you give the necessary weight to 
policies and resources that strengthen safety and health standards for 
America's workers, including miners, and adequately enforce them?
    Answer 5. Yes. Protecting the health and safety of our workers will 
be one of my top priorities, if confirmed as Secretary of Labor. Each 
year thousands of workers are injured on the job and fatalities are 
still too frequent an occurrence. OSHA must engage in effective 
enforcement, compliance assistance and, where necessary, standards 
promulgation to make sure workers are protected. We need to 
significantly speed up the standard setting process. Increasing the 
resources available to OSHA will also be critically important if we are 
to make real progress in this area, and I look forward to working with 
members of this committee and with the Department's appropriators to 
find ways within our budgetary constraints to achieve that end.

    Question 6. State OSHA programs now serve close to half of the 
States in our country (including Washington State). These programs 
extend the reach of OSHA's ability to keep workers safe and healthy on 
the job. But for far too long they have been underfunded due to 
inadequate budget requests from the Department.
    As Secretary of Labor, what will you do to give these State OSHA 
offices the necessary weight and funding they require to fully support 
OSHA's mandate to protect America's workers?
    Answer 6. As a Member of Congress from California, I wholeheartedly 
agree that to make sure workers are adequately protected on the job, we 
also need to assure that the so-called ``State-plan States'' have 
sufficient resources and support with which to carry out their mission. 
I will work with the Administration and Members of Congress to make 
sure the State plans' interests and needs are fully recognized and 
weighed.

    Question 7. Maintaining a high quality of life means more than 
having a good paying job. In today's society, it also means having the 
ability to care for yourself and your family when necessity knocks 
without the fear of losing your job. Both you and I have been long time 
advocates of helping working families balance the demands of work and 
home. But I believe we need to do more. I'm proud to be from a 
progressive State like Washington that's already passed a State law to 
provide some paid leave for workers. Unfortunately, as State's struggle 
to pay for even the basics, the funding mechanism for such State 
programs is falling short.
    As Secretary of Labor, how would you plan to work with Congress to 
expand job-protected leave including paid leave for workers?
    What are your thoughts on supporting States in their efforts to 
provide paid leave for workers?
    Answer 7. The President-elect and I strongly support efforts to 
expand job-
protected leave including paid leave for workers. Today, three-out-of-
four low-wage workers have no paid sick leave. It is fundamentally 
unfair that a single mom playing by the rules can get fired or lose 
wages because her child gets sick. If confirmed, I would work with the 
Administration and Members of Congress to support efforts to guarantee 
workers 7 days of paid sick leave per year.
                       questions of senator brown
    Question 1. Last May, DHL announced a corporate restructuring which 
will result in the loss of more than 8,000 jobs in Wilmington, Ohio--a 
town of 15,000 people. When there is an event of this magnitude caused 
by a layoff or plant closure, the Federal Government does not have a 
coordinated and timely response. In what ways do you think this can be 
improved?
    Answer 1. If confirmed as Secretary of Labor, I would work to make 
sure that my National Emergency Grant authority is used to deploy 
resources rapidly and effectively in just such situations. Working with 
the States, I would seek to ensure that Rapid Response teams are on the 
ground before or as soon as WARN notice is triggered, prepared to 
provide job search information and re-employment services to all 
affected workers. I know this is a program with which your State, 
unfortunately, has had considerable experience, and if confirmed, I 
would hope you would be able to share further with me both your own 
views and those of local and State officials in your State as to what 
needs to be done to make the Federal Government more effective in its 
response to mass layoffs.

    Question 2. In calculating the amount of funding required to 
provide essential services to laid off workers in a National Emergency 
Grant, the Labor Department recognizes WARN notices in determining the 
number of workers in need. As you are aware, the WARN Act does not 
cover the majority of workers affected by layoffs and plant closures. 
In what ways do you think the Labor Department can make better use of 
the WARN Act as a tool in averting layoffs and providing training and 
other services to workers in transition?
    Answer 2. I share your concern about the scope of WARN 
notifications. As you know, the President-elect was a co-sponsor of 
your FOREWARN Act. If confirmed, and particularly in this time of 
rising unemployment and spreading job loss, I hope to have the 
opportunity to work with you to explore a variety of ways in which we 
might strengthen WARN enforcement and reform the way in which the Labor 
Department uses WARN notices as part of its response to layoffs of 
large numbers of workers. In particular, if confirmed, I would explore 
using my National Emergency Grant authority more broadly to help all 
permanently unemployed workers, not just those affected by mass layoffs 
covered by WARN.
                                 ______
                                 
                           Letters of Support
American Federation of State, County and Municipal 
                                Employees (AFSCME),
                                 Washington, DC 20036-5687,
                                                 February 12, 2009.

    Dear Senator: On behalf of the 1.6 million members of the American 
Federation of State, County and Municipal Employees, I strongly urge 
you to confirm Representative Hilda Solis as Secretary of Labor.
    In these trying economic times, we need a Secretary of Labor who 
understands the struggles middle-class families face and has the know-
how to implement solutions. Representative Solis is an ideal choice. 
She is a champion for workers rights and has dedicated her career to 
improving the lives of working families.
    Representative Solis will restore fairness in the Department of 
Labor. Once confirmed, we firmly believe she will immediately turn her 
attention to protecting workers, enforcing labor laws, and addressing 
the challenges of a sagging national economy.
    AFSCME urges you to support Hilda Solis and confirm her as our 
country's next Secretary of Labor.
            Sincerely,
                                       Charles M. Loveless,
                                           Director of Legislation.
                                 ______
                                 
      American Federation of Labor and Congress of 
                          Industrial Organizations,
                                      Washington, DC 20006,
                                                  January 29, 2009.
Hon. Edward M. Kennedy,
Senate Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Kennedy: On behalf of the AFL-CIO, I am writing to 
urge your support for the swift confirmation of Representative Hilda 
Solis as President Obama's Secretary of Labor.
    The core mission of the Department of Labor is to defend the basic 
rights of workers in our Nation's workplaces, and the essential 
qualification of any Secretary of Labor is a demonstrated commitment to 
that core mission.
    Representative Solis has demonstrated her commitment to defending 
the basic rights of workers throughout her career in public service, 
including the right to choose whether to form a union without employer 
interference. During her 15 years in the California State legislature 
and the U.S. House of Representatives, she has proven to be a 
passionate leader and advocate for all working families.
    At her confirmation hearing on January 9, Representative Solis 
pointed to four areas where the Labor Department would focus its 
efforts under her leadership: improving skills development and job 
creation programs, including development of ``green collar'' jobs; 
assuring that workers get the pay they have earned working in safe, 
healthy, and fair workplaces; addressing the retirement security 
crisis; and protecting every worker from job discrimination, regardless 
of race, sex, veteran status, or disability. These should be the 
priorities of a Secretary of Labor under this or any other 
administration.
    There can be no question that Hilda Solis is abundantly qualified 
to be Secretary of Labor, and there is no excuse for any further delay 
in the vote to confirm her. The challenges facing working families in 
these difficult times are too great for the Senate to deprive the Labor 
Department of leadership any longer.
    Representative Solis is a superb choice to be Secretary of Labor. 
She will bring energy, experience, and dedication to help lead working 
families back to prosperity. We urge your support for her swift 
confirmation because her leadership is urgently needed.
            Sincerely,
                                           John J. Sweeney,
                                                         President.
                                 ______
                                 
             American Federation of Teachers (AFT),
                                      Washington, DC 20001,
                                                   January 8, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Kennedy: On behalf of the more than 1.4 million 
members of the American Federation of Teachers (AFT), I urge you to 
support the nomination of U.S. Representative Hilda Solis (D-Calif.) 
for Secretary of Labor.
    The law establishing the Department of Labor states that the 
Department's main purpose is ``to foster, promote and develop the 
welfare of working people, to improve their working conditions, and to 
advance their opportunities for profitable employment.'' The Department 
of Labor represents the men and women who are the engines of our 
economy; as Secretary of Labor, Representative Solis will be their 
voice and their champion.
    Representative Solis' career in public service has been dedicated 
to advancing issues that improve the lives of working men and women and 
their families. As a member of the California Legislature, she led the 
battle to increase the State's minimum wage from $4.25 to $5.75 an 
hour. In 2000, she became the first woman to receive the John F. 
Kennedy Profile in Courage Award for her pioneering work on 
environmental justice issues in California.
    As a member of the U.S. House of Representatives, Representative 
Solis has been a steadfast supporter of policies and programs designed 
to promote opportunity and level the playing field, from public 
education to the right to form a union.
    Representative Solis further distinguished herself when she co-
authored the Green Jobs Act--a bill that was adopted as part of the 
Energy Independence and Security Act of 2007. The Green Jobs Act 
authorized $125 million for workforce training programs targeted to 
veterans, displaced workers, at-risk youth and individuals living in 
poverty. Her focus on providing people with the opportunity to improve 
their skills in emerging sectors like green jobs has provided an 
important bridge for those seeking secure, meaningful employment.
    We have great confidence that Representative Solis, as Secretary of 
Labor, will continue to be a strong and necessary ally of workers. She 
will be an important part of President-elect Obama's efforts to promote 
policies that prepare individuals to be productive members of the 21st-
century workforce.
    We look forward to working with Representative Solis as she carries 
out the Labor Department's responsibility to protect and support 
workers, and to assure basic health and safety workplace protections. 
The AFT urges you to favorably report her nomination.
            Sincerely,
                                          Randi Weingarten,
                                                         President.
                                 ______
                                 
    Association of Farmworker Opportunity Programs 
                                            (AFOP),
                                      Washington, DC 20036.
                                                  January 15, 2009.
Hon. Edward M. Kennedy, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
Room 428, Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Senator Kennedy:  I am writing today in support of President-
elect Barack Obama's nomination of Representative Hilda Solis as 
Secretary of the Department of Labor.
    Representative Solis has a long and rich history of support for the 
issues that are vital to the progress of working Americans, especially 
low-wage workers. Our organization, the Association of Farmworker 
Opportunity Programs, represents all the nonprofit and public agencies 
that provide job training and other vital services to America's migrant 
and seasonal farmworkers. Our efforts have been highly successful, 
despite the active opposition to the funding for the program by the 
Bush administration and current Labor Secretary Elaine Chao. That 
opposition has not prevented our members from producing outstanding 
results as measured by Department performance standards these past 7 
years.
    However, it has stopped growth of this highly successful and 
important program. While during the Bush administration's tenure we 
helped over 44,000 very low-wage farmworkers get good, steady jobs with 
benefits, we could have lifted double that number out of poverty had 
the Secretary of Labor understood the needs of farmworkers and other 
low-wage workers. I know that Representative Solis does have a deep 
understanding of farmworkers and knows the struggles experienced by 
working families. Her own family's story is a compelling one, plus her 
years of experience representing people in California give her a strong 
grounding in this area. Although she represents a part of Los Angeles, 
she has learned a lot about farm labor from our California members and 
her work with other farmworker advocacy groups.
    We believe she is the right person to lead the Department into the 
next era, a period when that agency will once again champion the needs 
of working Americans. I'm confident that she will support a system of 
federally funded workforce development that will capture the best of 
the current system while providing leadership in new areas, 
particularly green jobs and alternative energy workforce development. 
We know that she will not leave low-wage workers behind, but will be a 
champion for their success.
    In sum, the Association of Farmworker Opportunity Programs 
wholeheartedly endorses the candidacy of Representative Hilda Solis to 
be the next Secretary of Labor. I hope your committee will vote 
favorably on her candidacy, and that the full Senate will follow your 
committee's lead.
            Sincerely,
                                          David A. Strauss,
                                                Executive Director.
                                 ______
                                 
            American GI Forum of the United States,
                                      Washington, DC 20005,
                                                   January 7, 2009.
Hon. Edward Kennedy, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Kennedy: As National Commander of the American GI 
Forum (AGIF), a Congressional Charted Veterans Organization that has 
served the needs of Hispanic veterans since 1948, I strongly support 
the nomination and confirmation of Congresswoman Hilda Solis, to be the 
next Secretary of Labor in the administration of President-elect Barack 
Obama.
    We see this appointment as truly a historic opportunity for this 
Nation to acknowledge the talent and ability of the Hispanic Community 
to serve our country. Congresswoman Solis has consistently been at the 
forefront of the issues that impact Latinos and all Americans.
    Her support and advocacy in fighting to reduce poverty, increase 
economic opportunities, reduce health care disparities as well as 
promoting humane immigration reform, has guided our country to a more 
secure and sustainable future.
    Congresswoman Hilda Solis has the experience needed to ensure that 
both America's working families and businesses will prosper. She has 
been consistent in demonstrated sound judgment in her efforts to work 
on national economic priorities, the needs of business, and the needs 
of workers.
    The selection of Congresswoman Hilda Soils supports the change that 
President-elect Barack Obama has promised. The President-elect honors 
the Latino community and this country with this outstanding 
appointment.
    AGIF supports the nomination of Congresswoman Solis as the next 
Secretary of Labor and looks forward to your committee and the U.S. 
Senate confirmation of this remarkable candidate.
            Sincerely,
                                       Antonio Gil Morales,
                                                National Commander.
                                 ______
                                 
           California School Employees Association,
                                      Sacramento, CA 95814,
                                                  January 21, 2009.
Hon. Edward M. Kennedy, Chairman,
U.S Senate,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

Re:  Confirmation of Congresswoman Hilda L. Solis for the Office of the 
United States Secretary of Labor

    Dear Chairman Kennedy: The California School Employees Association, 
AFL-CIO is writing this letter to express our strong support for the 
confirmation of Congresswoman Hilda L. Solis as the U.S. Secretary of 
Labor.
    Throughout her career, Representative Hilda Solis has demonstrated 
a strong commitment to working families across the Nation. While she 
served in the California State Legislature, Solis fought to increase 
the minimum wage from a meager $4.25 an hour to $5.75 an hour. She also 
made sure that victims of domestic violence, who lost their jobs as a 
result of the abuse they suffered, could apply for unemployment 
benefits. When textile workers were being enslaved and forced to work 
in a sweatshop in her district, Solis worked tirelessly to correct this 
injustice and held oversight hearings and raised public awareness of 
this issue so that these types of crimes could be prevented in the 
future.
    These are just a few examples of the important work Hilda Solis has 
done to improve the quality of life for all working families and it 
demonstrates that no issue is too small or too big for her to fight to 
protect our Nation's workers, if it is the right and just thing to do. 
With this type of leadership, it is no surprise to us that she was also 
awarded the Profiles in Courage award by the President John F. Kennedy 
Library Foundation.
    We therefore, urge your ``AYE'' vote on confirmation of Hilda L. 
Solis as Secretary of Labor.
            Sincerely.
                                                  Dave Low,
                                                Assistant Director.
                                 ______
                                 
                                     Change to Win,
                                            Washington, DC,
                                                   January 8, 2009.
Hon. Edward Kennedy, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
644 Senate Dirksen Office Building,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
835 Senate Hart Office Building,
Washington, DC 20510.

    Dear Chairman Kennedy and Ranking Member Enzi:  The seven 
affiliated labor unions and more than 6 million members of Change to 
Win write to express our strongest support for the nomination of 
Representative Hilda Solis to the position of U.S. Secretary of Labor, 
and urge your swift vote for her confirmation.
    Throughout her career of public service, Representative Solis has 
stood up for workers and their families. She has defended workers' 
rights to come together for a voice on the job, fought for increases in 
the minimum wage and a decent standard of living for all, worked to 
expand access to affordable health care and a secure retirement, and 
been a leading voice for equal opportunity. She has also been a leading 
advocate in the Congress for job creation and improving opportunities 
for job training, particularly in underserved communities, by investing 
in ``green'' jobs to develop and deploy renewable energy. Finally, 
Representative Solis has been an outspoken advocate for addressing the 
challenges workers face in a global economy, including fighting for 
comprehensive immigration reform and humane treatment for immigrant 
workers, and replacing our failed free trade model with a new fair 
trade model that makes the preservation of American jobs and strong 
labor protections for all workers its centerpiece.
    Representative Solis has a deep commitment to rebuilding the middle 
class and renewing the American Dream for America's working families, 
because she has lived that dream. She credits the fact that her parents 
were union members with giving them the ability to send her to college. 
Representative Solis has committed herself to upholding the Nation's 
labor laws--ensuring that workers who want a voice on the job have a 
fair chance of getting one, that they have a safe place to work, and 
that they receive the pay they have earned.
    Change to Win urges you to vote for Secretary-Designate Solis' 
confirmation as our country's Secretary of Labor.
            Sincerely,
    Anna Burger, Chair, Change to Win, International Secretary-
Treasurer, Service Employees International Union (SEIU); Edgar Romney, 
Secretary-Treasurer, Change to Win, Executive Vice President, UNITE 
HERE; Joseph Hansen, International President, United Food and 
Commercial Workers International Union (UFCW); James Hoffa, General 
President, International Brotherhood of Teamsters (IBT); Geralyn Lutty, 
International Vice President, United Food and Commercial Workers 
International Union (UFCW); Douglas J. McCarron, General President, 
United Brotherhood of Carpenters and Joiners of America (UBC); Terence 
M. O'Sullivan, General President, Laborer's International Union of 
North America (LIUNA); Bruce Raynor, General President, UNITE HERE; 
Arturo S. Rodriguez, President, United Farm Workers (UFW); Andrew L. 
Stern, International President, Service Employees International Union 
(SEIU).
                                 ______
                                 
                            City of South El Monte,
                                  South El Monte, CA 91733,
                                                 February 12, 2009.
Hon. Edward Kennedy, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
644 Senate Dirksen Office Building,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
835 Senate Hart Office Building,
Washington, DC 20510.

    Dear Chairman Kennedy and Ranking Member Enzi:  The City Council of 
the city of South El Monte write to express our strongest support for 
the nomination of Representative Hilda Solis to the position of U.S. 
Secretary of Labor, and urge your swift vote for her confirmation.
    Throughout her career of public service, Representative Solis has 
stood up for workers and their families. She has defended workers' 
rights to come together for a voice on the job, fought for increases in 
the minimum wage and a decent standard of living for all, worked to 
expand access to affordable health care and a secure retirement, and 
been a leading voice for equal opportunity. She has also been a leading 
advocate in the Congress for job creation and improving opportunities 
for job training, particularly in underserved communities, by investing 
in ``green'' jobs to develop and deploy renewable energy. Finally, 
Representative Solis has been an outspoken advocate for addressing the 
challenges workers face in a global economy, including fighting for 
comprehensive immigration reform and humane treatment for immigrant 
workers, and replacing our failed free trade model with a new fair 
trade model that makes the preservation of American jobs and strong 
labor protections for all workers its centerpiece.
    Representative Solis has a deep commitment to rebuilding and 
renewing the middle class. The city of South El Monte urges you to vote 
for Secretary-Designate Solis' confirmation as our country's Secretary 
of Labor.

    Blanca M. Figueroa, Mayor; Louie Aguinaga, Mayor Pro Tem; Hector 
Delgado, Councilmember; Angelica R. Garcia, Councilwoman; Joseph J. 
Gonzales, Councilmember.
                                 ______
                                 
                     Congress of the United States,
                          House of Representatives,
                                      Washington, DC 20515,
                                                   January 8, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

Hon. Michael B. Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Kennedy and Ranking Member Enzi: First and foremost, 
thank you Chairman Kennedy for your continued leadership as the Chair 
of the Senate Committee on Health, Education, Labor, and Pensions. I 
also thank you, Ranking Member Enzi, for your leadership on the 
committee.
    I am honored to submit this letter of support on behalf of my 
colleague, 
Representative Hilda Solis, on her appointment by President-elect 
Barack Obama to be the next Secretary of Labor. Representative Solis' 
selection is an appointment that I know is well deserved. I am 
confident that Representative Solis possesses the acumen, judgment, and 
experience to be an excellent Secretary of Labor.
    Representative Solis is an exceptional candidate for the position 
of Secretary of Labor because she is fair, balanced, and has done great 
work in Congress on labor, immigration, health, and environmental 
issues. She will be an asset and an advocate for all Americans. Ms. 
Solis will be an exceptional Secretary of Labor because she has 
championed the rights of labor and the poor in this country.
    Furthermore, we have worked collaboratively on important issues 
affecting our Nation and affecting our Nation's middle class. 
Congresswoman Solis is a strong advocate for protecting the American 
worker and increasing funds for job training programs such as H.R. 
2847, the Green Jobs Act of 2007, which I was happy to support. We also 
both supported the development of a fair and thoughtful immigration 
policy that respects the American worker. Representative Solis was also 
a leader in the Women's Caucus who advocated for improving the working 
conditions and workplace safety standards of women, which I supported.
                        early life and education
    Representative Solis' background is emblematic of the American 
dream and makes her appointment all the more compelling. She was born 
in California to immigrant parents from Nicaragua and Mexico. She 
obtained degrees from California State Polytechnic University, Pomona, 
and the University of Southern California and worked for the Federal 
Government in Washington, DC. She was the first person from her family 
to attend college.
                         early political career
    Ms. Solis began her political career in the early 1990s. In 1992, 
she was elected to the California State Assembly and to the California 
State Senate in 1994. She became known for her work on environmental 
justice and was the recipient of the John F. Kennedy Profile in Courage 
Award in 2000. She was the first woman to win that award and appeared 
in George and People magazines and appeared on the Today Show. In that 
same year, she won her first election to the U.S. House of 
Representatives.
      her tenure as a member of the u.s. house of representatives
    Representative Solis enjoyed a distinguished career of public 
service and excellence. Her record in the U.S. House of Representative 
speaks for itself as she has been a prolific law maker. Representative 
Solis has advocated on a wide range of issues including the rights of 
workers, environmental justice, education, public health, and 
immigration reform.
       important legislative initiatives from the 110th congress
    In the 110th Congress, Representative Solis introduced and passed a 
number of progressive and forward-thinking pieces of legislation, among 
those were the following:

    <bullet> H.R. 2847, Green Jobs Act of 2007, which amends the 
Workforce Investment Act of 1998 to direct the Secretary of Labor 
(Secretary) to: (1) establish an energy efficiency and renewable energy 
worker training program that targets certain persons (including 
individuals in need of updated training related to the energy 
efficiency and renewable energy industries, veterans, unemployed 
workers, and at-risk youth) and sectors of the energy efficiency and 
renewable energy industries; and (2) establish a national research 
program to collect and analyze labor market data to track workforce 
trends resulting from energy-related initiatives under this act.
    <bullet> H.R. 359, the Cesar Estrada Chavez Study Act, directing 
the Secretary of the Interior to complete a special resource study to 
determine: (1) appropriate methods for preserving and interpreting 
certain sites in Arizona, California, and other States that are 
significant to the life of Cesar Estrada Chavez and the farm labor 
movement in the western United States; and (2) whether any of the sites 
meets the criteria for listing on the National Register of Historic 
Places or designation as a national historic landmark;
    <bullet> H. Res. 642, Expressing sympathy to and support for the 
people and governments of the countries of Central America, the 
Caribbean, and Mexico which have suffered from Hurricanes Felix, Dean, 
and Henriette and whose complete economic fatality toll are still 
unknown; and,
    <bullet> H. Res. 100, Expressing the sympathy of the House of 
Representatives to the families of women and girls murdered in 
Guatemala and encouraging the Government of Guatemala to bring an end 
to these crimes.
    All of these important pieces of legislation was introduced and 
passed in the 110th Congress.
        her qualifications in the u.s. house of representatives
    She served on the Committee on Energy and Commerce. She is the Vice 
Chair of the Subcommittees on the Environment and Hazardous Materials. 
She also serves on the Subcommittees on Health, as well as the 
Subcommittee on Telecommunications and the Internet. Additionally, she 
serves on the Select Committee on Energy Independence and Global 
Warming and on the House Committee on Natural Resources. Representative 
Solis was a member of the Congressional Progressive Caucus where she 
served on the Immigration, Anti-Poverty, Education, and Environment 
Taskforces.
       her u.s. house of representative leadership qualifications
    Representative Solis also held a number of high-level leadership 
positions in the U.S. House of Representatives. She was the Vice Chair 
to the Democratic Steering and Policy Committee and a member of the 
Congressional Hispanic Caucus, where she was 2d Vice Chair-elect for 
the 111th Congress and was Chair of the Health and the Environment Task 
Force.
    Representative Solis' record speaks for itself. I recommend her to 
this Senate Committee for confirmation without reservation. She has 
worked for the poor, labor rights, environmental justice and 
immigration reform. She has championed the causes of her constituents 
and the American public during her five terms in the U.S. House of 
Representatives and throughout her life. I am pleased to submit this 
letter of support for Representative Solis in her selection by 
President-elect Obama to serve as the next Secretary of Labor.
            Very truly yours,
                                        Sheila Jackson Lee,
                                                Member of Congress.
                                 ______
                                 
                     Congress of the United States,
                                      Washington, DC 20515,
                                                   January 8, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC, 20510.

Hon. Michael B. Enzi, Ranking Member,
Committee on Health, Education Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC, 20510.

    Dear Chairman Kennedy and Ranking Member Enzi: We write to express 
our support for the nomination of our colleague, Congresswoman Hilda L. 
Solis, to be the next Secretary of Labor in the incoming administration 
of President-elect Obama.
    Throughout her life as a public servant, Congresswoman Solis has 
consistently demonstrated her commitment to improve the quality of life 
of working men and women throughout our Nation, and we strongly believe 
that she would make an excellent Secretary of Labor.
    In Congress she has led the effort to green and modernize our 
workforce to compete in the global economy and she successfully 
authored and passed The Green Jobs Act of 2007, which will help create 
3 million new jobs over the next decade. She has also championed 
efforts to eliminate racial and ethnic health disparities and create 
and sustain a healthy workforce.
    As a California State Senator, she distinguished herself on issues 
of environmental justice, fought to improve working conditions for 
workers, and played an instrumental role in raising the State's minimum 
wage.
    Her dedicated service to working families throughout the United 
States makes Congresswoman Hilda Solis an excellent choice to be our 
next Secretary of Labor. We appreciate the committee's swift 
consideration of her nomination, and we urge you to favorably recommend 
her appointment to the full Senate.
            Sincerely,

    Barbara Lee, Chairwoman, CBC; Emanuel Cleaver, 1st Vice Chairman, 
CBC; Donna Christensen, 2d Vice Chairwoman, CBC; G.K. Butterfield, 
Secretary, CBC; Yvette D. Clarke, Whip, CBC; John Lewis, CBC Labor 
Taskforce.
                                 ______
                                 
                     Congress of the United States,
                                      Washington, DC 20515,
                                                  January 12, 2009.
Hon. Edward M. Kennedy, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510.
Hon. Michael B. Enzi, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510.

    Dear Senators Kennedy and Enzi: On behalf of the Congressional 
Hispanic Caucus (CHC), we write to enthusiastically support 
Congresswoman Hilda L. Solis for Secretary of Labor. Her nomination is 
a culmination of her life's work in advocating for the working class 
and fighting for workplace protections.
    Hilda L. Solis has been a leader on many issues, particularly 
labor, healthcare, and the environment. A recent achievement of hers 
came a little over a year ago when her legislation, The Green Jobs Act 
of 2007, was signed into law as part of the 2007 Omnibus package. 
Through the investment in renewable energy outlined in her legislation, 
3 million new jobs will be created over the next decade and $125 
million will be invested in workforce training targeted to veterans, 
displaced workers, at-risk youth, and individuals under 200 percent of 
the Federal poverty line.
    As a California State Senator, she was on the frontlines in the 
fight to secure a living wage, raising the State's minimum wage from 
$4.25 to $5.75. She was a trail-blazer in the area of environmental 
justice, redefining the way low income and minority communities were 
assessed as potential locations for waste disposal and other polluting 
facilities. She authored legislation that sought to protect and improve 
working conditions and rights for farmworkers, garment workers, the 
construction industry, janitors, State and local employees, and many 
others.
    Within our Caucus, she has served as Chair of the Health and the 
Environment Task Force in the 110th Congress. Upon your confirmation of 
her appointment, you will take away one of our leaders for this 
Congress, as she had been elected to serve as the 2nd Vice Chair of the 
CHC. Her leadership on healthcare disparities within the TriCaucus, the 
coalition of the CHC, Congressional Black Caucus, and the Congressional 
Asian Pacific American Caucus, will certainly be missed.
    We urge you to confirm Hilda L. Solis for Secretary of Labor. She 
will undoubtedly bring a new energy to the department, and will 
represent hard working Americans across the Nation.
            Sincerely,
                                           Nydia Velazquez,
                              Chair, Congressional Hispanic Caucus.

                                       Charles A. Gonzalez,
                           Chair, CHC Ad Hoc Nominations Committee.
                                 ______
                                 
                     Congress of the United States,
                                      Washington, DC 20515,
                                                  February 5, 2009.

    Dear Senator: On behalf of the Congressional Hispanic Caucus (CHC), 
we write to enthusiastically support Congresswoman Hilda L. Solis for 
Secretary of Labor. Her nomination is a culmination of her life's work 
in advocating for the working class and fighting for workplace 
protections. We urge the Senate to immediately confirm her nomination 
so that she can begin to work on our Nation's vital labor issues.
    Hilda L. Solis has been a leader on many issues, particularly 
labor, healthcare, and the environment. A recent achievement of hers 
came a little over a year ago when her legislation, The Green Jobs Act 
of 2007, was signed into law as part of the 2007 Omnibus package. 
Through the investment in renewable energy, outlined in her 
legislation, 3 million new jobs will be created over the next decade 
and $125 million will be invested in workforce training targeted to 
veterans, displaced workers, at-risk youth, and individuals under 200 
percent of the Federal poverty line.
    As a California State Senator, she was on the frontlines in the 
fight to secure a living wage, raising the State's minimum wage from 
$4.25 to $5.75. She was a trailblazer in the area of environmental 
justice, redefining the way low income and minority communities were 
assessed as potential locations for waste disposal and other polluting 
facilities. She authored legislation that sought to protect and improve 
working conditions and rights for farm workers, garment workers, the 
construction industry, janitors, State and local employees, and many 
others.
    Within our Caucus, she has served as Chair of the Health and the 
Environment Task Force in the 110th Congress. Upon your confirmation of 
her appointment, you will take away one of our leaders for this 
Congress, as she had been elected to serve as the 2d Vice Chair of the 
CHC. Her leadership on healthcare disparities within the TriCaucus, the 
coalition of the CHC, Congressional Black Caucus, and the Congressional 
Asian Pacific American Caucus, will certainly be missed.
    We urge you to immediately confirm Hilda L. Solis for Secretary of 
Labor. Her confirmation hearing failed to show any reason why her 
nomination should be delayed any further. It is time for her to be able 
to get to work and bring a new energy to the Department that represents 
hard working Americans all across the Nation.
            Sincerely,
                                           Nydia Velazquez,
                              Chair, Congressional Hispanic Caucus.
                                 ______
                                 
         U.S. Hispanic Chamber of Commerce (USHCC),
                                      Washington, DC 20037,
                                                  January 30, 2009.
Hon. Edward Kennedy, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
644 Senate Dirksen Office Building,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
835 Senate Hart Office Building,
Washington, DC 20510.

    Dear Chairman Kennedy and Ranking Member Enzi: On behalf of the 
U.S. Hispanic Chamber of Commerce (USHCC), the largest and most 
influential national advocate for Hispanic business in the United 
States, representing almost 3 million U.S. Hispanic-owned businesses, I 
am writing to express our resounding support of the nomination of Rep. 
Hilda Solis as U.S. Secretary of Labor, and urge the committee to 
support her swift confirmation.
    In her four terms in the House of Representatives, Congresswoman 
Solis has proven herself overwhelmingly qualified to lead the 
Department of Labor and furthering the Department's mission of 
promoting and protecting the welfare of the job seekers, wage earners, 
and retirees and advancing their opportunities for profitable and 
sustainable employment. As Vice-chair of the Environment and Hazardous 
Materials Subcommittee, where she was the Ranking Democratic Member for 
4 years, member of the House Committee on Energy and Commerce and 
former member of the House Education and Labor Committee, Hilda Solis 
has established herself as a leader and a problem-solver on issues of 
critical importance. In her term as Chairwoman of the Congressional 
Hispanic Caucus Task Force on Health and the Environment, she has been 
instrumental in creating the movement towards a ``green collar'' 
workforce and has continuously demonstrated her ability to create long-
lasting economic and educational opportunities for Hispanics in the 
workforce and Hispanic-owned businesses.
    In this difficult economic climate, the policies set forth by the 
U.S. Department of Labor will play a critical role in ensuring that our 
Nation's workforce is able to compete in today's global economy. The 
expertise and commitment of Hilda Solis is needed to direct the 
Department of Labor in the coming years in its increasingly important 
role. It is for these reasons that I urge you to support the immediate 
confirmation of Hilda Solis as Secretary of Labor.
            Respectfully yours,
                                        Augustine Martinez,
                                                   President & CEO.
                                 ______
                                 
                               Hispanic Federation,
                                          January 13, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.
Hon. Michael B. Enzi, Ranking Minority Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senators Kennedy and Enzi: The Hispanic Federation and its 
member network of over 90 organizations wishes to support the 
confirmation of Congresswoman Hilda Solis as Secretary of Labor in the 
administration of President-elect Barack Obama. Established in 1990, 
the Hispanic Federation is a service-oriented membership organization 
that works with Latino health and human services agencies to promote 
the social, political and economic well-being of the Latino community. 
The Federation's member agencies work in the areas of education, 
health, elderly services, child care, HIV/AIDS, housing, immigrant 
services, arts and culture, and economic development. Each year, these 
agencies serve millions of the country's most underprivileged and 
vulnerable Latinos.
    Throughout the Federation's work, Secretary-designate Solis has 
been an exemplary advocate for the Hispanic community and an 
enthusiastic supporter of programs that pave a path of opportunity for 
families that seek to lift themselves up from poverty and hardship. Her 
work on behalf of the underprivileged spans a number of critical areas; 
whether it is fighting to reduce poverty, increase economic 
opportunities, reduce health care disparities, promote fair and humane 
immigration reform, improving the environment and building awareness of 
the need for sustainable energy sources, Congresswoman Solis has proven 
her leadership skills and tenacity to take on difficult challenges.
    Particularly noteworthy is Congresswoman Solis's legislative 
efforts to create equitable and accessible healthcare for the working 
poor, families with children, single mothers and women in general. 
Inadequate access to quality healthcare is a major obstacle for working 
class families that limit their ability to make significant strides in 
their own economic development. With her experience and foresight, 
Congresswoman Solis will make important contributions to the charge of 
the Department of Labor to develop and promote the welfare of recruits, 
workers, and retirees by improving working conditions, advancing 
opportunities for profitable employment, protecting healthcare 
benefits.
    Moreover, she will reassure employers from small business owners to 
the multi-national corporations that make up our economy that the 
American worker remains the most productive and valuable assets in 
their business portfolio. She is an exceptional woman of proven talent 
and we are confident that she will project her can-do attitude 
throughout the Department of Labor and Federal administration.
    The Hispanic Federation confidently supports Secretary-designate 
Solis and encourages her speedy confirmation to the cabinet of 
President-elect Barack Obama.
            Sincerely,
                                   Lillian Rodriguez-Lopez,
                                                         President.
                                 ______
                                 
  Hispanas Organized for Political Equality (HOPE),
                                     Los Angeles, CA 90014,
                                                   January 8, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Kennedy: On behalf of Hispanas Organized for Political 
Equality (HOPE), a nonprofit, nonpartisan organization committed to 
ensuring political and economic parity for Latinas, it is our pleasure 
to submit this letter of support for Congresswoman Hilda Solis to serve 
as U.S. Secretary of Labor under the President-elect Barack Obama.
    Congresswoman Hilda Solis' appointment would make her the first 
Latina to hold a permanent cabinet-level position and would make her 
the highest-ranking Latina in the Obama administration. Her nomination 
to serve as Labor Secretary is a true testament to her long-standing 
commitment to ensuring that the interests of working families are 
protected. Solis understands that every American in our Nation's 
diverse workforce plays a critical role in ensuring the economic 
prosperity of our Nation. Solis is committed to reinvesting in 
workforce training for high-growth industries, strengthening labor 
unions, and developing effective pipelines to provide at-risk youth and 
underserved communities with sustainable skills so that we may be a 
competitive workforce in the global economy.
    Congresswoman Solis is an advocate for women's issues and has 
worked alongside HOPE, since she was elected the first Latina to serve 
in the California State Senate. She has served as one of the founders 
of HOPE's Latina Action Day conference in Sacramento, where hundreds of 
Latinas across the State gather to advocate on issues important to 
their families and communities. Solis has also served as a champion and 
advocate for Latinas and all women by working with HOPE on teen 
pregnancy prevention legislation in Washington, DC.
    As an organization advocating for the over 6 million Latinas living 
and working in California, we support the nomination of Hilda Solis as 
Labor Secretary of the United States. HOPE is a nonprofit, nonpartisan 
organization committed to ensuring political and economic parity for 
Latinas through leadership, advocacy, and education to benefit all 
communities and the status of women.
            Sincerely,
                                              Elmy Bermejo,
                                                       Board Chair.

                                              Helen Torres,
                                        Executive Director and CEO.
                                 ______
                                 
International Union of Police Associations AFL-CIO,
                                 Alexandria, VA 22314-2643,
                                                   January 6, 2009.
Hon. Edward M. Kennedy, Chairman,
Hon. Michael R. Enzi, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senators Kennedy and Enzi: On behalf of the International 
Union of Police Associations, AFL-CIO, I am proud to endorse the 
appointment of Representative Hilda L. Solis to the position of the 
Secretary of Labor. As you know, the I.U.P.A. is the only union 
specifically chartered to represent active duty, rank and file law 
enforcement professionals across the Nation as well as in Puerto Rico 
and the Virgin Islands.
    Mrs. Solis has a long and well-documented history of public 
service, both in California and representing that great State in the 
House of Representatives. Mrs. Solis came from a working family and has 
never forgotten their struggles to provide for their children. She 
worked her way through college and when serving in the California 
Legislature, brought her early experiences with her. She was 
consistently a champion of working families and the men and women who 
provide the public safety.
    I had the honor of working for the Los Angeles County Sheriff 's 
Department for 32 years. During that time, I worked at the East Los 
Angeles Station. Hilda Solis was well thought of by the community, the 
community leaders and the law enforcement family.
    She is an excellent choice to lead the Department of Labor during 
these challenging times. I urge you and the other honorable members of 
the Senate Committee on Health, Education, Labor, and Pensions to 
confirm her to be the next Secretary of Labor.
            Very Respectfully,
                                            Dennis Slocumb,
                                      International Vice President.
                                 ______
                                 
       United Automobile, Aerospace & Agricultural 
                Implement Workers of America (UAW),
                                         February 23, 2009.

    Dear Senator: This week the Senate is expected to consider the 
nomination of Representative Hilda Solis to be Secretary of Labor. The 
UAW urges you to vote for cloture and to vote to confirm this 
outstanding nominee.
    The Department of Labor is the premier Federal agency charged with 
enforcing workplace laws, defending worker rights, and promoting job 
creation and worker training. In our current economic crisis, the 
effective administration of these tasks is more critical than ever.
    The fundamental qualification for a Secretary of Labor is a proven 
commitment to the basic rights of workers, and Representative Solis 
fully meets this qualification. She has demonstrated her commitment as 
an advocate for working families throughout her 15-year career as a 
California State legislator and as a member of the House of 
Representatives.
    At her January 9 confirmation hearing, Representative Solis cited 
the four areas on which she will focus as Secretary of Labor: improving 
skills development and job creation programs, including development of 
``green collar'' jobs; assuring that workers are paid what they have 
earned and work in safe and healthy workplaces; addressing the 
retirement security crisis; and protecting workers from job 
discrimination, regardless of race, sex, veteran status, or disability.
    Hilda Solis is a highly qualified candidate to head the Department 
of Labor. She brings energy, experience and passion to the task of 
helping Americans get back to work and restoring stability and 
prosperity to our Nation's economy. We urge you to support her 
confirmation so that she may begin providing leadership to the 
Department of Labor.
            Sincerely,
                                              Alan Reuther,
                                              Legislative Director.
                                 ______
                                 
      Labor Council for Latin American Advancement 
                                           (LCLAA),
                                      Washington, DC 20006,
                                                  February 4, 2009.
Hon. Edward M. Kennedy, Chairman,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

Hon. Michael B. Enzi, Ranking Member,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Kennedy and Ranking Member Enzi: For over 35 years, 
the Labor Council for Latin American Advancement (LCLAA) has advocated 
for the interests of Latino working families throughout the United 
States and the Commonwealth of Puerto Rico. On behalf of the 1.8 
million Latino trade unionists that we represent from both the AFL-CIO 
& Change to Win Federation, we urge you to confirm Hilda Solis as 
Secretary of Labor.
    We are facing a deepening crisis that economists predict may be 
worse than the Great Depression. The combination of record-high 
unemployment levels and the latest GDP numbers indicate that the last 
quarter of 2008 was the worst in 26 years. The writing is on the wall--
America's working families are facing a daunting and continuing 
struggle, as are our Nation's large and small industries. The need for 
a fully functioning Department of Labor as part of the economic 
stimulus is more critical than ever.
    The task ahead is enormous. It is crucial that the Department of 
Labor (DOL) be read to play its role under the direction of an 
individual with a demonstrated commitment to protect America's 
workforce--an individual who will help prepare them for new and better 
jobs, and insure the safety of our workplaces.
    Hilda Solis understands that reshaping our workforce and 
revitalizing industry is essential to the future sustainability of our 
economy.
    Any debate regarding Hilda Solis' confirmation should take into 
account the urgency to tackle the numerous challenges facing our 
Nation's economy and its workers. Hilda Solis' record has made evident 
her capacity to take on such a task and we urge you to let her get to 
work and serve this Nation as its Secretary of Labor.
            In Solidarity,
                                             Milton Rosada,
                                                National President.

                                     Dr. Gabriela D. Lemus,
                                                Executive Director.
                                 ______
                                 
          League of United Latin American Citizens,
                                      Washington, DC 20036,
                                                   January 8, 2009.
Hon. Edward M. Kennedy,
317 Senate Russell Building,
Washington, DC 20510.

    Dear Honorable Senator Kennedy: On behalf of the League of United 
Latin American Citizens (LULAC), the Nation's largest and oldest 
Hispanic organization, I wish to express our strong and enthusiastic 
support of Hilda L. Solis to the post of Secretary of Labor.
    LULAC's mission as an organization is to advance the economic 
condition, educational attainment, political influence, health, housing 
and civil rights for Hispanics in the United States, We believe Mr. 
Daschle will be a strong leader of the Department of Labor, where many 
programs and policies that greatly impact the Hispanic community 
originate. Ms. Solis has displayed a commitment to the ideals embodied 
in our organization's mission throughout her impressive career.
    Hilda Solis has a long and distinguished career as a public 
servant, serving in the California State Assembly as well as the U.S. 
House of Representatives, throughout her life she has been a committed 
advocate for Hispanic Americans, workers across America and the, 
development of an internationally competitive American labor market. We 
all know the enormity of the task at hand, given the challenges facing 
the economy and labor market, and it is a comfort to know that in Hilda 
Solis, we will have a true leader, someone who has a history of 
crafting and implementing sound policies to address these issues.
    Solis' record shows her dedication to the American people and 
reflects a level of excellence that will further enhance your team. As 
National President of LULAC, and on behalf of the Hispanic community we 
urge your confirmation of Hilda Solis as Secretary for the Department 
of Labor.
            Sincerely,
                                              Rosa Rosales,
                                                National President.
                                 ______
                                 
              Los Angeles Area Chamber of Commerce,
                                     Los Angeles, CA 90017,
                                                  January 21, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Michael B. Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Re:  Support--Representative Hilda Solis Nomination for Secretary of 
Labor

    Dear Senators: On behalf of the L.A. Area Chamber of Commerce, I 
write to support consideration of Representative Hilda Solis' 
nomination for Secretary of Labor. We encourage a full and fair 
evaluation of her qualifications by the entire U.S. Senate without 
filibuster.
    As you know, the Department of Labor plays a critical Federal role 
in addressing our Nation's workforce development needs. This economic 
crisis demands an active and engaged Secretary of Labor to begin work 
as soon as possible. Representative Solis is a fine candidate who is 
positioned to lead the department immediately once approved by the 
Senate.
    The L.A. Area Chamber applauds Representative Solis' commitment to 
strengthening workforce training in order to help America's workers 
develop the skills necessary to compete in the global economy. While 
there have been disagreements with Rep. Solis on certain policy issues, 
we believe she would be an asset to the Department of Labor and look 
forward to working with her in that capacity.
    Thus, we support a full Senate vote on her confirmation as soon as 
possible. If you have any questions, please do not hesitate to contact 
me at (213) 580-7500.
            Sincerely,
                                              Gary Toebben,
                                                   President & CEO.
                                 ______
                                 
Mexican American Legal Defense and Educational Fund 
                                          (MALDEF),
                                      Los Angeles, CA 90014
                                                   January 8, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Michael B. Enzi, Ranking Minority Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Mr. Chairman and Senator Enzi: On behalf of the Mexican 
American Legal Defense & Educational Fund (MALDEF), I write in strong 
support for the immediate confirmation of Congresswoman Hilda Solis to 
be the next Secretary of the Department of Labor.
    Congresswoman Solis has the credentials, judgment, expertise and 
dedication to America's working men and women to be one of the most 
outstanding Labor Secretaries in the Department's 95-year history. She 
offers the Nation dedication and leadership to advance the Department's 
mission to foster and promote the welfare of the job seekers, wage 
earners, and retirees of the United States by improving their working 
conditions, advancing their opportunities for profitable employment, 
protecting their retirement and health care benefits, helping employers 
find workers, and strengthening free collective bargaining.
    We at MALDEF have a long history of working with Congresswoman 
Solis, both in her home district of El Monte, a suburb of Los Angeles, 
CA and in Washington, DC where her service in Congress has put her at 
the forefront of causes protecting the environment, ensuring our energy 
future, equipping workers with the tools necessary to compete in the 
21st Century and myriad other everyday concerns of Americans. Hilda 
Solis was also a leader in Sacramento when she served in our State 
Legislature and carried legislation to increase the State minimum wage 
and improve worker safety in the agricultural industry.
    In her district, Congresswoman Solis is a thoughtful problem 
solver. We worked closely with her and her staff when a local city 
council sought to outlaw persons seeking jobs in public, a legislative 
effort that we had previously successfully challenged in court. She was 
instrumental in bringing all interested parties to the conversation 
table, rather than in front of a judge, so that issues could be aired 
and addressed. She has also been a long time supporter of the emerging 
entrepreneurs in MALDEF's LIDER Business program which aids Hispanic 
new business owners to gain the tools and expertise necessary for their 
success. Congresswoman Solis has a track record of bringing people 
together without confrontation in order to resolve problems.
    The U.S. Department of Labor is critically important to the future 
economic well-being of the Nation and, in particular, Hispanic workers. 
Hispanic workers today, particularly immigrants, work in some of the 
most dangerous and difficult jobs in our society. And Hispanic workers 
have the highest levels of industrial deaths. We need vigorous 
enforcement of wage and hour and occupational safety laws. As 
Secretary, Hilda Solis will bring the desperately needed energy and 
leadership to the Department in order to better protect all of 
America's workers. When employers see that their less scrupulous 
competitors' efforts to take short cuts to comply with the law are not 
rewarded by government inaction, greater compliance overall is 
achieved.
    We are confident that Congresswoman Solis, as Secretary of Labor, 
will serve the Nation and our businesses and workers well and urge her 
speedy confirmation by the U.S. Senate.
            Sincerely,
                                             John Trasvina,
                                       President & General Counsel.
                                 ______
                                 
        National Association of Latino Elected and 
                       Appointed Officials (NALEO),
                                           January 8, 2009.
Hon. Edward M. Kennedy, Chairman,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Michael B. Enzi, Ranking Member,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 0510.

Re:  President-elect Obama's nomination of Rep. Hilda Solis as 
Secretary of Labor

    Dear Honorable Senator Kennedy and Senator Enzi: I am writing to 
express the National Association of Latino Elected and Appointed 
Officials (NALEO) Educational Fund's strong support for President-elect 
Barack Obama's nomination of The Honorable Congresswoman Hilda Solis as 
Secretary for the Department of Labor. The NALEO Educational Fund is a 
nonpartisan membership organization whose constituency includes the 
Nation's more than 6,000 elected and appointed Latino officials.
    If confirmed by the Senate, Secretary-designate Solis would make 
American history by becoming the first Latina, and the first Hispanic 
of Central American heritage, to serve as a senior appointed officer of 
one of the 15 executive-level departments. Over the course of her 
career, Representative Solis has demonstrated a commitment to public 
service. Serving in the U.S. House of Representatives since 2001, 
Representative Solis began her career in public service working at The 
White House Office of Hispanic Affairs and later as a management 
analyst in the Civil Rights Division of the Office of Management and 
Budget during the Carter administration.
    In Congress, Representative Solis is the first Latina to serve on 
the powerful House Energy and Commerce Committee, where she is Vice 
Chair of the Environment and Hazardous Materials (EHM) Subcommittee and 
a member of the Health and Telecommunications Subcommittees. She has 
authored and sponsored legislation extending unemployment benefits, 
increasing the Federal Minimum Wage, defending workers' rights to 
organize, securing Federal funds for ``Green Collar'' Jobs, honored 
Labor Leaders, is a supporter of Fair Trade, and is a proponent of 
preventing workplace injuries, as well as being a strong supporter of 
reforming the Agricultural Temporary Worker Program.
    On the world stage, Representative Solis was appointed to the 
Commission on Security and Cooperation in Europe in 2007, as well as 
the Mexico-United States Interparliamentary Group. In June 2007, she 
was elected Vice Chair of the Helsinki Commission's General Committee 
on Democracy, Human Rights and Humanitarian Questions. She is the only 
U.S.-elected official to serve on this committee.
    Representative Solis graduated from California State Polytechnic 
University, Pomona, and earned a Master of Public Administration from 
the University of Southern California. Throughout her political career, 
Representative Solis has demonstrated an active leadership with NALEO 
to not only ensure the issues impacting Latinos are addressed, but also 
to support the organization's efforts to advance the political progress 
of Latinos throughout the country.
    Representative Solis would assume the position of Secretary of 
Labor at a time when the economy is struggling and working families are 
being hit hardest. The NALEO Educational Fund is confident that she has 
the experience, values and capacity to assume this position and 
welcomes President-elect Obama's nomination of her. We look forward to 
working with her in her capacity as Secretary of Labor. Thank you for 
your attention to this matter, and we look forward to continuing our 
work together.
            Sincerely,
                                             Arturo Vargas,
                                                Executive Director.
                                 ______
                                 
              National Education Association (NEA),
                                           January 8, 2009.
Hon. Edward M. Kennedy,
U.S. Senate,
317 Russell Senate Office Building,
Washington, DC 20510-2101.

    Dear Senator Kennedy: On behalf of the National Education 
Association's (NEA) 3.2 million members, we are pleased to support the 
nomination of Representative Hilda Solis as U.S. Secretary of Labor.
    Representative Solis understands that there is a direct connection 
between public education and economic success. From leading the battle 
to increase the minimum wage in California to sponsoring victorious 
legislation in Congress to provide training for green collar jobs, she 
has a solid record on labor and education issues in America.
    As a California State senator, Solis won a substantial victory to 
increase California's minimum wage. In May 2007, after she cosponsored 
the Fair Minimum Wage Act, the Federal minimum wage increase to $7.25 
per hour was signed into law. Her efforts are a positive force for 
labor and show a strong commitment to our working families.
    As a former member of the House Education and Labor Committee, 
Representative Solis showed her understanding of the issues important 
to educators. She consistently earned an ``A'' on NEAs annual 
congressional report card.
    This is a challenging time for our national leaders and working 
families all across America. In addition to the challenges we face in 
education, the nearly 5 million working men and women in our public 
schools are impacted by the decisions of the Labor Department.
    We urge your support for the nomination of Representative Hilda 
Solis as Secretary of Labor.
            Sincerely,
                                         Dennis Van Roekel,
                                                         President.
                                 ______
                                 
        National Hispanic Leadership Agenda (NHLA),
                                      Washington, DC 20036,
                                                   January 6, 2009.
Hon. Edward M. Kennedy, Chairman,
Senate Health, Education, Labor, and Pensions Committee.

Hon. Michael B. Enzi, Ranking Member,
Senate Health, Education, Labor, and Pensions Committee.

    Esteemed Senators: On behalf of the National Hispanic Leadership 
Agenda (NHLA), we are writing to recommend the confirmation of 
Congresswoman Hilda Solis to the full Senate as Secretary of Labor in 
the Administration of President-elect Barack Obama. Founded in 1991, 
the NHLA is a non-partisan entity comprised of 26 leading national and 
regional Hispanic organizations. It was created with the purpose of 
presenting a platform to establish policy priorities on the major 
issues facing the Latino community and the Nation as a whole.
    Hilda Solis has been a bold leader, consistently at the forefront 
of the issues that matter most to Latinos in this country. She has 
advocated for working families on several crucial fronts, fighting to 
reduce poverty, increase economic opportunities, reduce health care 
disparities, promote fair and humane immigration reform, and guiding 
our country to a more conscientious and sustainable future in the 
matters of energy and the environment. She has also consistently 
demonstrated sound judgment in her efforts to find balance between 
national economic priorities, the needs of business, and the needs of 
workers.
    Hilda Solis is an extraordinary woman who would assume the position 
of Secretary of Labor at a time when the economy is struggling and 
working families are being hit hardest. We are confident that she has 
the experience and values needed to ensure that America's working 
families and businesses prosper in the efforts to find solutions for 
the current economic crisis.
    The selection of Hilda Solis to head the Department of Labor (DOL) 
reflects the change that President-elect Barack Obama promised. By 
choosing Solis--a qualified and experienced individual--the President-
elect not only honors the Latino community and women of all colors, but 
this country as a whole. Her strong social values and pragmatic 
approach will certainly be the guiding principles that direct her in 
her role as Secretary of Labor.
    The NHLA fully supports Congresswoman Solis and trusts that as part 
of the cabinet of President-elect Barack Obama, she will return 
stability to the U.S. workforce by emphasizing the fair enforcement of 
Federal labor laws.
            Sincerely,
                                             John Trasvina,
                                                             Chair.

                                     Dr. Gabriela D. Lemus,
                                                        Vice-Chair.
                                 ______
                                 
                 New England Farm Workers' Council,
                                     Springfield, MA 01103,
                                                  January 12, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
317 Russell Senate Office Building,
Washington, DC 20510.

    Dear Senator Kennedy: As your ever supportive constituents since 
our inception in 1971, we are delighted to endorse the nomination of 
Congresswoman Hilda L. Solis as Secretary of Labor of the United 
States.
    Congresswoman Solis has demonstrated an unsurpassed commitment to 
the defense and improvement of the working conditions of migrant and 
seasonal farmworkers in California and throughout the Nation. After 8 
years of assault on the economic and legal protections that were built 
by you and your family for the people who help place food on our 
tables, after years of zeroing-out of funding for employment and 
training services for farmworkers wishing to improve their lives, we 
finally have a Secretary of Labor who will stand up for our most 
vulnerable employees.
    We look forward to working with Secretary Solis to further the 
wonderful work you have always advocated on behalf of migrant and 
seasonal farmworkers in New England and around the country.
    Please be assured of our thoughts and prayers for your continued 
success in the Senate and at home.
            Cordially,
                                          Heriberto Flores,
                                                Executive Director.
                                 ______
                                 
      National Hispanic Medical Association (NHMA),
                                      Washington, DC 20005,
                                                   January 8, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Michael B. Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Mr. Chairman and Senator Enzi: On behalf of the National 
Hispanic Medical Association (NHMA), I write to you in strong support 
for the immediate confirmation of Congresswoman Hilda Solis to be the 
next Secretary of the Department of Labor.
    I have known Congresswoman Solis for over 20 years. She is very 
passionate and dedicated to improving the lives of the people of the 
Greater San Gabriel Valley and Los Angeles County. I can personally 
attest to her abilities in working with our communities, as I too was 
raised in her congressional district. Since the Congresswoman came to 
Washington, DC she has chaired the Congressional Health Task Force, 
working closely with the NHMA, it's Council of Medical Societies and 
all of our national networks.
    Congresswoman Solis offers the Nation dedication and leadership to 
advance the Department's mission to foster and promote the welfare of 
the job seekers, wage earners, and retirees of the United States by 
improving their working conditions and transforming the retirement and 
health care benefits for a more productive society.
    We at NHMA have a long history working with Congresswoman Solis in 
developing new strategies to increase access to health care and 
prevention of chronic diseases that impact communities across America.
    In summary, we strongly support the confirmation of Congresswoman 
Solis as Secretary of Labor by the U.S. Senate.
            Sincerely,
                                 Elena V. Rios, M.D., MSPH,
                                                   President & CEO.
                                 ______
                                 
          National Hispanic Media Coalition (NHMC),
                                        Pasadena, CA 91105,
                                                   January 8, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Michael B. Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Mr. Chairman and Senator Enzi: As the President & CEO of the 
National Hispanic Media Coalition (NHMC), a 22-year-old civil rights, 
media advocacy organization, l write in strong support for the 
immediate confirmation of Congresswoman Hilda Solis to be the next 
Secretary of Labor under the new administration of President-elect 
Barack Obama.
    Founded in 1986, the NHMC works to advance American Latino 
employment and programming equity throughout the media and 
entertainment industries and to advocate for telecommunications 
policies that benefit the American Latino community. As such, we have 
had the pleasure of working with Congresswoman Solis on many issues 
that impact the American Latino community, including the upcoming 
Digital Television (DTV) transition in February, which we anticipate 
will have a greater negative impact on Latino families versus non-
Latino families across the country.
    Congresswoman Solis has the credentials, judgment, expertise and 
dedication to the working men and women of America to be one of the 
most outstanding Labor Secretaries in the history of the Department. 
Additionally, Ms. Solis has consistently been at the forefront of the 
issues that matter most to Latinos in this country, working tirelessly 
to reduce poverty, increase economic opportunities, reduce health care 
disparities, promote fair and humane immigration reform for our 
Nation's largest minority community.
    We, at NHMC, have a long history of working with Congresswoman 
Solis, both in her home district of El Monte, CA, and in Washington, DC 
where her service in Congress has put her at the forefront of causes 
that protect the interests of American Latinos as they relate to 
employment and programming equity in our media and entertainment 
industries. As an organization directly involved in securing diversity 
in the media for all Americans of color, the NHMC is confident that 
Congresswoman Solis, as Secretary of Labor, will serve the Nation, our 
businesses and workers well and therefore urge her speedy confirmation 
by the U.S. Senate.
            Sincerely,
                                              Alex Nogales,
                                                   President & CEO.
                                 ______
                                 
      International Federation of Professional and 
                       Technical Engineers (IFPTE),
                                      Washington, DC 20001,
                                                  January 13, 2009.

    Dear Senator: As President of the International Federation of 
Professional and Technical Engineers (IFPTE), AFL-CIO, I am writing 
regarding Wednesday's Health, Education, Labor, and Pensions (HELP) 
Committee's consideration of Congresswoman Hilda Solis for Secretary of 
Labor. IFPTE asks that you support this stellar candidate.
    As you know the economy has shed 2.6 million jobs in 2008, raising 
America's unemployment rate to an alarming 7.2 percent. Unfortunately, 
the forecast for the foreseeable future is not getting any better. In 
fact, just as they increased their dividends to their shareholders. The 
Boeing Company, where IFPTE represents over 20,000 workers, just 
announced on Friday that they were going to lay off 4,500 workers. This 
is not only an example of how business is more than willing to reward 
stockholders at the expense of their employees, but is also reflective 
of what hundreds of thousands of workers are facing all across America. 
Sadly, the last 8 years has seen a Department of Labor (DOL) that has 
actually encouraged these types of unsavory business practices.
    American workers are desperate for a Labor Secretary that will work 
to protect THEIR rights on the job and will play a critical role in 
improving economic opportunities for working families. To his credit, 
President-elect Obama has chosen a candidate who will be a true 
advocate for our Nation's middle-class workers. IFPTE believes that 
Representative Solis has the professional expertise and life experience 
necessary to fill this critically important position at this very 
uncertain time in our Nation's history.
    Congresswoman Solis has dedicated her public life to improving the 
lives of working men and women. She is one of seven children, whose 
father worked as a railroad worker, a laborer, a farm worker, and in a 
battery recycling plant, where he served his coworkers as a shop 
steward for the International Brotherhood of Teamsters (IBT). Her 
mother, who emigrated from Nicaragua, was a stay-at-home mother until 
she was forced to seek employment at a Mattel toy factory to help 
support her family. It is this working class upbringing and background 
that have influenced her career in public life. As she said before your 
committee on January 9th, ``my passion for improving opportunities for 
middle-class Americans is the product of my life story.''
    Her public record certainly proves as a testament to her passion 
for working people. She hit the ground running in 1992 when she was 
elected to the California legislature, authoring 17 pieces of 
legislation aimed directly at working families and the economy. This 
included legislation aimed at strengthening workers rights, protecting 
victims of domestic violence, and growing the economy. When she entered 
the House of Representatives in 2001 Congresswoman Solis was a leader 
in championing the bread and butter issues impacting working people. 
IFPTE is particularly pleased with her interest in implementing 
policies aimed at creating the next generation of green jobs. IFPTE 
believes these jobs will reinvigorate American innovation and create 
hundreds of thousands of highly technical opportunities here in the 
United States for engineers, scientists, technicians and many other 
occupations. Of course IFPTE also applauds Congresswoman Solis for her 
steadfast support of American workers' right to better their working 
conditions through collective bargaining.
    IFPTE believes that Representative Solis is well-suited to be the 
Nation's top advocate for working people. We wholeheartedly endorse her 
to be the next Secretary of Labor and ask that, as a member of the 
Senate HELP Committee, you vote to support her candidacy.
    Thank you for your consideration.
            Sincerely,
                                       Gregory J. Junemann,
                                                         President.
                                 ______
                                 
          United States-Mexico Chamber of Commerce,
                                 Alexandria, VA 22312-2320,
                                                  January 29, 2009.
Hon. Edward M. Kennedy, Chairman,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
317 Russell Senate Office Building,
Washington, DC 20510-2101.

    Dear Senator Ted Kennedy: We urge confirmation of Congresswoman 
Hilda Solis (D-CA) to be the United States Secretary of Labor.
    During her tenure as the Representative of the 32d Congressional 
District of California since 2000, she has worked with our Chamber on 
many key issues that impact U.S workers and labor mobility throughout 
the Southwestern States.
    Congresswoman Solis has participated in our Annual Congressional 
U.S.-Mexico Border Issues Forum on Capitol Hill along with many of her 
colleagues in the Congress, government officials and business leaders 
throughout the United States.
    U.S.-Mexico Chamber of Commerce is celebrating its 35th year since 
its inception in 1973 and is the leading bi-national business 
association serving over 1,500 U.S. major, medium and small businesses.
    We feel that Congresswoman Solis will be good for both the American 
worker and our businesses in the United States, as we move into these 
turbulent economic times.
    We look forward to your rapid confirmation of Congresswoman Hilda 
Solis as U.S. Secretary of Labor.
            Sincerely,
                                         Albert C. Zapanta,
                                                   President & CEO.

    [Whereupon, at 11:35 a.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
